<html>
<title> - THE WAR IN KOSOVO AND A POSTWAR ANALYSIS</title>
<body><pre>[Senate Hearing 106-265]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-265
 
                THE WAR IN KOSOVO AND A POSTWAR ANALYSIS

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

               APRIL 20, SEPTEMBER 28, AND OCTOBER 6, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 57-452 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              

                        Tuesday, April 20, 1999
                           The War in Kosovo

                                                                   Page

Albright, Hon. Madeleine K., Secretary of State..................     4
    Prepared statement of........................................     7
Responses of Hon. Madeleine K. Albright to additional questions 
  for the record submitted by Senator Joseph R. Biden, Jr........    38

                      Tuesday, September 28, 1999
            U.S. Kosovo Diplomacy: February 1998-March 1999

Biden, Senator Joseph R., Jr., prepared statement................    75
Daalder, Ivo H., senior fellow, Brookings Institution............    53
    Prepared statement of........................................    55
Dole, Hon. Robert, former U.S. Senator from Kansas...............    41
    Prepared statement of........................................    47
        Remarks by Senator Bob Dole--Kosovar Albanian 
          Conference--Lansdowne, Virginia, September 13, 1999....    49
Kagan, Robert, senior associate, Carnegie Endowment for 
  International Peace, director, U.S. Leadership Project.........    57
    Prepared statement of........................................    62

                       Wednesday, October 6, 1999
           The Conduct of the NATO Air Campaign in Yugoslavia

Brzezinski, Hon. Zbigniew, counselor, Center for Strategic and 
  International Studies, Washington, DC..........................    79
    Prepared statement of........................................    81
Cohen, Dr. Eliot, professor and director of Strategic Studies, 
  the School for Advanced International Studies, Johns Hopkins 
  University, Washington, DC.....................................    91
Taft, Hon. William H. IV, partner, Fried, Frank, Harris, Shriver 
  & Jacobson, Washington, DC.....................................    87
    Prepared statement of........................................    89

                                 (iii)


                           THE WAR IN KOSOVO

                              ----------                              


                        TUESDAY, APRIL 20, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m. in room 
SD-106, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Lugar, Hagel, Smith, Grams, 
Brownback, Thomas, Ashcroft, Frist, Biden, Sarbanes, Dodd, 
Kerry, Feingold, Wellstone, Boxer, and Torricelli.
    The Chairman. The committee will come to order. Madam 
Secretary, before we begin, I want it a matter of public record 
that I have been amazed and I have been grateful for the number 
of times I know you called me from overseas at 2 in the 
morning, and I think Senator Biden and I will agree that she 
has kept this committee advised of everything that she could 
possibly tell us about, and it has been very helpful.
    Now, a great deal of it you have mentioned you hoped we 
would not say anything about in public, but anyway, it is a 
pleasure to work with you, and we welcome you to this important 
hearing to discus the war in Kosovo, a subject which you and I 
have discussed many times.
    As in all of our previous conversations you have been 
unfailingly honest, and that goes a long way in this town. 
Certainly it goes a long way with me. I have felt no need to 
discuss the details of our conversation in the media.
    Now, a few of us around this town have had the honor to 
serve in the Armed Forces at a time when criticizing our 
country simply did not happen. Senator Thurmond was on board 
when the World War II death camps were liberated. That was the 
same war in which I was honored to render totally unglamorous 
and unimportant naval service. I volunteered on Pearl Harbor 
afternoon and finally got in despite some hearing difficulty, a 
war in which this committee's chief of staff, Admiral Nance, 
was a young naval officer fighting back the Japanese in the 
Pacific.
    Madam Secretary, I am a little emotional about this. My 
generation believed that when our country is at war we must all 
measure our words carefully. I never criticized our country 
during World War II, or Korea, or Vietnam, or Desert Storm, and 
I am not going to do it now, when our Armed Forces are flying 
into a distinct possibility of harm's way, and this is no time 
for political grandstanding or political rhetoric, and so we 
meet today in the gravest of circumstances, while the Nation is 
in fact at war, whether we call it that or not, against a cruel 
and ruthless and determined enemy.
    There will be time later on to examine in detail 
opportunities, if any, that the United States missed that might 
have spared us from an extended and violent nightmare of 
destruction, suffering unquestionable episodes of bad judgment. 
I do not know. That remains to be seen.
    Let it be known that I am, of course, personally horrified 
that at the end of the 20th century, here we are witness to a 
display of incredible inhumanity. More than a million Kosovar 
Albanians have been forced to flee their homes as a result of 
Milosevic and his brutal policies.
    Since launching their crackdown against the Albanian 
population of Kosovo, Serbian forces have killed thousands of 
people, including innocent women and children. The same Serbian 
forces have offered ethnic Albanians the choice of being 
forcibly deported or murdered. The same Serbian forces have 
engaged in a campaign of massive destruction of ethnic Albanian 
villages throughout Kosovo to make certain that these victims 
will be unable to return to their homes and rebuild their 
lives.
    Now, the administration has defined the U.S. objective in 
Kosovo as an intent to achieve a durable peace that prevents 
further repression and provides for democratic self-government 
of the people. This is an abstract definition, perhaps, but I 
hope you will elaborate precisely on what that means, to the 
extent you are able to do so.
    Now, how do NATO air strikes, or the introduction of NATO 
ground troops contribute to meeting that stated goal? Is the 
United States still willing to negotiate with Milosevic? Do we 
support independence for Kosovo? Will we secure peace if and 
when peace is ever reached, and what and how much are we 
willing to sacrifice in terms of American blood and treasure to 
meet these goals?
    Madam Secretary, I know that Senator Biden and other 
members of this committee likewise welcome you and thank you 
for coming today to meet with us on where we are and where we 
are trying to go.
    I yield to the distinguished ranking member.
    Senator Biden. Thank you very much, Mr. Chairman.
    Mr. Chairman, the good news is the Secretary keeps in 
touch. The bad news is, she keeps in touch, in the sense that I 
know, at least speaking for myself, I cannot pretend not to 
know what she has been about, and in a sense from my 
perspective we have the right person and the wrong person 
before us, the right person before us because she is Secretary 
of State, and the wrong person before us because I already know 
what she has been doing and what she thinks on most of these 
issues, so I am not going to take a lot of time when others who 
have not had as much opportunity to work with her on this get a 
chance to question her.
    I would like to say at the outset, I just returned with 
some of my colleagues from a trip, as others have, down to 
Macedonia and Albania and as well as we visited the troops in 
Italy, and met with SHAPE and at NATO in Brussels, and one of 
the things--and met with a number of European ambassadors to 
NATO, seven in all, I believe.
    I came away with several impressions, that the good news is 
that we have an alliance. The bad new is, we have an alliance, 
because although I know there are a number of things the 
Secretary and the President would like to see done if we were 
pursuing this war alone, some are not getting done because 
there is an alliance, and the alliance has to stay together.
    For example, if this was not a NATO operation, I doubt 
whether there would be a scintilla of support up here in the 
Congress for our use of force if we were going it alone, so we 
are kind of caught between a rock and a hard spot, as the last 
President, this President, and the next President will be, in 
prosecuting goals set out by an alliance where members have 
slightly different perspectives.
    I came back, Mr. Chairman, startled that the alliance has 
stayed together as well as it has so far, and slightly 
concerned that, as we get down to having to contemplate the 
loss of American and NATO lives by increasing the risks of 
operations, that the resolve may not stick, and so I would say 
to the Secretary that I appreciate her steadfastness here. She 
has made it clear, and I hope she continues to give everyone 
involved in this administration and alliance the stick-to-it-
iviness and determination that she has about the need to 
prevail.
    One of the things, Madam Secretary, I think is going to be 
very, very important for you to convince this committee of and 
the Congress and in turn the American people is what 
constitutes prevailing--what constitutes prevailing--and as I 
understand it, it is the removal of paramilitary, police and 
military forces under the control of Milosevic from Kosovo, the 
reintroduction of the folks who are displaced persons, 
approaching three-quarters of a million now, and their 
guaranteed security with an international NATO-led force in 
Kosovo until things are squared away.
    There are other purposes we have in mind. I agree with Dick 
Lugar that until there is a democracy in Serbia, nothing is 
ultimately going to be resolved, and as long as Milosevic is 
there it is going to be near impossible to achieve--impossible 
to achieve that, and there is going to be a lot of 
destabilization in the region, but I think if you can make 
clear what the objectives of NATO are, it would be helpful, at 
least to me, and I think to the committee, and second, that if 
you would remind us all of, as--let me--strike that.
    Let me conclude by just saying, I thank Senator Helms for 
the way in which he has handled this matter, this matter 
meaning the war in Kosovo. There is a lot of very early second-
guessing, a lot of very early decisions made about whether or 
not the air campaign is a success or a failure. There is a lot 
of very early handicapping of what is going to happen. I 
appreciate his patience, and the patience of others in waiting 
to see whether or not the course we've embarked upon with 18 
other nations, whether or not that course can bear the fruit 
that we think it can.
    I for one think, Madam Secretary, and John McCain and I 
introduced along with Senator Hagel and others a joint 
congressional resolution today not calling for the use of 
ground troops, but authorizing the Congress to step up to the 
ball and tell the President in advance anything he needs, 
including ground troops, although those words are not 
mentioned, anything he needs to prosecute this war to a 
successful conclusion he will have.
    I doubt whether we will act on that in the near term, based 
on the Senate and House leadership, but I do think that 
Slobodan Milosevic should understand that you are not standing 
alone in this effort, it is not merely a Presidential decision, 
and I am not asking you about ground troops, but suggesting to 
you only that we withhold our fire in a political sense until 
we give this air campaign the time that is needed, and it has 
not had sufficient time, and I thank the chairman for having 
done that.
    I yield to the chairman and thank you for being here.
    The Chairman. Thank you, Senator. I appreciate your kind 
words.
    Now we will hear from you, Madam Secretary.

  STATEMENT OF HON. MADELEINE K. ALBRIGHT, SECRETARY OF STATE

    Secretary Albright. Thank you very much, Mr. Chairman, and 
Senator Biden. Let me also say that, in terms of contacts with 
this committee, I think we have a really good record. I find it 
very helpful and useful that all of you in various ways take my 
phone calls at various times of the day and night, depending 
upon what time zone we are in, and over the weekends. I think a 
lot of business takes place that does not wait for Senate 
hearings, but goes on on an ongoing basis. And I have to say 
that Admiral Nance's perpetual presence is something that is 
very important to this Secretary of State because he is also 
always reachable. So it is a great pleasure to be here again 
with all of you.
    I intend to lay out America's stake in the outcome of the 
Kosovo crisis today, the events that brought us to this point, 
the status of our military and diplomatic efforts, and our 
vision for the future.
    As you know, Mr. Chairman, and Senators, the potential 
dangers of the situation in Kosovo have long been recognized, 
but our concerns were heightened when early last year Serb 
President Milosevic initiated a violent campaign of repression. 
One result was a humanitarian crisis as thousands of Albanians 
fled their homes, and a second result, unforeseen by him, was 
the strengthening of the Kosovar Liberation Army, the KLA, 
which contributed to the unrest by committing provocative acts 
of its own.
    With our allies and partners, the United States sought to 
end this cycle of violence by diplomatic means, and last 
October President Milosevic agreed to a cease-fire that would 
have allowed many of the displaced to return home. It soon 
became clear, however, that Milosevic had no intention of 
keeping this agreement. His security forces positioned 
themselves for a new offensive and then massacred the villagers 
in Racak. At Rambouillet, Belgrade rejected a plan for peace 
while preparing a plan for barbarism, a plan for the ethnic 
cleansing of the entire Kosovo Albanian community.
    We have all seen the resulting images of families uprooted 
and put on trains, children crying for parents they cannot 
find, refugees recounting how loved ones were led away, and 
ominous aerial photos of freshly upturned earth.
    Behind these images is a reality of people no different in 
their fundamental rights or humanity than you or me, or 
children no different than yours or mine, cutoff from their 
homes and robbed of their dreams. Make no mistake, this 
campaign of terror was the cause, not the result of NATO 
action. It is a Milosevic production.
    NATO's decision to use force against the Milosevic regime 
was necessary and right, and the conditions the Alliance has 
set for ending its campaign are clear, just, and firm. There 
must be a verifiable stop to Serb military action against the 
people of Kosovo. Belgrade's military police and paramilitary 
forces must leave so that the refugees can return. An 
international military presence must be permitted to go into 
Kosovo, and the people of Kosovo must be given the democratic 
self-government they have long deserved.
    As President Clinton has said, as long as Milosevic refuses 
to accept these conditions, NATO's air campaign will continue, 
and we will seek to destroy as much of Belgrade's military 
capabilities as we can. Each day, Milosevic's capacity to 
conduct repression will diminish.
    It is evident that our military efforts are having a 
significant impact, but we must maintain the pressure until an 
acceptable outcome is achieved. At the same time, we will 
continue to help those in the region cope with the humanitarian 
disaster Milosevic has created.
    More than a half million Kosovars have fled Serbia since 
the latest violence began. Of these, the vast majority are now 
in Albania and Macedonia, where feverish efforts are underway 
to build camps and provide services. Thus far, we have 
contributed $150 million to this effort, and yesterday the 
President submitted an emergency supplemental request that 
includes $386 million in additional State Department and USAID 
humanitarian assistance funds.
    Many of the refugees have reported Serb war crimes and 
crimes against humanity. These abuses include the destruction 
of entire settlements, the burning of homes, the seizure of 
civilians for use as human shields, the rape of ethnic Albanian 
women and girls, and the systematic separation and execution of 
military-aged men.
    There should be no misunderstanding. When it comes to the 
commission of war crimes, just following orders is no defense. 
There is no statute of limitations, and the War Crimes Tribunal 
has rightly indicated that it will follow the evidence wherever 
it leads. By helping to document refugee accounts, and by 
compiling and sharing other evidence, the U.S. Government is 
and will continue to assist the tribunal in its efforts to hold 
perpetrators accountable.
    Mr. Chairman, in dealing with Kosovo prior to the last week 
of March, we were engaged in diplomacy backed by the threat of 
force. Since that time, we have used diplomacy to back NATO's 
military campaign. First, we have worked to ensure that NATO 
remains united and firm, and today we have been heartened by 
the broad participation and strong support the military 
campaign has received.
    No country in NATO wanted to have to use force against 
Serbia, but no country in NATO is willing to stand by and 
accept in Europe the expulsion of an entire ethnic community 
from its home. Our second diplomatic objective has been to help 
leaders in the countries directly affected to cope with the 
humanitarian crisis and prevent a wider conflict. The 
President's supplemental request includes $150 million in 
emergency aid to these nations and to democratic Montenegro.
    Our third objective is to work constructively with Russia. 
When I met with Foreign Minister Ivanov last week, he was clear 
about Russia's opposition to the NATO air campaign, but we 
agreed on the need for an end to the repression, the withdrawal 
of Serb forces, and the return of refugees. Where we differ is 
over the kind of international presence required to achieve 
these goals.
    We believe that after what Milosevic has done in Kosovo, 
refugees will not be able to return home unless the protective 
force is credible, which requires that its core must come from 
NATO. As in Bosnia, however, we think that Russia could and 
should play an important role in that force, and we would 
welcome the participation of NATO's other partner countries.
    Our fourth diplomatic objective has been to ensure that 
NATO's message is understood, and we are providing information 
on a regular basis to nations around the world. We are also 
trying to pierce the veil of propaganda with which Milosevic 
has tried to shroud the people of former Yugoslavia.
    In the days and weeks to come, we will press ahead with our 
military, diplomatic, and humanitarian strategies. Our desire 
is to begin as soon as possible the vital work of returning 
refugees, reuniting, and rebuilding Kosovo, but we are not 
interested in a phony settlement based on unverifiable 
assumptions or on Milosevic's worthless word. The only 
settlement we can accept is one we have the ability to verify 
and the capability to enforce.
    Even as we respond to the crisis in Kosovo, we must also 
concern ourselves more broadly with the future of the region. 
Some say that violence is endemic to the Balkans, and that its 
people have never and will never get along. I am no prophet, 
but certainly the scars of the past are still visible, and the 
wounds opened by the current devastation will take much time to 
heal. But the evidence is there in the testimony of average 
people, whether in Zagreb or Tirana, Sarajevo, or Skopje, that 
they are far more interested in plugging into the world economy 
than slugging it out with former adversaries.
    During the NATO summit, the President and our partners will 
discuss the need for a coordinated effort to transform the 
Balkans from the continent's primary source of instability into 
an integral part of the European mainstream. This will require 
a commitment from us. It will require the involvement of the 
European Union and the international financial institutions. It 
will require a continued willingness on the part of local 
leaders to work together, and it will require ultimately a 
change in leadership in Belgrade, so the democratic aspirations 
of the Serb people may be fulfilled and the isolation of the 
former Yugoslavia can end.
    Mr. Chairman and Senators, I understand that the 
congressional leadership will be hosting a reception this week 
for our visitors from the NATO countries, and I hope you will 
thank them for their effort and stress to them the importance 
of standing together and standing tall until the current 
confrontation is settled.
    As the President and our military leaders have warned, this 
struggle may be long. We can expect days of tragedy for us as 
well as for the people of the region, but we must not falter, 
and we cannot fail. By opposing Slobodan Milosevic's murderous 
rampage, NATO is playing its rightful role as a defender of 
freedom and security within the Euro-Atlantic region.
    Because our cause is just we are united, and because we are 
united, we are confident that in this confrontation between 
barbaric killing and necessary force, between vicious 
intolerance and respect for human rights, between tyranny and 
democracy, we will prevail. To that essential objective I 
pledge the full measure of my own efforts and respectfully 
solicit both your wise counsel and support. I thank you very 
much, and I am now ready to answer questions.
    [The prepared statement of Secretary Albright follows:]

            Prepared Statement of Hon. Madeleine K. Albright

    Good afternoon, Mr. Chairman, and Senators, I am pleased to appear 
before you concerning U.S. and NATO policy towards the crisis in 
Kosovo.
    My intention is to lay out concisely America's stake in the outcome 
of this crisis; the events that brought us to this point; the status of 
our military, diplomatic and humanitarian efforts; and our vision for 
the future.
    As you know, Mr. Chairman, the potential dangers of the situation 
in Kosovo have been recognized throughout this decade. Slobodan 
Milosevic first vaulted to prominence by exploiting the fears of ethnic 
Serbs in this province. A decade ago, he catered to those fears by 
robbing Kosovo Albanians of their cherished autonomy. For years 
thereafter, the Kosovo Albanians sought to recover their rights by 
peaceful means. And in 1992, after fighting had broken out elsewhere in 
the Balkans, President Bush issued a warning against Serb military 
repression in Kosovo.
    Meanwhile, President Milosevic was the primary instigator in three 
wars, attacking first Slovenia, then Croatia, and finally triggering a 
devastating and prolonged conflict in Bosnia.
    Early last year, he initiated a more extensive and violent campaign 
of repression against ethnic Albanians in Kosovo. One result was a 
humanitarian crisis, as tens of thousands of people fled their homes. A 
second consequence--unforeseen by him--was the strengthening of the 
Kosovar Liberation Army (KLA), which contributed to the unrest by 
committing provocative acts of its own.
    With our allies and partners, including Russia, the United States 
sought to end this cycle of violence by diplomatic means. Last October, 
President Milosevic agreed to a ceasefire, to the withdrawal of most of 
his security forces, and to the entry of a verification mission from 
the OSCE.
    It soon became clear, however, that Milosevic never had any 
intention of living up to this agreement. Instead of withdrawing, his 
security forces positioned themselves for a new offensive. Early this 
year, they perpetrated a massacre in the village of Racak. And at 
Rambouillet, Belgrade rejected a plan for peace that had been accepted 
by the Kosovo Albanians, and that included provisions for disarming the 
KLA, and safeguarding the rights of all Kosovars, including ethnic 
Serbs.
    Even while blocking our diplomatic efforts, Milosevic was preparing 
a barbaric plan for expelling or forcing the total submission of the 
Kosovo Albanian community. First, his security forces threatened and 
then forced the withdrawal of the OSCE mission. Then, a new rampage of 
terror began.
    We have all seen the resulting images of families uprooted and put 
on trains, children crying for parents they cannot find, refugees 
recounting how loved ones were separated and led away, and ominous 
aerial photos of freshly-upturned earth.
    Behind these images is a reality of people no different in their 
fundamental rights or humanity than you or me--of children no different 
than yours or mine--cut off from their homes, deprived of their 
families, robbed of their dreams. And make no mistake, this campaign of 
terror was the cause, not the result, of NATO action. It is a Milosevic 
production.
    Today, our values and principles, our perseverance and our 
strength, are being tested. We must be united at home and with our 
Allies overseas.
    The stakes are high.
    To understand why that is, we need, as President Clinton has 
repeatedly urged, to consult the map. Kosovo is a small part of a 
region with large historic importance and a vital role to play in 
Europe's future.
    The region is a crossroads where the Western and Orthodox branches 
of Christianity and the Islamic world meet. It is where World War I 
began, major battles of World War II were fought, and the worst 
fighting in Europe since Hitler's surrender occurred in this decade.
    Its stability directly affects the security of our Greek and 
Turkish allies to the south, and our new allies Hungary, Poland and the 
Czech Republic to the north. Kosovo itself is surrounded by small and 
struggling democracies that are being overwhelmed by the flood of 
refugees Milosevic's ruthless policies are creating.
    Today, this region is the critical missing piece in the puzzle of a 
Europe whole and free. That vision of a united and democratic Europe is 
critical to our own security. And it cannot be fulfilled if this part 
of the continent remains wracked by conflict.
    Further, Belgrade's actions constitute a critical test of NATO, 
whose strength and credibility have defended freedom and ensured our 
security for five decades. To paraphrase Senator Chuck Hagel, today, 
there is a butcher in NATO's backyard, and we have committed ourselves 
to stopping him. History will judge us harshly if we fail.
    For all of these reasons, NATO's decision to use force against the 
Milosevic regime was necessary and right. And the conditions the 
Alliance has set for ending its campaign are clear, just and firm.
    There must be a verifiable stop to Serb military action against the 
people of Kosovo. Belgrade's military, police and paramilitary forces 
must leave so that refugees can return. An international military 
presence must be permitted. And the people of Kosovo must be given the 
democratic self-government they have long deserved.
    As President Clinton has said, as long as Milosevic refuses to 
accept these conditions, NATO's air campaign will continue, and we will 
seek to destroy as much of Belgrade's military capabilities as we can. 
Each day, Milosevic's capacity to conduct repression will diminish.
    It is evident that the efforts of our courageous military forces 
are having a significant impact on Milosevic's options and abilities. 
But that impact is not yet sufficient. We must maintain the pressure 
until an acceptable outcome is achieved.
    At the same time, we will continue to help those in the region cope 
with the humanitarian disaster Milosevic has created.
    We do not know with any certainty how many people are now homeless 
inside Kosovo, but officials estimate as many as 800,000. Belgrade has 
made a terrible situation worse by interfering with efforts to provide 
food and other basic necessities. We are exploring every possible 
option for helping these people before it is too late. And we welcome 
efforts by Greek NGO's and the International Committee of the Red Cross 
to open up a relief lifeline, which we hope will move desperately 
needed supplies to the population at risk.
    In addition to the internally displaced, more than half a million 
Kosovars have fled the region since the latest violence began. Of 
these, the vast majority are now in Albania and Macedonia, where the 
terrain is rugged, the weather harsh and the infrastructure limited. 
Feverish efforts are underway to build camps and provide services. With 
local officials, the UNHCR, WHO, UNICEF, our allies and partners, and 
nongovernmental organizations, we are struggling to save lives, 
maintain health and restore hope.
    Thus far, we have contributed $150 million to this effort. 
Yesterday, the President submitted an emergency supplemental request 
that includes $386 million in additional State Department and USAID 
humanitarian assistance funds, and $335 million in Defense Department 
humanitarian assistance. Last week, NATO approved Operation Allied 
Harbor, under which 8,000 troops will work with relief agencies in 
Albania to establish camps, deliver aid and ensure security. The U.S. 
Information Agency is participating in an effort to provide internal 
communications facilities at refugee camps in order to help reunify 
families.
    Many of the refugees streaming out of Kosovo have reported Serb war 
crimes and crimes against humanity. These reported abuses include the 
widespread and systematic destruction of entire settlements, the 
burning of homes, the seizure of civilians for use as human shields and 
human blood banks, the rape of ethnic Albanian women and girls, and the 
systematic separation and execution of military-aged men.
    For example, there have been reports of the killing of 60 men in 
Kacanik; and of the burial of 24 people at Glavnik, 30 in Lapastica, 
150 in Drenica, 34 in Malisevo, 100 in Pristina; and other suspected 
mass burials at Pusto Selo and Izbica, where refugees reported that 
victims were first tortured and then burned to death.
    There should be no misunderstanding. When it comes to the 
commission of war crimes or crimes against humanity, ``just following 
orders'' is no defense. In the prosecution of such crimes, there is no 
statute of limitations. And the international war crimes tribunal has 
rightly indicated that it will follow the evidence no matter where it 
leads.
    The tribunal has already put Milosevic and 12 other FRY or Serbian 
officials on notice that forces under their command have committed war 
crimes, and that failure to prosecute those responsible can give rise 
to criminal charges against them. The United States has publicly 
identified nine military commanders whose forces may have been involved 
in the commission of such crimes.
    By helping to document refugee accounts, and by compiling and 
sharing other evidence, we are and will continue to assist the tribunal 
in its effort to hold perpetrators accountable.
    Mr. Chairman, in dealing with Kosovo prior to the last week of 
March, we were engaged in diplomacy backed by the threat of force. 
Since that time, we have used diplomacy to back NATO's military 
campaign.
    Our diplomacy has several objectives. The first is to ensure that 
NATO remains united and firm. To this end, I met with Alliance foreign 
ministers in Brussels last week. And the President will meet with his 
counterparts here in Washington at the NATO Summit on Friday and 
Saturday. To date, we have been heartened by the broad participation 
and strong support the military campaign has received. In one way or 
another, every Ally is contributing.
    Our unity has been strengthened by the knowledge that Milosevic 
refused a diplomatic settlement and by revulsion at his campaign of 
ethnic cleansing. No country in NATO wanted to have to use force 
against Serbia. But no country in NATO is willing to stand by and 
accept in Europe the expulsion of an entire ethnic community from its 
home.
    Our second diplomatic objective has been to help leaders in the 
countries directly affected to cope with the humanitarian crisis, and 
to prevent a wider conflict. To this end, I have been in regular 
contact with my counterparts from the region. Their leaders will 
participate as partners in the NATO Summit. And the President's 
supplemental request includes $150 million in emergency and project 
assistance to these nations and to democratic Montenegro.
    Our third objective is to work constructively with Russia. We want 
to continue to make progress in other areas of our relationship, and to 
bring Russia back into the mainstream of international opinion on 
Kosovo.
    When I met with Foreign Minister Ivanov last week, he was clear 
about Russia's opposition to the NATO air campaign. But we did agree on 
the need for an end to the violence and repression in Kosovo; the 
withdrawal of Serb forces; the return of refugees and internally 
displaced persons; and unimpeded access for humanitarian aid.
    Where we continue to have differences is over the kind of 
international presence required to achieve these objectives. As I told 
Foreign Minister Ivanov, after Milosevic's depredations in Kosovo, 
refugees will not be able to return home unless the protective force is 
credible, which requires that its core must come from NATO. As in 
Bosnia, however, we think that Russia could and should play an 
important role in that force, and we would welcome the participation of 
NATO's other partner countries, as well.
    Our fourth diplomatic objective has been to ensure that NATO's 
message is understood around the world. We are engaged in a vigorous 
program of public diplomacy, and have provided information on a regular 
basis to nations everywhere.
    We have been encouraged by strong statements from the European 
Union and UN Secretary General Kofi Annan, and by the participation in 
relief efforts of diverse countries such as Egypt, Jordan and Ukraine.
    Moreover, last week, the UN Human Rights Commission in Geneva voted 
44 to 1 to condemn Belgrade's campaign of ethnic cleansing in Kosovo 
and called upon Serb authorities to accept a peace agreement. 
Supporters of this Resolution came from every continent.
    We have also tried to pierce the veil of propaganda and ignorance 
with which Milosevic has tried to shroud the people of former 
Yugoslavia. Radio Free Europe, Radio Liberty and other broadcasts are 
reaching the country 24 hours a day. As President Clinton and other 
NATO leaders have made clear, our actions are directed against 
Belgrade's policies, not against the region's people. And our effort to 
broadcast the truth is designed to counteract Belgrade's Big Lie that 
the refugees from Kosovo are fleeing NATO and not the Serb forces.
    In the days and weeks to come, we will press ahead with our 
military, diplomatic and humanitarian strategies. Our purpose will be 
to steadily bring home to Milosevic the reality that this confrontation 
must end on the terms we have stated.
    Our desire is to begin as soon as possible the vital work of 
returning, reuniting and rebuilding in Kosovo. But we are not 
interested in a phony settlement based on unverifiable assumptions or 
Milosevic's worthless word. The only settlement we can accept is one we 
have the ability to verify and the capability to enforce.
    Even as we respond to the crisis in Kosovo, we must also concern 
ourselves more broadly with the future of the region. The peaceful 
integration of Europe's north, west and center is well advanced or on 
track. But, as I said earlier, the continent cannot be whole and free 
until its southeast corner is also stable.
    Some say violence is endemic to this region, and that its people 
have never and will never get along. Others say that stability is only 
possible under the crushing weight of a dominant empire such as the 
Ottoman, Hapsburg and Communist regimes that once held sway.
    I am no prophet. Certainly, the scars of the past are still 
visible. Certainly, the wounds opened by the current devastation will 
take much time to heal. But the evidence is there in the testimony of 
average people whether in Zagreb or Tirana, Sarajevo or Skopje, that 
they are far more interested in plugging into the world economy than in 
slugging it out with former adversaries.
    If you look at the region today, you will see Greeks and Turks 
operating side by side as NATO Allies; you will see Macedonians and 
Albanians and Montenegrins answering the humanitarian call. You will 
see Christians and Muslims and Jews united in their condemnation of the 
atrocities being committed.
    In Bosnia, NATO and its partners are working with ethnic Serbs, 
Croats and Bosniaks to implement the Dayton Accords.
    And through our own Southeast European Cooperative Initiative, you 
will see leaders and citizens from throughout the region engaged in 
joint efforts and cooperative planning.
    The problems that have plagued the Balkans--of competition for 
resources, ethnic rivalry and religious intolerance--are by no means 
restricted to that part of the world. Nor does the region lack the 
potential to rise above them.
    During the NATO Summit, the President and our partners will discuss 
the need for a coordinated effort to consolidate democracy in Southeast 
Europe, promote economic integration and provide moral and material 
support to those striving to build societies based on law and respect 
for the rights and dignity of all.
    Our explicit goal should be to transform the Balkans from the 
continent's primary source of instability into an integral part of the 
European mainstream. We do not want the current conflict to be the 
prelude to others; we want to build a solid foundation for a new 
generation of peace--so that future wars are prevented, economies grow, 
democratic institutions are strengthened and the rights of all are 
preserved.
    This will require a commitment from us. It will require the 
involvement of the European Union and the international financial 
institutions. It will require a continued willingness on the part of 
local leaders to work together on behalf of the common good. And it 
will require, ultimately, a change in leadership in Belgrade so the 
democratic aspirations of the Serb people may be fulfilled and the 
isolation of the former Yugoslavia can come to an end.
    Finally, Mr. Chairman, I would like to add just a few words about 
the crisis in Kosovo and the future of NATO. For the challenge we 
currently face has dramatized the need for precisely the kind of 
adaptations the Alliance has already initiated, and which we will take 
to a new level at the Summit here in Washington later this week.
    In Kosovo, we are responding to a post-Cold War threat to Alliance 
interests and values. We are seeing the need for military forces that 
are mobile, flexible, precise and inter-operable. We are seeing the 
value to the Alliance of its new members and partners. And we are 
reaffirming the unshakable strength of the trans-Atlantic bond.
    Having said that, I want to emphasize that although we are focused 
now on Kosovo, the future of NATO is a much larger issue.
    The current fighting notwithstanding, NATO's core mission remains 
collective self-defense. NATO's relationship to Russia is a key to 
Europe's future security and will be determined by many factors in 
addition to Kosovo. The Alliance must be ready to respond to the full 
spectrum of missions it may face, including the perils posed by weapons 
of mass destruction. And the United States will continue to welcome 
efforts to strengthen the European pillar of our Alliance in a way that 
bolsters overall effectiveness and unity.
    I know that your Subcommittee on Europe will be conducting a 
hearing on these and related issues tomorrow, Mr. Chairman, and I am 
sure that Assistant Secretary Grossman and his counterpart from the 
Department of Defense will discuss them in greater depth than I have 
had the opportunity to do in my remarks this afternoon.
    I also understand that the Congressional leadership will host a 
reception this week for our visitors from NATO countries. I hope that 
you will thank them for their efforts and stress to them the importance 
of standing together and standing tall until the current confrontation 
is settled.
    As the President and our military leaders have made clear, this 
struggle may be long. We can expect days of tragedy for us as well as 
for the people of the region. But we must not falter and we cannot 
fail.
    By opposing Solobodan Milosevic's murderous rampage, NATO is 
playing its rightful role as a defender of freedom and security within 
the Euro-Atlantic region.
    Because our cause is just, we are united. And because we are 
united, we are confident that in this confrontation between barbaric 
killing and necessary force; between vicious intolerance and respect 
for human rights; between tyranny and democracy; we will prevail.
    To that essential objective, I pledge the full measure of my own 
efforts, and respectfully solicit both your wise counsel and support.
    Thank you very much, and now I would be pleased to respond to any 
questions you might have.

    The Chairman. Thank you, Madam Secretary. We have no 
automatic green, amber, and red lights, and so I suppose the 
chairman is going to have to try to impose a 5-minute limit, 
and I will try not to be too disruptive when 4 minutes have 
been spent, so it will be a 5-minute limit.
    Senator Biden. Mr. Chairman, where are the lights?
    The Chairman. None exist.
    Senator Biden. I am sorry, I misunderstood. I was not 
listening. I beg your pardon.
    The Chairman. So I will begin. Tell me, Madam Secretary, 
what will the administration consider a victory in its military 
operation against Serbia?
    Secretary Albright. We will consider a victory if we can 
meet those objectives we spoke about, which is that there needs 
to be a cease-fire and the end of the killing and violence, 
that the Serb forces, the paramilitary, military, and special 
forces will be withdrawn, that all of the refugees will be able 
to go back, and that they will be there protected by an 
international security force which will allow them to be able 
to rebuild their lives and with the aim that they can have a 
democratically elected Government, a self-Government for the 
people of Kosovo. Those are our military objectives.
    The Chairman. All of them.
    Secretary Albright. All of them, yes.
    The Chairman. All of them must be met before you consider 
any victory?
    Secretary Albright. Correct, yes.
    The Chairman. Given the brutal policies and forced 
degradation and murder of ethnic Albanians by Mr. Milosevic, do 
you think the U.S. Government will ever again negotiate with 
him?
    Secretary Albright. Well, Mr. Chairman, I think that if 
negotiate is the word, I personally do not believe we can 
negotiate with him. I think that he is someone who obviously 
does not keep his word, who is responsible for this ethnic 
cleansing and the violence and the hideous stories we all hear, 
and so we are saying that it would be very important for the 
Serb people with whom we are not at war to have a 
democratically elected Government and let them come back into 
the international community.
    Now, I do need to say the following, that if at the end of 
this military action somebody has to sign something that shows 
that this is over, and if he is that person, then we would 
accept that, though there are others that could sign for it, 
but from my perspective we cannot negotiate with him.
    The Chairman. A lot of these questions have been raised 
because you can imagine the number of telephone calls that I 
have personally had from people in North Carolina, a great many 
of them from close friends who are bewildered because they are 
not accustomed to the kind of brutality that they are seeing on 
the television every night.
    One question that was asked me is, does the United States 
support independence for Kosovo?
    Secretary Albright. Mr. Chairman, we have not supported 
independence for Kosovo because we believe that the possibility 
of their having a high degree of self-government would allow 
them to have the respect for their cultural language, 
education, et cetera. We believe that independence at this 
stage is something that would be disruptive to the entire 
region, because of the way that it might spread into the other 
countries. But we do think that they have the right to self-
government.
    The question here also is--and that is why I have made some 
points in my opening remarks about the importance of us looking 
at a long-range plan for the Balkans--there are a number of 
small countries and regions there that I believe would 
ultimately benefit from cooperating with each other, and 
basically sharing in a variety of economic programs, having 
more roads built together. It is not necessarily the 
independence of a country that should be the long-range goal, 
but perhaps a cooperative way for the people of the region to 
live together. But we do believe that the Kosovars are entitled 
to a high degree of self-government, and that their dreams can 
be realized in some other form than independence.
    The Chairman. Well, do you see any set of circumstances 
under which Kosovar Albanians and Serbs can once again live 
side by side in Kosovo?
    Secretary Albright. I think that it is very difficult to 
see those right now, given the amount of killing, but I would 
imagine that eventually they could. But the reason that we are 
stating that it is important to have an international security 
force there would be, in fact, to make sure that the Kosovars 
are able to engage in their legitimate rights without the 
interference of Belgrade.
    I think things have changed, Mr. Chairman, since for 
instance Rambouillet, where we had worked out a rather 
interesting and complicated autonomy regime for them. It is 
very hard to imagine that Belgrade specifically should have 
control over the Albanian majority, and that is why at this 
moment we think that having a protective force with some kind 
of an internationally protective regime--we are exploring 
different mechanisms--is the way to have the Kosovar Albanians 
and the Serbians living side by side and cooperating.
    The Chairman. Thank you. Senator Biden.
    Senator Biden. Thank you very much.
    Madam Secretary, I find it somewhat interesting that in one 
sense, absent Milosevic, this is a more soluble problem than 
Bosnia was. Only 7 percent of the Kosovar population was Serb 
prior to this mass ethnic cleansing that has taken place, and 
so the ability to put Humpty Dumpty back together again 
absent--absent--paramilitary forces, absent the VJ, absent the 
special police, I think quite frankly is easier in Kosovo than 
it is in Bosnia, as bizarre as that may sound, since you are 
talking about integrating not 7 percent of the Serbian 
population in Kosovo with 93 percent of the Albanian 
population. We are not talking about a 60-40 split here, which 
makes it a lot more complicated.
    The second point I would make is, this weekend I found it 
interesting in the meetings with the ambassadors to NATO from 
NATO countries, a question was raised by one of the members on 
the delegation whether this could ever be done, and why 
democratization in Serbia ultimately, as Senator Lugar and 
others and myself have been talking about, is the answer why 
that would work, and he pointed out that over 100,000 Bulgarian 
Turks were expelled in the last spasms of communism in the mid-
eighties, a massive, massive attempt at their version of ethnic 
cleansing.
    As Bulgaria became democratized and the Communist Party 
lost its way, there is no longer--there is always a problem, 
but that is not the problem any longer, and so for those who 
say nothing could ever take place in the Balkans, that is 
positive, I would offer Bulgaria as some small example of how 
it can be done if there is enough perseverance.
    But my question to you is this. I am going to ask my staff 
to put out two maps, map 1--which are very difficult to read 
from a distance. These are maps from the Defense Department 
that are a week old, and if you take a look at all of the 
yellow dots on that map, they are the towns and villages that 
have been either totally destroyed or have been damaged 
significantly by the Serb forces, and the green is the original 
concentration of internally displaced persons as of a week ago, 
and the red are possible new mass graves.
    But the point I want to focus on, and I apologize, I should 
have given every Member small copies of this. I thought they 
had it. If you notice, as you know full well, on the lower 
right-hand corner of the map, below Pristina to the border of 
Albania and parts of Montenegro there has hardly been any 
activity.
    Now, if you look at map 2, that is by the Serb military, 
and they are fully capable of doing the same thing in the lower 
right-hand quadrant. There is nothing that would stop them from 
doing the same thing that they did in the rest of the area.
    If you look at map number 2, you will notice that the 
crosses on that map represent sites of Serbian orthodoxy, and 
shrines and areas that are very important to the Serbs, and if 
you look at the other symbols on there, they represent mineral 
deposits that are of value, that are of value to Serbia and to 
Kosovo. Again, you will find a strange correlation between the 
areas ethnically cleansed and the location of the orthodox 
sites and the minerals, and the things that are of value, 
significantly, to Mr. Milosevic.
    Now, there is notable exceptions. There are three or four 
areas south of Pristina that are valuable mineral sites of 
bauxite and in the lower right-hand corner there is a very 
important shrine--and I am a Roman Catholic. Maybe shrine is 
not the right word, but a very important seat of orthodoxy in 
the Serbian religion, but by and large the rest is an area that 
seems to be--to have no mineral deposits and no important 
religious significance.
    This leads to my question. I have been of the view, and 
hopefully wrongly, for the last month that Milosevic's 
objective was, he is absolutely certain he cannot maintain 
Kosovo. He knew that a month ago. At the end of the day, a 
year, a month, 6 months, 6 years from now, Kosovo is not going 
to be in the same status it was before.
    I think it is all about partitioning. I think he is going 
to come to the European Community and sue for peace with the 
Russian initiative that basically says, here's the deal. We 
will annex all of--and by the way, the white is where the 7 
percent of the Serbs basically live in Kosovo, that he is going 
to come and say to our European friends, I have got such a deal 
for you, led by the Russians, that you in fact--I will give 
independence. I do not even care whether they affiliate or tie 
up with Albania, but the lower right quadrant of that map will 
be Kosovo Albanians, free for Albanians. The rest of that map I 
want to be an integral part of Serbia, in total control by my 
forces and troops. (a) Am I way off-base, and (b), assume for a 
moment I am not. What is--do you have any concern that the 
Europeans may sign on to such a deal? I would like your input.
    Secretary Albright. There are ideas floating around about 
whether partition is an answer. Let me say clearly that we are 
opposed to partition, because that has not been our policy. We 
do think that actually Kosovo could be a multiethnic area. You 
have raised a lot of questions about populations there. You 
know, the Serbs have not even allowed a census to be taken, 
because I think it would show the predominance of the Albanians 
up in the 90 percent category, whereas some recent numbers that 
I have seen show now, thanks to their ethnic reengineering, 
those numbers are dropping very rapidly--I cannot be certain on 
this--to somewhere around half of the Kosovo population.
    There also are a number of other minorities within Kosovo, 
some Turks and gypsies and various other minorities, and the 
Serbs are now acting as if they are protecting those 
minorities, which is a little hard to believe.
    In addition to the various areas that you have pointed out, 
I have an even smaller map here which basically shows the 
extent to which religious and historic sites are actually 
scattered all over. When people talk about partition, I think 
in people's heads they just see the upper, that white quadrant, 
and they say, aha, well, you could have partition.
    The truth is, there is no way to partition, even if you are 
for it, which we are not. I believe that it is a nonstarter, 
because these various places that are ``important to the 
Serbs,'' in addition to the mineral areas, are not in any kind 
of logically separate areas.
    Senator Biden. Madam Secretary, I would respectfully 
suggest, you see 90 percent of the sites are within the area 
that has been cleansed, and that is why I raise the issue.
    Secretary Albright. But when they talk about partition, 
they basically just talk, I think in European circles, about 
the little part on top and not what you are saying, which is--
--
    Senator Biden. I see. We are going for the big enchilada 
here.
    Secretary Albright. I do think there are those who might 
see that as an answer. We do not.
    The Chairman. Senator Lugar.
    Senator Lugar. Madam Secretary, I have two questions. I 
will ask them and then allow you to use the time to respond.
    The objectives you have given for victory in response to 
Senator Helms and Senator Biden are clear, namely, the Serbs 
out, the Kosovars back, rehabilitation of the country, a 
discussion of the future constitution of Kosovo, with 
protection of international force, but it would appear that the 
military means to obtain those objectives simply are not there 
presently.
    Now, I question where, on the experience of the first 4 
weeks--do you agree with that, or do you disagreeing? If you 
find there is some gap between the means necessary for this to 
be achieved, try to fill in for this committee's understanding 
what new means are likely to be involved. I say this because it 
appears that two different wars are being fought, one from the 
air over Serbia where certain targets are being hit that might 
ultimately lead to degradation of the Serbian forces, but the 
other war in Kosovo itself on the ground where the refugees are 
more numerous, the number of people displaced greater, and 
without severe losses by the Serbian forces and apparently with 
full replenishment there. This seems to me to be a 
disproportionate situation, and unlikely to lead to victory.
    My second question is, are you encouraging a Russian role 
in this in your talks with the foreign minister of Russia, or 
in other talks by the administration. Are we encouraging the 
Russians to assist in negotiating a settlement, or, to state 
the more bleak situation, do we have any recognition that the 
Russians are permitting so-called volunteers to come from 
Russia into the area, or arms, or in some way allowing what 
seems to be popular support in Russia for the Serbians? Can you 
give us some idea currently of the Russian relationship?
    Secretary Albright. Thank you. Yes. First of all, let me 
say that I believe that the military strategy, the air 
campaign, is essential in doing what we believe needs to be 
done, which is to systematically weaken Milosevic while 
allowing us to become stronger and the Kosovar Albanians to 
return.
    The battle damage assessment shows that we have been able 
to hit his command and control centers, airfields, oil 
refineries, various MUP and military headquarters, supply 
lines, armored vehicles, ammunition caches as well as the 
production of ammunition, and so I believe, on the basis of the 
information I have been given by the military, that the NATO 
alliance is systematically doing what it has got to do, which 
is to degrade his ability to respond and also to loosen his 
grip on Kosovo.
    I think that all of us understood that this was a campaign 
that is going to take some time, and that it requires patience 
and determination. In my conversations with our allies, which 
have been numerous, in person and on the phone, there is a 
common determination to prevail and an understanding that the 
air campaign as it moves forward will be able to do that. 
Obviously there will be additions of the Apaches and an 
increasing movement toward taking this to their forces in the 
field.
    On the Russian question, I have spent also a lot of time 
with the Russians. I have talked to Foreign Minister Ivanov 
practically every day, and we met last week in Oslo. We believe 
that it would be important for the Russians to be part of the 
solution for a number of reasons. They have influence on the 
Serbs. They have been very helpful in the Contact Group. Their 
role ultimately in Bosnia was very important, so their role can 
be important here.
    However, there is no point in encouraging them to take a 
role that is not in line with our objectives. I think a number 
of you, either in this meeting or various meetings that we have 
had, have asked: What does this do to our relations with the 
Russians? Are the Russians being isolated?
    We do think that our relations with the Russians in the 
medium, short and long term are very important on other issues, 
and so we are working with them. We are working now to get the 
Russians on the side of the rest of the allies in pressing 
Belgrade.
    If I might just take one more minute, we agree on all the 
principles that I listed earlier except one, and that is on the 
international security force. They are pressing for just ``an 
international force'' which might be something like OSCE 
without weapons. That is a nonstarter. We are saying the force 
has to have NATO at its core so that our command structure is 
in place, and so that the KLA will disarm. They will not disarm 
if NATO and the U.S. are not a part of it.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Madam Secretary, I join my colleagues in welcoming you 
before the committee. I want to address a point that you 
touched on, but briefly, in your statement about piercing the 
veil of propaganda and ignorance with which Milosevic has tried 
to shroud the people of the former Yugoslavia.
    After all, the Serbian people resisted the Nazis in World 
War II in a very courageous way, and they have got this leader 
who is giving them a view of what is happening that is totally 
contrary to the facts. How do we do that? I know you say, 
``well, Radio Free Europe/Radio Liberty,'' but most people here 
will tell you it is the television that reaches people, not the 
radio, and is there anything we can do about that? How do we 
get across the real story so the Serbian people realize that 
what Milosevic is telling them is a warped and perverted view 
of the real situation?
    Secretary Albright. Senator, we--first of all, he does have 
a very tight propaganda machine, and when I met with the front 
line states last week in Brussels they described, since they 
had been former communist countries themselves, how 
sophisticated the propaganda machinery is, so we are trying to 
pierce it.
    Senator Sarbanes. Let me just add, if they encounter 
internal opposition, then they go out and murder them as they 
did this independent publisher in Belgrade only a few days 
ago----
    Secretary Albright. Clearly, this is one of our most 
serious problems, and there are ways that we are trying to use 
modern methods with a variety of ways to get in there. I have 
tried, I do not think too successfully, to broadcast in 
Serbian. I am not very popular there, so I am not sure that 
that helps, and we are trying--as you saw, there were leaflets 
being dropped, and we are working a number of methods.
    Again, I think that this is very important. I know Chairman 
Helms introduced some legislation on this subject. I think we 
need to keep working in our most sophisticated methods to try 
to pierce it, but it is difficult because he does manage to 
kill the dissidents, and we are, without going into too many 
details here, trying to really work any number of angles of 
trying to get the message in, but it is difficult, because he 
has very tight control.
    Senator Sarbanes. Is it possible to transmit TV messages 
into the country from outside?
    Secretary Albright. I think that they have managed to jam a 
lot of what we have tried to do from some of the transmitters 
in the neighboring countries. We are trying to work on all 
that. I do not think it is very useful to go into full detail.
    Senator Sarbanes. Fine. I think it is very important. 
Otherwise, the people of Serbia are being fed a certain story, 
and they are presumably making their judgments on the basis of 
that story, which is contrary to the facts. Somehow we need to 
remedy the situation if we are going to establish this 
important distinction, which I think we are seeking to make, 
between Milosevic and the Serbian people. You have underscored 
this today which the President has repeatedly stated in his 
various statements.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Welcome, Madam 
Secretary.
    Madam Secretary, is the President prepared to come to the 
Congress and ask for a declaration of war?
    Secretary Albright. Senator, I think that the President 
certainly welcomes support for his actions and has written and 
had asked for support in terms of the air campaign. It is his 
belief that he does not need a declaration of war. Since 1941 
there has not been a declaration of war. It is very useful, 
though, to have your support generally for what we are doing.
    But we do strongly oppose a resolution which would call for 
a declaration of war because we do not consider ourselves ``at 
war'' with Yugoslavia or its people. NATO is acting to deter 
unlawful violence in Kosovo, and is upholding the will of the 
international community. We think that a declaration of war 
could have serious negative effects on NATO cohesion, regional 
stability, and our relations with Russia.
    Senator Hagel. If we are to get at some of the supply 
lines, for example, that a number of our military leaders have 
talked about, boycotts, embargoes, shut off supply routes, one 
of the excuses that I have heard the administration use is, 
well, that would mean that we would be at war. Good grief.
    First, I think we are at war, and we can dance around the 
technicalities and the niceties of it, Madam Secretary, but we 
are at war, and if we are to win this, which I understand is 
the commitment of the President and your administration, then 
it seems to me you are going to have to do what it takes to win 
this war.
    I do not know if a declaration of war is the appropriate 
thing, but it seems to me that there is a limited amount of 
sustainability here not just within this country but within the 
political constituencies of the 18 NATO countries as to how 
long we can go, how long we can have an antiseptic bombing 
campaign and at the same time Milosevic really controls the 
deal. He continues to push people out. He controls Kosovo. He 
hides his tanks, which are very difficult for our military 
people to get to for a lot of reasons, and other military 
issues as you talked about.
    And so I think we may well have to see some acceleration 
here, Madam Secretary, of how do we win this, and the President 
is going to need the American public and the Congress on his 
side here in order to do this, and that then gets into other 
issues, like why have we been restricted in some of the 
military targets, and I understand the consensus of NATO 
dominates that, but at some point the window is going to close, 
I suspect, Madam Secretary, and we are going to be on the 
losing end of this because we have lost prestige, we have lost 
commitment, we have lost will, and that measurement could be 
taken not just in Kosovo but, as you know better than anybody, 
others around the world who wish us ill.
    So if you would take any piece of that and comment, I would 
appreciate it.
    Secretary Albright. Well, first of all let me say that I do 
think that the unity of NATO has been remarkable. Each of the 
countries, democracies, have their public opinion and their 
parliaments, and they are working their way through how to get 
support.
    Interestingly enough--I am in touch with them daily, one or 
the other of them--they do not have a different approach to 
whether there should be a declaration of war or not. It is a 
subject that we talk about, and many of them believe that they 
have the support of their public opinion as they move forward.
    Now, some of them would like to see additional political 
initiatives, and we believe that this is not the time, that the 
diplomatic channels are open, but on the whole there is general 
support for a long-term air campaign.
    We just had a discussion, and there seems to be a 
disconnect between our bombing oil refineries and our allowing 
oil to come in by ship into Yugoslavia. So the allies now are 
understanding the disconnect in those two policies and talking 
about how to interdict oil coming into Yugoslavia, and we are 
looking at various ways of doing things.
    What I find interesting, Senator, is that, as you know, 
NATO has never fought a war, and it is I think doing remarkably 
well in its coordination of activities involving 19 countries, 
allowing the militaries to make the decisions, and trying to 
get political backup from the rest of us. So while not 
everything may be moving as rapidly as it would unilaterally, I 
think as was said here previously, the American people probably 
would not support a unilateral action here. As NATO is moving 
forward as an alliance, I think we are united, and we are 
trying to deal in a systematic way with some of the questions 
as to how we all coordinate ourselves.
    Senator Hagel. Thank you.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman, and Madam 
Secretary, welcome, and let me just say very briefly at the 
outset how much I respect the work that you and Sandy Berger 
and Wes Clark and General Shelton, Secretary Cohen and others 
are doing in a very difficult situation, but I think you are 
handling it well, and I am one who supports very much what the 
administration is trying to achieve.
    Earlier today you may know that Senator McCain and Senator 
Biden and I think Senator Lugar and Senator Hagel and myself 
and Senator Lieberman and Senator Cochran, as well as Senator 
Kerry, sponsored a resolution which--a joint resolution which 
authorizes the use of all necessary force and other means in 
concert with U.S. allies to accomplish the North Atlantic 
Treaty Organization objectives.
    I say that as a preface to you because I think if you are 
going to engage in this action and you are going to prove 
successful, you have got to be in a position to use whatever 
means you can to achieve those results.
    Having said that to you, and I want to--and also I will 
raise at a different time if I can my concern about the front 
line States, and the amount of support and help we can give 
these countries, who are absorbing a tremendous blow by having 
this wave of humanity wash up on their shores in Albania and 
Macedonia, and to a lesser extent Montenegro, is something that 
I think we have got to include in a substantial way in our 
emergency supplemental.
    But I want to get to the issue of the KLA if I can. Let me 
just say at the outset my concerns. I am very sympathetic to 
the desires of the KLA to be able to get back into their 
country, but I am deeply concerned about whether or not we 
ought to be in the position of arming yet another group in the 
Balkans, knowing what that could mean.
    Now, I am told the Washington Post reports today that the 
Albanian Government has requested that the United States and 
other NATO governments provide military assistance and training 
to the KLA. What I want to know is whether or not a request has 
been made, what is our official response to that request, if, 
in fact, it has been made, and would arming the KLA violate the 
U.N. embargo to Yugoslavia if that is the case? What do our 
NATO allies think about such a proposal? What are the 
implications of it, and putting aside the question of whether a 
request has been made, what is the position of the United 
States and our administration on this issue?
    Again, this is very sympathetic to their desires here, but 
I am deeply concerned that you would--even if we were able to 
resolve the present situation, that by adding yet another large 
element of arms in the region, that it would make it very, very 
difficult to achieve the kind of results, at least the stated 
results and goals we have in mind.
    Secretary Albright. Senator Dodd, let me just quickly say 
we are very cognizant of the difficulties that the front line 
states are encountering, and as a part of our supplemental we 
are asking for $150 million in economic assistance for them. I 
also had a very good meeting with them in Brussels, and we 
really talked a lot about how they could help each other and 
how we could help them, and the difficulties that they are 
experiencing.
    On the issue of the KLA, first of all, let me say that I 
have met with representatives of the KLA at Rambouillet, and I 
met with one recently in Brussels, and clearly they would like 
to get home and they would like to be able to defend 
themselves.
    Second, we oppose the arming of the KLA because we think it 
would be a violation of the U.N. arms embargo, which then would 
allow there to be violations by others to support Serbia. 
Adding arms in this kind of endless way to the region is not a 
way to try to get peace. Also, I can tell you the Europeans 
would definitely be opposed to the arming of the KLA. The 
disarming of the KLA was one of the important aspects of the 
Rambouillet agreement, which they signed, and I believe it was 
important to get the Albanians to sign. So adding arms to the 
region we do not believe is the solution to this. We believe 
the air campaign is the best way to proceed.
    Senator Dodd. Thank you.
    The Chairman. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Madam Secretary, I believe you know that I am a supporter 
of NATO and I look forward to this celebration, but frankly I 
must tell you I have never been more fearful about NATO's 
future, because I fear if the present trend continues that a 
belief will arise in the Congress and among the American people 
that but for NATO we would not be in this fight, and that 
because of NATO we cannot win this fight, and I plead with the 
administration to win this fight.
    You have laid out the terms, but I do not frankly see the 
means or the unity on what it takes to get the job done.
    Now, tomorrow I am going to hold in the European Affairs 
Subcommittee a hearing on the strategic concept. All these 
leaders from Europe are coming here to negotiate the strategic 
concept that will govern NATO's future. I think it is clear 
that NATO is evolving, but as it evolves, I hope we will hold 
back on pourings of cement on how this will work by frankly 
stepping back and saying, how did we do, because I am very 
concerned about what I hear operationally about NATO's conduct 
of this conflict.
    I would appreciate your thoughts and your comments.
    Secretary Albright. Let me say to your first point that we 
would not be in this if it were not for NATO; I totally 
disagree.
    Senator Smith. I did not say I believed that, but I think 
the American people soon will, and I believe many in Congress 
are coming to that belief.
    Secretary Albright. Well, let me say that I think that the 
struggle in Kosovo is the last struggle of the 20th century 
which has been marked by more blood and guts than others--blood 
and guts spilled over ethnic conflicts while people try to 
divide up countries and others do not stand up for what they 
believe in.
    I think that as we look at this century, with Europe 
divided and subdivided and under control of Communists, and the 
amount that has been done in the last 10 years that people 
thought never would happen; with the end of the Berlin Wall, 
Germany not only reunited, but central to Europe, central to 
Eastern Europe; where people had given up hope on countries 
that have lived under communism but some are now new members of 
NATO; the last piece left is to have a Europe that is united 
and democratic and prosperous and secure is the Balkan 
peninsula. What is going on there is contrary to the values and 
interests of Europe and the United States, and I think that by 
having NATO as an instrument to deal with this, we have 
multiplied our own strength and also shown the validity of the 
strategic concept.
    You know, all of us, Senator Smith, as we sat around at the 
NATO Summit thought, goodness, we are supposed to have this 
celebration and instead we are in the middle of this Kosovo 
issue. We have been having meetings with the President and we 
have been briefing on this. The truth is that what is going on 
in Kosovo proves the validity of what we have been doing, the 
importance of taking an alliance that worked very well for 50 
years--never fought a war, deterred the Soviet Union, and now 
has a new mission, which is to deal with the chaos created by 
the ethnic conflicts and potential of weapons of mass 
destruction--and creating an alliance that is honed to do its 
work at the end of this century and the beginning of the 21st.
    So I am glad you are having the strategic concept hearing, 
because as we were getting it ready, it was clearer and clearer 
to me that we were on the right track. NATO is the right 
instrument for Kosovo, and while it has never fought a war, it 
is doing a pretty darned good job doing it. We need to hone it, 
but we are on the right track.
    Senator Smith. Madam Secretary, if I could just followup, I 
hope that we as the administration will not cast in concrete 
the finals of the strategic concept, because I think we are 
learning as we are going forward. We have not fought a war, but 
we are fighting one now, no matter what we call it, and I think 
we need to be able to have some time to step back and answer 
the question, when this is over, how did we do, and what do we 
need to put in the strategic concept.
    Thank you.
    Secretary Albright. I would hope that we would not delve 
into that, though, Senator, because nothing is ever cast in 
stone, but I think we need to seize what we have and then 
obviously in the years ahead we will be able to relook at 
things.
    The Chairman. Senator Kerry.
    Senator Kerry. Thank you very much, Mr. Chairman. Madam 
Secretary, thank you for being with us today.
    Just as a matter of personal nostalgia, I would share with 
my colleagues that this is the anniversary of 30 years ago to 
this month that I returned from Vietnam, and 28 years ago to 
this week that I appeared before this committee talking about 
the ways in which we had lost our way, in my judgment, in the 
prosecution of a war in Southeast Asia.
    That has obviously had a profound impact on our judgment 
about war and conflict over the last years, and I say that only 
for one reason, because I made a promise to myself about 
defining objectives and making certain that if we commit young 
men to harm's way again we are going to make certain that those 
objectives are clear and that we can achieve them.
    I believe in the objectives that you have set out, that the 
President has set out, and that this country is trying to 
achieve. I am troubled about the issue of means, as other 
colleagues have stated, and troubled about perhaps a conflict 
of the way in which the objectives are being structured.
    Let me be very specific. We say that we do not support 
independence for Kosovoand I agree that that is the appropriate 
posture. We say we are opposed to partition, and I agree, 
except to the degree that if you invaded and had a total 
victory you might wind up doing that as a victor, but it is 
clearly not an acceptable component of a negotiation.
    No. 3, we say we want the Serbs and the Kosovars to live 
together again as they did previously--status quo ante is the 
objective--but we know that the Serbs have historical and 
religious ties to the region which make it inescapable that 
they must be party to a settlement.
    But you have also said today in your testimony and in 
answer to a question, that we will not negotiate with Mr. 
Slobodan Milosevic. Now, it is not one of our objectives to 
remove him, and I do not think it should be, personally. 
Therefore, my question is, barring a total victory by air 
alone, let us assume that in 6 or 8 weeks there is nobody left 
in Kosovo, only his troops hunkered down, and we are still 
waging an air campaign.
    What, then, is the structure of ``a negotiation'' that gets 
Serbs and Kosovars to live again together without negotiating 
with Milosevic or someone in a region where the only way you 
could ever have peace is to recognize the historical and 
religious connection of the Serbs to the area? I do not 
understand that.
    Secretary Albright. I think, Senator, there clearly are a 
number of very difficult aspects to this, and I think I was 
asked if I see the Serbs and Kosovars living side by side 
together now, and I said I found that difficult to envision. 
What we would envision--this is a work in progress and I think 
Prime Minister Blair talked about this and others in Europe are 
talking about this--is some kind of a region that would be 
internationally protected for a period of time in which the 
Kosovars would live with their various rights and those of 
other minorities are guaranteed.
    I think there are a variety of ways to do that. I think 
there are also ways the Serb holy places can be protected. 
There are a number of ways we have dealt with this in other 
countries where we tried to develop solutions like that.
    Senator Kerry. But don't we have to negotiate with someone 
to do that?
    Secretary Albright. I think the question is whether one 
accedes to some of the unreasonable demands of President 
Milosevic. Clearly, there needs to be somebody on the Serb side 
with whom one talks, but I think many of us have been asked, 
Can you visualize having a negotiation with someone like 
President Milosevic? I find it difficult to visualize that, but 
I do not find it difficult to visualize that there are 
settlements that can be made with others and clearly there will 
have to be discussions. I do not think, however, that we need 
to put ourselves in a position where we are giving in to 
illegitimate demands.
    Senator Kerry. I agree with that, but all I was saying, 
supposing in a week or two, as a result of the air campaign, he 
were to say to us, I am prepared to move my troops out. I am 
prepared to return to the status quo ante, but I insist on a 
different force, and I insist on a different handling of the 
issue of independence that has to be more squarely off the 
table, and he has to have significant Russian presence, maybe 
non-NATO, significantly reduced American, or no American, but 
if that were the equation, would you not negotiate that out?
    Secretary Albright. I think that there would be ways of 
having those kinds of discussions. Some of the points you have 
raised are nonstarters, however, because of a variety of things 
we have talked about. Under what circumstances would Americans 
participate in a force? We would not participate in a force 
where we did not feel that our command structure was able to 
exist.
    So would we have Russians in it? Yes. We had them when we 
set Bosnia up. So there are any number of issues, but I think 
that there are ways to have talks with Serbs--some Serbs--about 
this subject.
    I do think that Americans should be very wary of having 
negotiations with Milosevic, especially since he did not live 
up to the agreements that we have had and we now believe that 
he is politically responsible for the ethnic cleansing. But I 
just want to make clear that we deal with people that we do not 
like and that we have defeated, that we are trying to come to 
an agreement with, but that is very different from negotiating 
terms with them.
    Senator Kerry. I understand. Thank you for the 
clarification.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Madam Secretary. Let me ask a 
couple of questions I was asked during this last weekend. What 
is the comparison between the number of people that were killed 
or driven out before the bombing began, as compared to the 
number that have been killed or driven out of Kosovo since the 
bombing began?
    Secretary Albright. There have been, I think, probably 
larger numbers of people driven out since the bombing began. I 
know where your question is going.
    Senator Thomas. Well, the fact is, there are substantially 
larger--tell me, then, there are 19 nations, I think, in NATO, 
are there not?
    Secretary Albright. Yes.
    Senator Thomas. What is our share--for instance, if there 
is 1,000 airplanes there, how many do we have?
    Secretary Albright. We have the largest proportion of 
planes there, but I will get you the exact number.
    Senator Thomas. We have many more than all the rest put 
together, right?
    Secretary Albright. Yes. Many countries have contributed 
aircraft, and these aircraft include 135 fighters and bombers, 
41 support aircraft, and 14 reconnaissance aircraft, for a 
total of 190. Our allies have provided a very large proportion, 
but the U.S. has contributed 227 fighters and bombers, 219 
support aircraft, and 17 reconnaissance aircraft, for a total 
of 463. We are the largest, most powerful country in the world. 
Our proportion of this, as was stated even before we went into 
it, was going to be the largest.
    Senator Thomas. But what will our proportion be of bringing 
back the refugees and resettling them in Kosovo?
    Secretary Albright. Excuse me?
    Senator Thomas. What will our proportion be of resettling 
the refugees in Kosovo?
    Secretary Albright. The allies are taking the largest 
proportion of the burden of resettling the refugees.
    Senator Thomas. You are talking about bringing them back to 
Kosovo.
    Secretary Albright. The European Commission has already 
announced it will put aside 250 million Euros, which is about 
$275 million, for economic and humanitarian assistance to the 
neighboring States. They have also said that they wanted to 
take the lead in the reconstruction of Kosovo.
    Senator Thomas. President Clinton said the mission was to 
demonstrate the seriousness of NATO's purpose so that Serbian 
leaders understand the imperative of reversing course. 
Obviously, that has not been done. To deter an even bloodier 
offensive against innocent civilians in Kosovo, that has not 
been done. If necessary, to seriously damage the Serbian 
military capacity to harm the people of Kosovo. How much have 
we done on that, in terms of damage?
    Secretary Albright. Let me say that I think we all 
recognize the appalling horrors that have been committed 
against the people of Kosovo and the pushing out of now almost 
a half million refugees. I think the thing, however, to 
remember is that we have for the last year-and-a-half been 
trying through diplomatic means to avoid what we saw coming, 
which is that he was amassing his forces inside, on the borders 
of Kosovo, and sending tanks in preparing for a huge onslaught 
into Kosovo, and we have hoped through diplomacy with the 
threat of force to avoid that happening.
    If one talks about it in terms of a video tape, Milosevic 
put it on fast forward and all of the things he had in mind he 
effected much more rapidly.
    Senator Thomas. I think the point is that if those indeed 
were the missions, and if you measure them now, and they have 
not been accomplished, then is it not necessary to alter that 
mission, or to change what we are doing to accomplish the 
mission?
    Secretary Albright. Well, we believe that the air campaign 
is accomplishing a great deal of the mission. As I stated 
earlier, the kinds of damage that has already been done through 
I think excellent bombing sorties--where the various 
headquarters and command and control have been destroyed, where 
ammunition has been destroyed, fuel storage facilities have 
been destroyed, airfields, his airplanes, armored personnel 
carriers, and tanks have been destroyed. It is my sense from 
reading the battle damage assessment that systematically we are 
degrading seriously his military machine.
    Senator Thomas. Well, I hope so. The things you see 
publicly from the Pentagon and so on would say on a scale of 1 
to 10 the damage has been about a 3 or a 4.
    So thank you.
    Secretary Albright. Well, I think they have said, and we 
have said, the weather interfered early, but they do also say 
that they are doing serious damage.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Madam Secretary, I have been critical of some of the 
decisions made getting into this policy, so let me take this 
opportunity to publicly thank you for your devotion and effort 
with regard to this. I am sure it is incredibly difficult, and 
I thank you for it.
    In light of what has happened, are there any circumstances 
under which the administration would support an independent 
Kosovo?
    Secretary Albright. I think that we do not consider it a 
useful end to this because of the additional problems that 
would cause within the region, where we see it as potentially 
destabilizing Albania and Macedonia. Then if Macedonia were to 
fall apart, there is a whole--I do not want to predict all the 
dire things, but I think it basically is a destabilizing effect 
for the region, and it is not our position to support 
independence.
    Senator Feingold. Well, I am still thinking it through as 
well, but I do hope the administration will at least keep an 
open mind with regard to whether that is not the way things 
should end up, and this relates as well to Senator Dodd's 
comments. I take a little different tack, at least potentially 
with regard to the issue of arming the Kosovo Albanians. I 
think one of the reasons we ended up having to send ground 
troops to Bosnia was the failure of the United States to lift 
the arms embargo for the Bosnian Muslims when we could have, 
and I notice we were there many years and many dollars longer 
than we intended to be.
    I recognize your comment about the arms embargo that is in 
place. At the same time, I wonder about our legal status in 
terms of bombing a nation with regard to a question having to 
do with an area we consider part of that nation. In terms of 
international law, I am wondering why on the one instance we 
are so concerned about international arms embargo, but we are 
not particularly concerned about the issues of international 
law that apply to a situation where we regard Kosovo as a part 
of Serbia.
    So what I am interested in is, what would be the practical 
effect on the ground of arming the Kosovar Albanians?
    Secretary Albright. Well, first the practical effect is 
that their numbers are not sufficient so that they can defend 
themselves. Two, and this goes to why we abide by one legal 
regime and not another, there is a practical issue, which is 
that in both the Bosnia case and here, the minute that you 
break an arms embargo, that means that the other side is 
entitled to be supplied also. I think that we have great 
concern about breaking the arms embargo, because the Serbs 
would definitely be supplied.
    I think there is also the issue that we are part of an 
alliance. This is in Europe, and the Europeans are very much 
opposed, as are we, to the arming of the KLA, and to 
independence.
    Senator Feingold. Madam Secretary, with regard to Bosnia, I 
believe at least one of the facts that helped us leading up to 
Dayton was the ability of the Bosnian Muslims through different 
means to get arms, and I am not at all convinced this situation 
would not be assisted. In fact, listening to one of the NATO 
briefings the other day, I think there was a specific reference 
to some of the resistance the Kosovar Albanians were able to 
put up as helpful with regard to fighting the Serbian troops, 
and so I would ask that that be kept on the table.
    Finally, I notice that Congressman Campbell in the House 
has introduced two separate resolutions, one to declare war, 
and the other to demand an immediate retreat. I am glad that 
the Senators who have talked early today have introduced a 
resolution in the Senate with regard to our involvement, and I 
am wondering, in light of your answer to Senator Hagel's 
question, whether we are really at war.
    You seem to have indicated we are not at this point. What 
criteria would need to be met in order for you to agree with 
those who believe that our action in Kosovo amounts to a war, 
or could amount to a war in the near future?
    Secretary Albright. I think that a lot of those are legal 
questions. I think that politically, though, there are a number 
of reasons why a declaration of war is not helpful in terms of 
how we operate in the region and with our allies, and so we are 
opposed to a declaration of war.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman.
    Madam Secretary, just to followup on Senator Kerry's 
question a little bit, you said that the Russians agreed with 
the primary goals, now, that you have stated, a halt to the 
atrocities, Serb forces withdrawn, the refugees returned, et 
cetera.
    The main sticking point I think you mentioned was the 
peacekeeping force and the makeup of that. Has there been a 
determination of what that force could be, or are we talking 
about NATO peacekeepers, or could it be maybe some of the other 
European countries not involved, or a different makeup that 
could produce the same results?
    Secretary Albright. Well, our position is that we believe 
that such a force needs to have NATO at its core, because we 
believe that the U.S. needs to participate, primarily because 
of our role within NATO but also because the Albanians have 
made it quite clear that they need us as a part of it. If NATO 
is at the core, with our command structure totally in place so 
that our military feels comfortable, then there are other ways 
that other countries could become a part of it.
    We do not, however, believe that this should be a U.N. 
force. We believe it needs to be one where NATO is at its core. 
There are a number of diagrams that one could draw out that 
would allow other countries to participate, but from the 
perspective of the United States, such a force must have a NATO 
core.
    Senator Grams. Madam Secretary, NATO and the United States 
have always consistently opposed independence for Kosovo. You 
have talked about one of the goals is self-government for 
Kosovo. What is the difference?
    Secretary Albright. I think that the differences have to do 
with the issues of sovereignty--whether you control your own 
military, you have your own currency--a number of points that 
are basically to do with the independence of the country. Self-
government allows the people to elect their leaders, whether 
they be the President or a national assembly or local leaders. 
There are various components of this. It also allows them to 
make determinations about their budget.
    Rambouillet has been overtaken by events, but this was very 
carefully designated as to what this kind of a high degree of 
self-government involved in terms of the possibilities of 
people to run their daily lives but not necessarily be in 
control of all of the elements of statehood.
    Senator Grams. Evidently the Serbs have not agreed to that, 
and they look at it as nearly one and the same, do they not?
    Secretary Albright. Well, they have not agreed to it, I 
think, because they were not prepared to grant this amount of 
autonomy. Their main problem was not with that part of the 
document. Their main problem was with having an implementation 
force such as the one I have described.
    Senator Grams. Do you have any information that would 
indicate Russia is providing military support, or significant 
information to Belgrade? Have we given assurances to Russia 
that NATO will not send in ground combat troops into Kosovo?
    Secretary Albright. The Russians have stated at the highest 
levels that they have no intention of being drawn into this 
conflict militarily, and that they are not providing 
volunteers, although as we know they have a ship in the region. 
I think there are some volunteers, but the Government itself 
has said that they do not wish to be drawn in militarily. We 
have made no such representation to the Russians or to anybody 
else.
    Senator Grams. And finally, Madam Secretary, last year the 
Clinton administration's then Special Envoy to Kosovo, Robert 
Gelbard, declared the Kosovo Liberation Army, known by its 
Albanian initials, UCK, it was stated that it is a terrorist 
group, he stated, we contend very strongly terrorist actions in 
Kosovo. The UCK is without any question a terrorist group.
    Now, is that still the administration's view, and is there 
any indication that weapons or funds are being provided to the 
KLA by any government similar to the Iranian arms pipeline that 
went to the Bosnian Muslims? So how do we view the UCK, or the 
KLA today and where they are getting their support? Are we 
still considering them as a ``terrorist group''?
    Secretary Albright. We do not consider them a terrorist 
group.
    Senator Grams. What has changed the opinion?
    Secretary Albright. I never called them a terrorist group.
    Senator Grams. The administration's Special Envoy did.
    Secretary Albright. I cannot speak to what he said. We 
consider them the military arm of the Albanians. They have a 
number of aspects to them. They came to Rambouillet united with 
Dr. Rugova, a delegation of about 15 people, some of whom were 
KLA and some of whom were members of Dr. Rugova's group. They 
have committed themselves to disarm under the Rambouillet 
agreement, and clearly, as I stated in my opening remarks, 
there was a period that we felt they undertook provocative 
action.
    Frankly, President Milosevic is the best recruiter that the 
KLA has, because the Serbs go in and torch villages. The 
Kosovars have received outside assistance. They do have some 
arms, as we know, and we have not approved of all the actions 
that they have taken, but they have pledged themselves in the 
agreement that they signed to disarm. That is a part of the 
overall agreement.
    Senator Grams. Thank you, Madam Secretary.
    The Chairman. Senator Wellstone.
    Senator Wellstone. Thank you.
    Madam Secretary, first of all, very briefly, because I want 
to make one statement and put two quick questions to you in the 
time that I have, I have been told that the German leadership 
feels very strongly about our involvement, has said that they 
ask their parents, where were you, and they did not want to be 
asked by their children, where were you when this slaughter 
took place, and I appreciate what we are trying to do.
    I said on the floor today when this resolution was 
introduced that, however, when I see a resolution that calls 
for all necessary force and means with the authority for that, 
for a President, it is too open-ended. It is too broad and it 
is too open-ended, and I said on the floor of the Senate that I 
would not support such a resolution, and I want to say that 
today, because that is yet a different question.
    Second of all, you said that the Russians will play an 
important part, and hopefully a part of the solution. I agree 
with you. I believe there should be more of a focus on 
diplomacy, and surely we are not just asking the Russians to 
sign on to a particular notion that we have about what this 
international force should look like. Surely there will be room 
for some give-and-take on that, because I believe that 
diplomacy along with air strikes is critically important. I 
would like to see more focus on that, and I am glad that you 
restated what you meant by negotiations.
    My questions. I am focused right now on internally 
displaced refugees. If our goal is to stop the slaughter, what 
about these people? Why not air drops of humanitarian 
assistance to these people? I understand the risks, but if you 
want to talk about something that we ought to be thinking 
about, why are we not doing that?
    I mean, to me it was all about stopping the slaughter. We 
were not able to do what we wanted to do, but now we have these 
people, why are we not seeing drops of humanitarian assistance 
to internally displaced persons?
    Second of all, why are we not seeing more air strikes in 
Kosovo? I do not understand this in terms of--you know, 
everybody is talking about ground troops. I thought that--in 
fact I stayed up nights, without trying to sound melodramatic. 
I did, because I thought we were going to have to fly low, we 
would lose pilots, have I voted for the right thing. The 
decision I made is, if one of my children was doing this and 
they lost their life, I would feel like they were doing it for 
the right reason. That is why I voted for this.
    But I do not understand why we do not--because the more it 
is Belgrade and the cities, as you run out of targets, the more 
likelihood innocent people are going to be killed there. Why 
are we not focusing--why not the humanitarian air drops to 
people, and No. 2, why not more air strikes in Kosovo?
    Secretary Albright. We are very concerned about the 
internally displaced people and have been trying to figure out 
different ways that assistance can be gotten to them through 
the International Red Cross and some NGO's that are still able 
to get in there.
    Believe me, we have all asked the same question about the 
air drops. I ask it on a daily basis, and the answer is that at 
this stage they are difficult to effectuate because they cannot 
get in low enough to make the air drops. We had the experience 
also of Bosnia. It is not all as simple as it looks. The drops 
go into the wrong areas----
    Senator Wellstone. Excuse me if I can interrupt, half of it 
gets to the Serbs and the other half gets to the people who are 
starving. I am all for half of it getting to the people who are 
starving.
    Secretary Albright. But I think there is a technical 
problem, Senator, and believe me, it is one that I ask on a 
regular basis and have been told by the military that they 
cannot do on target. I really do not feel that we should talk 
about this here.
    But I can tell you that there are significant air strikes 
in Kosovo. Those that are taking place in Serbia have to do 
with the other part of the mission, which is to damage and 
degrade Milosevic's ability to control the forces that are 
going on that are in Kosovo on the ground--the MUP 
headquarters, the various command and control operations, the 
oil refineries which permit him to have enough fuel to send the 
military into Kosovo. But believe me, there have been air 
strikes in Kosovo, and they will continue, without going into 
any detail on the targets.
    The Chairman. Senator Frist.
    Senator Frist. Thank you, Mr. Chairman.
    Madam Secretary, thank you for all you are doing and have 
done in this difficult time. A couple of issues that my 
colleagues raised that I would like to pick up on. One actually 
is a point that you made, that NATO has not carried out and 
conducted a war to date, and this is the first time that NATO 
has been involved in such a fashion, and you expressed overall 
satisfaction, I believe, with the way that this is evolving.
    A second point is that at one, and my questions really, are 
these two to be linked in any way?
    We have seen press reports that General Clark's specific 
targeting request, or roster of targets have been limited, not 
clearly who it has been limited by, but can you tell us whether 
General Clark's or any other commander's target request or 
targeting decisions have been constrained by the NATO 
decisionmaking process, or in any way by the administration?
    Secretary Albright. Senator, I believe that General Clark 
has a plan and he is able to carry it out. I do not think it is 
appropriate for me to discuss the extent to which the process 
is limiting or not. I do think that NATO has been able to carry 
this out effectively, that the air campaign is producing the 
kinds of results that we want, and I admire General Clark and 
all the people, especially the pilots, who are carrying all 
this out.
    I believe that General Clark, as far as the U.S. 
administration is concerned, has received what he needs.
    Senator Frist. Let me move to a second question, then. As 
part of the President's request to Congress for supplemental 
funding, $700 million in humanitarian assistance was included. 
This is obviously a considerable sum, and far in excess of the 
normal operating budget or yearly allotment to USAID's Office 
of Foreign Disaster Assistance.
    Additionally, the commitment of the United States to add up 
to 300 new military aircraft is a large portion of our 
deployable air assets.
    I mentioned all of these figures and these facts because 
they do raise at least in people's minds across the State of 
Tennessee the possibility that our ability to fulfill 
humanitarian missions and other military missions may be in 
some way compromised in the future.
    In fact, many of the humanitarian groups operating in 
southern Sudan are under the distinct impression that the 
levels of commitment from USAID is declining as a result of our 
commitments to Hurricane Mitch relief efforts in Central 
America.
    I mention all of this because of the competing resources 
and the perception of competing resources. What sort of 
guarantees can you give us that our growing military and 
humanitarian commitments to the war in Kosovo will not 
undermine our effectiveness all the way from the no-fly zones 
over Iraq to the humanitarian efforts in Sudan, or those in 
Central America?
    Secretary Albright. Well, you are quite right that we have 
a lot of competing demands. What we are asking for, though, for 
Kosovo is supplemental, non-offset funds, and I think one way 
to make sure that Kosovo does not hurt any of our regular 
programs is to make sure that we are not asked to do offsets, 
because our budget is not that large in the first place.
    I am sorry Senator Sarbanes is not here any more. I have 
this new saying that we are robbing Peter to pay Paul and we 
are now robbing Paul, too, because we cannot keep taking money 
away from the programs that are already very important to deal 
with. Certainly Hurricane Mitch was a natural disaster 
emergency, and this is a genuine emergency. Whenever there is 
an offset, then it does, in fact, hurt our normal programs.
    Senator Frist. Again, speaking with my fellow Tennesseans, 
I guess the understanding and interest in the nature of the 
humanitarian issues in Kosovo is sound. The second issue, the 
geopolitical context of a potentially explosive situation in 
Southern Europe, as the President has explained it, seems to be 
understood and appreciated, and third, even what is at stake 
with NATO and its future seems to be of real concern to people, 
but it is really the confluence or the coming together of these 
very discrete concerns together and how we put them together 
into a formula to determine where and how much to involve 
militarily that seems to pull back and escape people when I 
talk to them.
    I think the real challenge--and I see my time is up--but to 
take these three compelling concerns, each which you can 
explain separately, and combine them into a clearly understood 
determination of why this is in our national interest is a 
challenge that we have, and again, I know my time is up, but I 
will continue to struggle to address that, as we all will.
    Secretary Albright. I just wish to say that is the 
difficult aspect of all of our jobs, to try to put the pieces 
together, and to not decide that one group of people or one 
part of the world is not as important as another. But there are 
strategic concerns that we have, and there is a combination of 
these various concerns that have come together in Kosovo--the 
humanitarian aspects, the strategic importance of the region, 
and a larger overall policy of moving to get a united Europe. 
Those are the various parts that have come together. But I just 
would like to assure everybody here that because we are so 
focused on one place does not mean that we are not carrying on 
in the others. We are concerned about how to move diplomacy 
forward in those areas, and we are focused on all of those 
also.
    Senator Frist. Thank you, Madam Secretary.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing. I cannot thank you enough, because it 
is so important and timely, and it is answering a lot of 
questions for me that my constituents from California want to 
have answered, and Madam Secretary, bless you for all you are 
trying to do to save the world from what I think is something I 
hope I never see again.
    Let me just say where I find myself on this issue, just to 
make it complicated, is between those who say do nothing and 
those who say any and all means, so I am really in between 
those two, which means that I basically am supporting the 
President at this time.
    I have a number of questions. One of the good things of 
being on the end, you get to hear everybody, and a lot of them 
are answered, but I have a number. Let me go quickly and give 
you time to answer them.
    Members express fears about arming the KLA. I have two 
questions. Does Congress have to vote before the KLA could be 
armed? Second, didn't the KLA sign an agreement to disarm at 
Rambouillet, and if you trusted them then, would you not trust 
them to disarm at a later date when there was an international 
peace force in the region?
    Next, my greatest concern, I share some of what Paul said, 
Paul Wellstone, the condition of the refugees in the camps, and 
I want your opinion on those conditions as candidly as you can 
tell us, and perhaps more urgent to me, the condition of the 
people stuck inside Kosovo without the KLA to defend them, with 
no airlifts coming in of food. This issue was brought to my 
attention by Senator Schumer, and he is trying to work on this 
issue.
    I do not know if you heard National Public Radio this 
morning, but it was a young man who was stuck in Pristina, if I 
said that right--I am not sure exactly how to say it--and he 
says in the family, the only one who could go out on the 
street, his mother can go get milk and bread. There is nothing 
else to buy. He is a prisoner.
    I went to the commemoration of the liberation of the 
concentration camps, Mr. Chairman, just the other day at the 
Capitol, and I have this horrible vision in my mind of us 
finding that those people died in their homes of starvation, 
not in concentration camps but in their homes. I am so 
concerned about that. Can you say anything that could calm my 
fears about that, or underscore my fears about that?
    So that does get to Paul's point about dropping some 
supplies to those people, some food to those people.
    Now, the other question is one of history. How did the 
Kosovars--haven't the Kosovars had self-rule since 1974, until 
Milosevic took it away, and even did they not have some 
autonomy granted to them in 1945, because there are those who 
say this is civil war. I do not see it that way, because as I 
understand it, they had self-rule and autonomy all through, 
since 1945. I hope you are writing these down.
    What is the status of the oil embargo? You touched on it 
only to say there was disagreement, but where do we stand on 
that situation?
    And the last very important question, every one of these 
questions is very important to me, the status of the POW's. Is 
there any news there? Can we swap now that we have a POW?
    Secretary Albright. Thank you. Let me say in terms of the 
arming of the KLA I think that we have a general sense, 
certainly even supported by the Europeans, that adding arms to 
all of this is not the answer, that it just creates additional 
fighting, and does not lead to a useful end.
    Whether they would disarm afterwards having once said that 
they would, I think, is a fair question, and if they got what 
they wanted, perhaps they would. But from our perspective I 
think there are two basic problems with arming them. One is 
that it does add arms to a region that already has a lot of 
arms and will not resolve the situation.
    Senator Boxer. With all due respect, we are dropping so 
many bombs on people, and these people are stuck in their homes 
with no one to defend them, and so I find--I can appreciate the 
issue of being against arming the KLA, but to say we are 
worried about arms in the region when we are in a war there, it 
just strikes me----
    Secretary Albright. But there is this second part of it, 
the fact that then everybody would feel free to arm the Serbs. 
I do think that that is an argument.
    On the camps themselves, I think that the situation is 
improving, clearly. It took a while, although not very long, 2 
or 3 days to get set up, but I think on the whole the camps are 
under pretty good control. It is not simple, because there are 
huge numbers, and UNHCR and the various organizations that are 
trying to take care of them are operating as best they can. The 
problem is that there is an overflow, and whether we can keep 
up building the camps in order to deal with it.
    There is also the secondary question that as a matter of 
policy we are trying to keep the refugees within the region so 
that they can go back sooner rather than later. In the 
meantime, we are trying to get other countries to take these 
refugees temporarily. But the further they get away from the 
region the more we are undercutting our general policy, which 
is that we want them to be in the region in order to be able to 
get back. The United States itself has offered to take 20,000 
to alleviate this, but of course we are even further away.
    The condition of the internally displaced persons is of 
great concern to us. I met last week with two Kosovar women, 
one who ran a camp for women that had been raped, and another a 
journalist, and they described the most horrendous conditions. 
When I talked to the representative of the KLA in Brussels, he 
described terrible conditions, and I think we are all working 
very hard to get assistance to them.
    I am very glad you asked about the air drops again, but as 
it is always explained to me, they are hard to do. The pilots 
have to fly in lower, and then there is a greater risk to them. 
So there is a tradeoff. But believe me, I have raised this 
subject and will make it very clear that you both have 
specifically asked about that.
    On the autonomy issue, this is the real problem. Kosovo did 
have a substantial amount of autonomy under their previous 
constitution. This whole thing started in 1989 when Milosevic 
took it away from them. This was his ticket to greatness from 
his perspective, playing the nationalist card. So in many ways 
Kosovo is the crucible of the whole problem. This was his way 
of showing his power. We had really wanted them to have a 
higher degree of self-rule than they had under that 
constitution, but they do not have anything. He systematically 
took away their schools and various things.
    On the oil embargo, I think there is a general realization 
among the other countries, as I said, that it does not make 
much sense to be bombing oil refineries and letting oil in. All 
I can tell you is that it is a subject of discussion among all 
of us. I think people are agreed something needs to be done, 
and they are looking at how to make it happen.
    On the prisoners, we have not heard anything more from 
them. They had not had access to the ICRC. They have not had 
access to them, whereas those that have been captured by the 
KLA have, in fact, had all the proper procedures. I do not want 
to go into any further details, but we are very concerned about 
getting them back, but not about negotiating for them.
    Senator Boxer. Thank you.
    The Chairman. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Welcome, Madam 
Secretary. It is always a pleasure to have you here, and our 
prayers are with you. You have got a tough situation that you 
are dealing with.
    If I could ask you to just back up for a second from the 
current situation, though, and just ask, will this event lead 
us to a new doctrine, to where we will be willing to get 
involved in sovereign nations' disputes when there is ethnic 
cleansing that is taking place? It strikes me that we have 
crossed over a threshold into a new type of doctrine that would 
impel us to get involved in places like Rwanda in the past, or 
Sudan currently, when you are looking at pretty similar types 
of situations as what we have taking place in Serbia and 
Kosovo.
    Secretary Albright. I think it is always very hard for 
people to speak about something they are doing as doctrine. 
That usually is something that people assign to it later. 
Clearly, there has been a growing concern about desperate 
humanitarian situations, in particular countries. There are 
discussions about humanitarian interventions in previous ones, 
and some more successful than others.
    You basically try to find the tool that enables you to take 
action, whether it is a United Nations, or some other regional 
organization.
    I think that what we have seen in Kosovo is not only some 
of the most vile ethnic cleansing, but also there was and is a 
functioning organization, NATO, that has the will to do 
something about it.
    I do think that the American people, as I have always said, 
the most generous and humanitarian people in the world, are 
concerned about these kinds of humanitarian horrors. When 
people are asked if dealing with humanitarian issues is in your 
national interest, for many Americans this is not just 
international social work, but a national interest, and I think 
it is something that we need to discuss, because it is a 
departure, I think, from other ways that business was done 
previously.
    Senator Brownback. It strikes me it is, and it is an 
important one that we should have a very long and involved 
policy discussion about, because I look at, say, the situation 
in the Sudan today. They have 2 million people that have been 
killed over the last 10 years, 4 million displaced in the 
southern Sudan, persecuted by the Sudanese Government that is 
terrorist by our definition of a Government.
    Last year, we had 100,000 people killed in southern Sudan 
by a man-induced famine, and I ask, what is the difference 
between this and what is taking place in Kosovo and Serbia? You 
state that NATO is there, and it is not in Africa, for one, but 
still you had said earlier to a question we would be in Kosovo 
and Serbia even if it was not for NATO, that this is a U.S. 
decision to do this, and I do not particularly see the 
differences here, other than one is in Africa, and the other is 
in Europe. I would hate to think that we simply do not deem one 
situation to be meritorious of our effort and we deem the other 
one not to be because of where it is located, or the ethnic mix 
of the people that are involved.
    I think that is a tough question for us to answer if we try 
to be consistent and stop oppression in places around the 
world.
    Secretary Albright. I think, Senator, you have asked a very 
deep and troubling question, because as one asks it there is a 
tendency to think that we are choosing among different peoples 
for reasons that are not the reason, frankly.
    But I think that as you look at where there are terrible 
things going on in many parts of the world--and I think we try 
through whatever means we have to alleviate them where we can--
the choices are not made on the basis of what kinds of people 
are there, or even the location, but on a combination of 
factors that would indicate that this is something that can be 
done by the application of American power, or other things that 
can be done by the support of America or some other method.
    But this is a basic discussion that we all need to have. 
For those people who believe that we should be in other places, 
we get accused of being the global cop, or being in places 
where we do not need to be. On the other hand, there is a whole 
other argument. If you cannot do everything, do not do 
anything.
    So I do think that it is much easier to describe what were 
strategically important areas during the cold war, and I think 
we need to have this kind of a discussion. Your list might be 
different from mine, but I do not think that it is a matter of 
choosing in a way that has any kind of hidden agendas or 
malevolent thinking behind it.
    Senator Brownback. I think it would help our people if we 
would have that sort of policy discussion at a time a little 
more removed from the present so that we really can set out a 
clear situation.
    Secretary Albright. I agree with that.
    Senator Brownback. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman, very much. I 
thank you for holding this hearing and, Madam Secretary, it is 
a pleasure to be with you.
    Last evening, which I suppose is a statement both of my 
intense interest in this issue and the current quality of my 
life, I was listening to the replay on CNN of the Serbian 
television. I was drifting off to sleep when all of a sudden I 
heard an announcement that Senator Torricelli today called for 
the complete American withdrawal from the Balkans. I assume 
there was something lost in the translation. I assume the Serbs 
intended to accurately portray this, but actually my statement 
was, we must at all cost ensure that we are not defeated in the 
Balkans. It is a testament to the current level of information 
the people of Serbia are receiving, thanks to Mr. Milosevic.
    I wanted, Madam Secretary, to share with you that I think 
there are few more selfless acts in history than the 
willingness of the United States to engage in a military 
confrontation for which there is no geopolitical advantage, 
territory to be gained, or opportunity to be enriched. The 
American commitment in Kosovo is based entirely on a commitment 
to an idea.
    We believe in respecting the human rights of other people, 
and a limit to sovereignty if the rights of people are to be 
offended. In this I think every American can take extraordinary 
pride. We are a unique people at a unique moment in history. 
That, however, as you know, does not mean that I have not had 
my reservations about this operation. I am concerned less about 
the American commitment, of which I am proud, than whether at 
every opportunity the policy has been pursued with the degree 
of precision and reason that I believe the American people have 
a right to expect.
    This leads me to want to revisit several moments as this 
crisis was escalating, not because I think it is time entirely 
to rewrite its history, but because, to regain confidence 
before we come to the next major decision, and that is my 
extraordinary distress that we find ourselves with this refugee 
crisis, in spite of the fact that Mr. Tenet in the CIA hearings 
predicted that there would be a Serb offensive that would lead 
to massive refugees.
    And second, I would like your assessment of whether or not 
this belief that an air campaign will bring a change in Serbian 
policy actually reflects the unambiguous military advice that 
you received from the Joint Chiefs of Staff.
    Secretary Albright. First of all, let me say how much I 
associate myself with your opening remarks, because I do think 
that there is something so lofty about America's principles 
here and our goal that I hope they translate that for Serbian 
TV. I think, as Shimon Perez said when he came here once, 
``When history is written, nobody will ever understand this 
country. You have so much power, and you have never tried to 
dominate everybody. You have so much wealth, and you do not 
overwhelm everybody, and what you do is on behalf of a greater 
good.'' I am very proud to represent this country.
    Second, on the issue of the refugee crisis, I think that we 
were all made aware of the fact that there would be a huge 
refugee crisis and we, in fact, prepositioned vast amounts of 
food for a long period for many people. I think it is fair to 
say that we were all appalled by the extent, by the depth and 
breadth of it, because no one could imagine the barbarity of 
Milosevic. So obviously initially not everything was there, but 
I am very proud of the way that everybody stepped up to deal 
with the issue rapidly in putting these camps together. There 
were predictions, but the numbers were larger than predicted.
    On the air campaign, the military advice that I heard was 
all unanimous.
    Senator Torricelli. Madam Secretary, it is my own judgment 
that the only thing that separates the NATO alliance from an 
eventual introduction of ground forces may be the chance of a 
political settlement that results in a partition of Kosovo. I 
recognize that it is also an American ideal that heterogenous 
communities can form nations. That, indeed, has been the 
American experience.
    The Balkan experience has been that the independence of 
Slovenia and Croatia and now the self-separation of the various 
communities within Bosnia has led to some stability. The United 
States made a genuine effort to have Kosovo remain within the 
Serbian nation, with a limited autonomy. It had noble purposes. 
It failed.
    Asking the people of Kosovo to ever now live under Serbian 
administration appears to me to be similar to asking Jews in 
1945 to remain in Germany rather than having a homeland in 
Israel. What was a good policy a month ago may no longer be 
plausible, and it appears to me that the only opportunity to 
avoid a ground war may be through the intervention of the 
Russians, potentially with the introduction of their forces, or 
Greek forces, or others, to allow at least for a period of time 
a partition, so the people of Kosovo could return within at 
least areas of their homeland, and Serbs could accept areas 
with which they have a stronger and more traditional bond.
    I recognize the sensitivity of the suggestion. I am 
perfectly happy to have you respond to it, though I would 
understand if you did not.
    The Chairman. Madam Secretary, I am going to allow you to 
respond as you wish on this. We are running over, and I am not 
going to be able to make the 4:30 time that I promised your 
people, but we have done the best we could.
    Secretary Albright. Thank you very much. If I could just 
briefly respond. I think, Senator, we are all trying to look at 
various models that would allow for the three objectives that 
have to be carried out: Serb forces out, refugees back, 
international force. We are looking at various packages that 
this could go into, envelopes of some kind.
    The problem, and I state this more as a professor, if I 
might, is that the issue of partition in this region would have 
deleterious effects in terms of what it would signal to Bosnia, 
and generally to Macedonia and other countries that are 
multiethnic. While I think it is possible to try to figure out 
some ways where certain Serb equities could be respected in 
Kosovo, I think we have to be very careful not to, in order to 
solve one problem, create additional ones.
    But I do think creative thinking is required here. I think 
we need to stick within those three very clear objectives, and 
clearly there are some different ways that those can be 
defined, but they are very clear.
    Senator Torricelli. I simply wanted to say I find that 
there is a real opportunity for the Russians to play a 
constructive role, and that if Milosevic understands the 
reality of his military situation, there are means of 
settlement, but that time is undoubtedly quickly moving away.
    Finally, Mr. Chairman, if I could, I want to revisit this 
issue of oil supplies to Serbian forces.
    The Chairman. Since you are last on the list, we are going 
to forebear.
    Senator Torricelli. I am sorry, I did not see the light go 
off.
    The Chairman. It burned itself out.
    Senator Torricelli. Does that translate into unlimited 
time, or simply another question?
    The Chairman. Go ahead.
    Senator Torricelli. Madam Secretary, I want to remind you 
of something that I think is self-evident. It would be very 
hard to explain to an American family that their son or 
daughter is being fired upon by Serbian forces who are arriving 
at the battle with oil supplies that are freely flowing into 
Serbia.
    In my belief, 6,000 air strikes on hundreds of targets in 
Serbia is an act of war. Blockading ports would be no more, and 
considerably less egregious in my mind, but it is not a legal 
technicality that I would want to explain to any American 
family.
    As long as Serb forces are firing upon American airmen and 
threatening their lives, stop that oil. We do it within NATO if 
possible. We do it unilaterally if necessary. It cannot be 
allowed to continue if it facilitates Serbian resistance and 
endangers the lives of American airmen, period.
    Secretary Albright. I do not think we are looking at it at 
all in terms of legal niceties. I think it is something we want 
to have happen.
    As I said, I have now spent a lot of time talking with the 
allies about it. Obviously, limiting or stopping of oil going 
in there is more effective if it is done multilaterally than 
unilaterally. We are working on it.
    Thank you.
    Senator Torricelli. Thank you, Mr. Chairman.
    Secretary Albright. We are very glad to have you on the 
committee, Senator.
    The Chairman. Madam Secretary, you have been questioned by 
all but one member of the Foreign Relations Committee, and that 
absentee Senator had a commitment that he absolutely could not 
break, and I will not call his name, but he wants me to explain 
to you that he wanted to come most of all.
    I am bound to tell you that I had five Senators, all but 
one of them gentlemen, to say such things as, you are a living 
doll, you answer questions honestly, and so forth, and I maybe 
ought not to give the exact quote, but you are greatly admired 
and respected by this committee.
    Now, in the housekeeping, we are going to keep the record 
open for a couple of days in order to accept any follow-up 
questions that Senators may have, including the one absentee 
Senator, and just on a personal note, I appreciate your coming 
and, as I said at the outset, I appreciate the calls you make 
to me from overseas at what must be late hours your time, where 
you are. You are working hard as a Secretary of State, and I am 
very proud of you.
    If there be no further business----
    Secretary Albright. I would just like to say, Mr. Chairman, 
thank you very much for having this hearing. I think it was a 
very good one, but it also shows the amount of informal work we 
are able to do on a daily basis because we have gone through so 
many of these issues together and with other members of the 
committee, and it is my honor to be here with you.
    The Chairman. Thank you very much. If there be no further 
business to come before the committee, we stand in recess.
    [Whereupon, at 4:45 p.m., the committee adjourned.]

    Responses of Hon. Madeleine K. Albright to Additional Questions 
               Submitted by Senator Joseph R. Biden, Jr.

    Question 1. Is there any organization carrying out systematic 
interviews of refugees in camps in Albania and Macedonia which would 
provide documentation of alleged war crimes or human rights abuses and 
violations so that such documentation can be transmitted to the Hague 
and used to indict the accused perpetrators of these crimes?

    Answer. The International Criminal Tribunal for the Former 
Yugoslavia (ICTY), the OSCE's Kosovo Verification Mission (KVM), and 
the U.S. members of the Kosovo Diplomatic Observer Mission (US KDOM) 
are actively carrying out investigations into alleged war crimes and 
gross human rights violations committed in Kosovo. Many non-
governmental organizations (NGOs) are interviewing refugees on their 
own or in conjunction with a U.S.-led effort to standardize the refugee 
screening process. Among the most active NGOs are Human Rights Watch, 
Physicians for Human Rights, Amnesty International, the American Bar 
Association's Central and East European Law Initiative, and No Peace 
Without Justice. The Administration understands that all of these 
organizations and groups will share their information with the ICTY.

    Question 2. How has the general lack of security in Northern 
Albania been addressed by either the government of Albania, or the 
international community? How is security inside the camps handled? Have 
there been any more incursions across the border by Serbian weapons 
fire?

    Answer. The government of Albania has taken a number of steps to 
increase security on its border with Kosovo, including troop 
reinforcements and extra border police. This has not included, however, 
extra measures to remedy or reinforce the internal security situation. 
Given the intensity of the shelling in the border regions and the poor 
internal security, the international community has not been able to 
operate effectively in the region.
    Security in the camps has been handled by a combination of the 
UNHCR, the sponsoring country and the local Albanian officials. This 
arrangement has resulted in varying degrees of effectiveness.
    Serbian shelling continues across the border with Albania on a 
sporadic basis. Albania has suffered some casualties on its territory 
and several villages in Albania have been severely damaged. Albania has 
generally heeded U.S. and NATO calls not to respond to the Serb weapons 
fire.


            U.S. KOSOVO DIPLOMACY: FEBRUARY 1998-MARCH 1999

                              ----------                              


                      TUESDAY, SEPTEMBER 28, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:05 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Gordon H. Smith 
presiding.
    Present: Senators Smith and Biden.
    Senator Smith. Good afternoon, ladies and gentlemen. We 
will call to order this hearing of the Foreign Relations 
Committee. We are continuing our examination of the United 
States policy regarding Kosovo. This hearing is part of a 
series that we are holding to look at all aspects of our Kosovo 
policy.
    Today our subject is the diplomatic efforts made by the 
Clinton administration from February 1998, when the Serbian 
paramilitary forces began the assault against ethnic Albanian 
Kosovo from March 1999, when the NATO alliance found itself at 
war for the first time in its history. Next week, we will 
discuss the way in which the war itself was conducted.
    We are fortunate to have testifying on our first panel 
Senator Bob Dole, who is--who was and is one of the leading 
voices for assertive action in Kosovo, not just in the months 
after the conflict first erupted, but since he took his first 
trip to Kosovo in 1990. The second panel will consist of Mr. 
Ivo Daalder, from the Brookings Institution, and Mr. Bob Kagan 
from the Carnegie Endowment for International Peace and also a 
contributing editor at The Weekly Standard. I thank all of 
these witnesses for being with us this afternoon.
    The preface to their remarks, let me just say that after 
Yugoslav President Slobodan Milosevic first dispatched the 
Serbian Army and special police units against the Kosovar 
Albanians in February 1998, senior administration officials 
issued strong words of shock and dismay. Secretary Albright 
declared in March 1999 that, ``The time to stop the killing is 
now before it spreads, and that moral condemnation and symbolic 
gestures of concern alone will get us nowhere.''
    But in practice, United States policy was based on empty 
threats that did nothing to hinder Milosevic's ability or 
incentive to continue his brutal butchery of innocent Albanian 
citizens in Kosovo. Contact Group meetings and U.N. Security 
Council resolutions condemning the violence and ordering 
Milosevic to stop the assaults may have made the U.S. and 
Europeans feel better, but they did nothing to stop the 
killing. In fact, while we talked, argued, hesitated, and 
issued hollow threats, Serbian units killed thousands of 
Albanians, burned hundreds of villages, and dispatched tens of 
thousands of Albanians from their homes.
    This administration claimed to have learned something from 
the experience in Bosnia. Specifically, that acting early and 
forcefully will prevent future atrocities and reduce the 
eventual need for an endless international presence on the 
ground. Yet once again, the United States and Europe stood by, 
ringing their hands while innocent people were indiscriminately 
killed based on their ethnic origin.
    There were consequences to our delay, not just to the 
Kosovar Albanians who were victimized and brutalized by the 
Serbian onslaught for far too long, not just to U.S. 
credibility which was damaged and which certainly emboldened 
our enemies in Iran and Iraq, but the administration's 
reluctant to pursue a policy that had an opportunity to stop 
the conflict while at the same time threatening, ``the most 
dire consequences imaginable,'' for Milosevic if he went on 
killing made a peaceful solution much more difficult to bring 
about.
    Much has been said by Members of Congress, by our three 
witnesses today, and by representatives of the media about the 
degree to which the administration relied upon Milosevic to 
solve the problems with Kosovo that he, himself had created. 
Senator Dole may have stated it best when he wrote over a year 
ago that, ``Once again the victims are being asked to negotiate 
with those who are attacking them, and once again, Milosevic is 
being courted, cajoled, and bribed to end the suffering that he 
wrought.
    The deal negotiated by Ambassador Holbrooke with Mr. 
Milosevic last October, which the Serbs immediately began to 
violate, may have saved the lives of tens of thousands of 
Albanians hiding in the hills with winter approaching, but I 
believe we never should have been in that position at all. Had 
the administration pursued available policy options in the 
months immediately following the outbreak of violence in 
Kosovo, I believe we would not have been faced with a 
humanitarian disaster in the making and would not have been 
forced to count on Milosevic's good will.
    The administration has claimed that it was unable to act 
more forcefully in Kosovo sooner than it did because of 
reluctant European allies and less than enthusiastic support 
from Congress, but I contend that the Europeans sensed our 
ambivalence and were simply looking for leadership which was in 
short supply for far too long. And here in Congress, I believe 
that if the administration had laid out a convincing case for 
use of force in Serbia and had shown the resolve to see it 
through, it would have received support for its policy.
    The debate in the Senate on the use of all necessary force 
during the war certainly indicated there were members prepared 
to support a more vigorous policy, even when it was against the 
wishes of the administration. In sum, the effort to avoid war 
in Kosovo for a full year after the conflict began left the 
United States with no choice but to go to war this past spring.
    I look forward to hearing from our witnesses. I believe 
Senator Biden will be with us shortly, and it is always a great 
pleasure to see Senator Dole and to welcome him back to this 
body that he knows so well and served so long and so capably 
and, Senator, we thank you for being our first witness as we 
try to understand from what happened and draw the lessons for 
the future so that it might not happen again. Senator, the mike 
is yours.

             STATEMENT OF THE HONORABLE BOB DOLE, 
                         WASHINGTON, DC

    Senator Dole. Well, thank you, Mr. Chairman. As you said, 
Senator Biden will be here briefly. The crisis in the former 
Yugoslavia is something that Senator Biden and I worked on for 
years before you arrived in the Senate and I appreciate your 
leadership since then. It has always seemed to me that the 
Senate's work on this issue has been a bipartisan effort, and I 
think, for most of the time, we were out ahead of the Bush 
administration and the Clinton administration. One can argue 
whether the United States had any business in that part of the 
world at all, but having made that decision, we followed 
through on it. Following on the comments you made, I'd like to 
make a few remarks.
    By way of introduction, I would first make the point that, 
during the war in Bosnia, before the conflict in Kosovo, until 
the Senate was finally able to muster 69 votes to lift the arms 
embargo, the United States did not have a policy. As a result 
of our work, the administration changed its policy. Again, this 
came about due to a bipartisan effort by Republicans and 
Democrats who thought if, we could lift the arms embargo and 
allow the Bosnians to defend themselves, we could avoid any 
military involvement by the United States or even NATO. We 
thought the right to defend yourself was a basic right which is 
guaranteed in the U.N. charter and elsewhere under 
international law, and we thought it was good policy and made a 
great deal of sense. Working with Senator Biden, Senator 
Lieberman, and others on both sides of the aisle, we finally 
were able to get the 69 votes, which was enough to override a 
veto, and then we seemed to see a change in policy.
    It is good to be back in the Senate. I do not come here 
often, but I certainly have great respect for the institution 
and for the people who work here--Senators and members of their 
staffs and everyone else who makes this place operate.
    Mr. Chairman, you asked me to take a U.S. actions and 
policies and to offer any recommendations that I might have. 
First, let me point out that the experts, who will speak on the 
second panel, are seated behind me. I am not a foreign policy 
expert. I am someone who has learned a lot about this area 
simply through being in the Senate and having the opportunity 
to travel to the region, as you said, nearly 10 years ago. When 
we traveled to Kosovo, we found that approximately 30,000 
Kosovars had turned out to greet us, only to be driven away by 
Serbian forces with water cannons and clubs.
    It was evident to us even then, when Serbian authorities 
closed down Kosova's legislature and schools and would not let 
the Kosovar Albanians practice medicine, that their rights were 
being stripped away. I never could find any document that gave 
Serbian leader Slobodan Milosevic the power to rule the 
``greater Serbia,'' that he envisioned, yet it took many years 
before the United States acted against him. For this reason, I 
have described U.S. policy toward the former Yugoslavia as a 
litany of missed opportunities.
    As you, Mr. Chairman, have indicated in your statement, 
time and time again, the United States had the opportunity to 
stop Milosevic, but failed to act. Even when it ultimately 
confronted Milosevic in both Bosnia and Kosovo, it did so with 
half measures that left Bosnia divided and politically and 
economically impoverished, Kosovo on an uncertain path, and 
Serbia still firmly in the grips of the most backward and 
repressive regime in Europe.
    I do not think it had to be this way. It seems to me that 
we could have taken swift and decisive action. The United 
States and its allies could have ended the brutal treatment of 
non-Serbs under Milosevic's control a long time ago.
    As I said, I first traveled to the region with a 
congressional delegation, in 1990. Even though the crowds that 
gathered to see us were driven away. We succeeded in having 
meetings with both Serbs and Kosovars, and we brought a clear 
message back to Washington. That was during the Bush 
administration. And I must say that administration officials 
did not see any urgency in the situation; in fact, they were 
still calling for a ``united Yugoslavia,'' which seemed to me 
was simply not going to happening. It was clear that Croatia 
and Slovenia were already breaking away. And, of course, with 
our 1997 Presidential elections approaching, I do not think the 
White House wanted any involvement, and so we did not have much 
effort by those in the Bush administration.
    Nevertheless, when Milosevic's forces were busy turning 
eastern Bosnia into a giant killing field--where 250,000 
innocent civilians, primarily women, children and other 
vulnerable groups lost their lives, President Bush did make a 
very firm ``Christmas warning'' to Milosevic: that if such 
action was taken in Kosovo, the United States was prepared to 
use force. In 1993, President Clinton repeated that very same 
message. So you had a Republican President and a Democratic 
President both making the statement--one in 1992, and the other 
in early 1993.
    The irony, of course, is that when Milosevic was getting 
his way in Bosnia, we warned him not to cross the line in 
Kosovo. When he started to get his way in Kosovo, we warned him 
not to cross the line in Montenegro. Regardless of whether he 
generally respected our threat or had his bloody hands full 
elsewhere, Milosevic did indeed heed these warnings. The brutal 
oppression, the beatings, the random murders--all of these 
things continued, but Milosevic refrained from the massive 
purges that had decimated the Muslim population of eastern 
Bosnia.
    The next major opportunity to save Kosovo came more than 2 
years later. The United States hosted a big summit in Dayton, 
Ohio, where the Clinton administration welcomed Milosevic and 
Bosnian President Alija Izetbegovic and Croatian President 
Franjo Tudjman. The administration billed the talks as ``a 
comprehensive Balkan peace process.'' Yet somehow the issue of 
Kosovo never made it on the table. It was never discussed. It 
was never mentioned.
    When Dr. Bujar Bukoshi, the Prime Minister in Kosovo's 
Albanian government-in-exile arrived to raise the issue, he was 
turned away at the gates. Dr. Bukoshi knew what would happen 
when the United States and its allies declined to derail 
Milosevic's anti-Albanian train at Dayton, just as Dr. Haris 
Silajdzic, then the Foreign Minister of Bosnia, knew when he 
sat in my office years before and described to me in detail 
precisely what was going to happen in Bosnia. And he had it 
right on target. There would be a partition, or a de facto 
partition of Bosnia. And all this was going to happen if we did 
not stop Milosevic.
    So, only 2 years after the Dayton settlement, Milosevic 
moved on Kosovo, and, for more than half a year, the 
administration did little to stop the killing of Albanian 
civilians at the hand of Serbian forces, even though the United 
States had issued ``Christmas warning'' from Presidents Bush 
and Clinton. Milosevic took advantage of this inaction.
    What happened next, after the attacks in Kosova had begun, 
is, in my view, one of the most remarkable climb-downs by the 
West in the history of its dealings with the Belgrade regime. 
First, President Clinton steadfastly refused to repeat the 
Christmas warning, and the silence surely was not lost on 
Belgrade. Then, just as support was building for a forceful 
NATO response to Serbia's attacks, the administration sent 
Ambassador Richard Holbrooke to Belgrade to cut another deal--
the one that you, Mr. Chairman, just suggested gave Milosevic 
more time. Why the United States would continue to deal with 
this man who had started a war in Croatia and started a war in 
Bosnia and was about to start a third war has always been a 
mystery to me, because the Holbrooke deal allowed Milosevic to 
keep 20,000 troops in Kosovo. In addition, the only means of 
verifying his compliance with the agreement in deterring 
further attacks on the ground was the presence of an unarmed 
pool of verifiers drawn largely from the diplomatic corps and 
the staff of international organizations--a presence which 
Ambassador Holbrooke referred to as a ``civilian army.''
    Now, why would we give Milosevic another chance? I have 
never understood this. Many of my Senate colleagues and I 
always looked at this not as a partisan issue; instead we 
looked at it from a straightforward perspective and asked, 
``Who is this man? What has he done? Has he kept his word?'' 
The answer is no. I have had the opportunity to meet with 
Milosevic as Chairman of the International Commission on 
Missing Persons, and one particular incident indicates to me to 
that Milosevic is not a very sensitive person. Our commission 
always meets with the mothers of victims in Serbia, Croatia, 
and Bosnian. These are largely peasant women who have lost 
their sons--some as many as four or five sons who have been 
killed, or, in the case of Bosnia, taken from their homes and 
tortured, starved, executed and dumped in mass graves.
    I remember being urged by the Serbian mothers to ask 
Milosevic if he would please meet with them. It would have 
meant a great deal for the mothers to have the Serbian leader 
meet with them and express his concern and sympathy. He has 
never done it, even though he promised me that he would. To me, 
this was a clear indication of what little sensitivity he had 
not only toward the Bosnians and the Kosovars, the Croats, and 
the Slovene, but also to his own people. He could not care 
less. It was all about power--about keeping his own power. So, 
it defies logic why the United dtates would give this person 
another chance, but we did.
    The results of this illogical decision quickly became 
clear. Milosevic wasted no time in escalating his attacks in 
Kosovo. Less than 4 months after the Holbrooke agreement, the 
administration launched a full court diplomatic press in peace 
talks at Rambouillet, France. At first, the Serbs and the 
Kosova Liberation Army (KLA) rejected an agreement, but the KLA 
eventually signed on. If I may add, my own view is that the KLA 
made a big mistake in not signing Rambouillet in the first 
instance. By not signing immediately, it gave Milosevic an 
additional 30 to 45 days to move more troops into Kosovo. I 
mentioned this to Hashim Thaqi and other KLA leaders--their 
stubbornness or reluctance to sign--and I share the view 
expressed by Secretary of State Albright, who I think did a 
terrific job and did the best that she could, that the KLA 
should have signed the agreement at Rambouillet.
    The KLA did sign the agreement later, and at long last, as 
everybody knows, NATO started its bombing campaign, but, as I 
said at the time, it was a political bombing rather than a 
military bombing. As more information is revealed, we are 
finding that this campaign may not have been the great success 
that NATO claimed. Maybe we did not hit as many targets as we 
thought; maybe there was a lot of hype on both sides. Perhaps 
what we were doing there was calculated, merely to bring 
Milosevic to the bargaining or negotiating table, not to drive 
his forces from Kosovo or to bomb him, his military and his 
capital into submission. There is strong evidence of this in 
the administration's refusal to change tactics even after 
Milosevic's forces began their genocidal sweep through the 
cities, towns and villages of Kosovo.
    In the end, the results were enough to persuade Milosevic 
to accept the West's fundamental demands. This is not 
surprising when you make a simple comparison and I add up the 
number of people who live in NATO countries--millions and 
millions and millions--versus the number of people who live in 
Serbia. About eight million Serbs, plus Albanians and some 
Hungarians. There was never much question about who was going 
to win this contest. Yet we found ourselves hoping that NATO 
would be strong enough to defeat Serbia and then thinking that 
it was a great, remarkable victory when 19 countries defeated 
this little country of Serbia.
    A lot of problems have resulted from the way in which we 
did this. I was back in Kosova in July. We flew over southern, 
central, and western Kosova by helicopter. They were excited 
and euphoric to see Americans there, and they were pleased with 
the commitment that had been made on their behalf. I supported 
that commitment by NATO and supported President Clinton in 
their effort to drive Serbian forces out of Kosova. Today, 
however, approximately three-fifths of the housing and 45 
percent of their schools have been damaged. Eighty percent of 
property records had been stolen or destroyed, and identity 
documents and records have suffered a similar fate.
    There can no longer be any doubt about what Milosevic had 
in mind, and that was to drive out the Kosovars and eradicate 
their history and culture. He intended to win the war and 
create a new Albanian-free Kosovo for the Serbs. His forces did 
remarkable little damage to Kosovo's infrastructure indigenous 
assets, and natural resources. The multi-billion dollar 
reconstruction projects that many had envisioned are therefore 
not necessary. That does not provide much consolation for those 
who had their homes destroyed, but here I come to the more 
negative part of my assessment.
    In recent weeks, the news has been filled with ominous 
reports of power grabs, town hall occupations, murderous 
reprisals, black marketing, extortion, violent intimidation of 
Albanians and Serbs alike, and property confiscation by self-
appointed mayors, Governors, and commisars--many apparently 
with ties to the KLA.
    After being invited by the State Department to speak on 
September 15 at Lansdowne, Virginia where they convened a 
meeting of Kosovar Albanians, and I tried to make it very clear 
to the people assembled there that it was their responsibility 
to create a civil society in Kosova. I told them that, if they 
were going to have independence, which I support--the 
administration may not be able to do so, but I support it and 
believe that Kosova will ultimately be independent--they have 
this responsibility. If I may quote from my remarks to them, I 
said, ``Every political and civil right that Milosevic and his 
proxies denied you for a decade must be extended to every 
single one of your citizens--Albanian, Serb and Gypsy. When it 
benefits this common good to forgive, you must forgive. When 
justice is to be done, you must ensure that it is pure and 
blind justice, untainted by prejudice or revenge.
    ``When there is opportunity for great profit, that profit 
must be directed to benefit Kosovo, not just individuals. When 
the children of Kosovo are educated, they must learn facts, not 
the history of the victor or revisionists. When the people of 
Kosovo are informed, they must know the truth, not propaganda. 
And when the citizens of Kosovo are led, they must be guided by 
men and women who have set self-interest aside and are 
dedicated to establishing a government of the people, by the 
people, and for the people of Kosovo.''
    I went on to say that I know that Kosova is not the United 
States, and that the last thing the Albanians need is for 
people in Washington or any other country to preach to them. 
Nevertheless, I felt that I knew enough about what had happened 
over the years to have some credibility in suggesting to them 
that, if they are not committed to democratic principles, there 
will be major problems. They will lose support. They will lose 
the support of Congress, they will lose support of other 
countries, and they will lose support of the Albanian people.
    Let me just conclude by saying that I also told them in a 
very positive way that, if they would make this commitment to 
democratic principles, they would enjoy a democratic future and 
realize their dreams of economic prosperity and independence. 
But, as I said, it is ultimately up to the Kosovar Albanians. 
We in the West can furnish the tools. Indeed, it is in our 
interest to ensure that NATO carries out its full mandate in 
every corner of Kosovo, and that the United Nations assumes 
full authority for civic administration and then eventually 
holds free and fair elections and withdraws. We should not have 
a permanent U.S. military presence there.
    From all of this, there are lessons that should be learned. 
We need to learn the lessons of our past failures in the former 
Yugoslavia. First, early intervention was far less costly and 
often just as effective as belated intervention this is 
particularly true when you try continuously to cut deals with 
the a person such as Milosevic, who violates his trust every 
time. We must have policies set by our interests and 
objectives--in this case, in preventing genocide and further 
instability in the Balkans, rather than one triggered by a 
master threshold related to how many are killed before 
something should be done.
    Second, half measures yield half results. Our political 
bombing campaigns succeeded in driving the Serbian forces from 
Kosovo, but they have not solved the Milosevic problem. On the 
issue of independence or any other political status for Kosovo, 
they have merely kicked the can down the road. They appear also 
to have increased the killing in Kosovo. When we wage war, we 
must do it to win and win decisively. Here, there were to many 
people trying to call the shots. When you have a NATO operation 
with different Presidents and prime ministers picking out the 
targets, to me, it is not a very effective operation--for 
example when somebody in France is saying you cannot bomb this 
target or when somebody else is saying you cannot bomb that 
target. I am not certain what General Wesley Clark really 
thought about all this, but it could not have been a very happy 
time for him.
    Third, by merely halting the fighting is not enough to 
guarantee success. This is a lesson we still have not learned 
from Bosnia. When the international troop presence ends in 
Bosnia, my view is the situation will be what it was right 
before the war. In Kosovo, we could have done more earlier to 
encourage the ethnic Albanian leadership and discourage hard-
liners. And I must say, Dr. Rugova needs to come forward and 
provide some leadership. He did not attend the Lansdowne 
conference, and he was absent from Kosovo when the refugees 
returned. It seems to me that he is lacking in some leadership 
qualities. You cannot have absentee leadership.
    We could have also probably done more to ensure that the 
United Nations and NATO forces acted quickly to carry out their 
mandates. We can still solve this problem. Having set the chain 
in motion for the Kosovar Albanians to live safely and 
securely, free from Serbian oppression, we must now help them 
with the next, equally difficult steps toward democracy and 
economic prosperity.
    In conclusion, Milosevic's rule in the former Yugoslavia 
has been a long nightmare--one that began in 1989. For a number 
of reasons, nobody really paid much attention to the problem in 
its early stages.
    Whether we should have done something much more quickly is 
a question that needs to be answered. There are many 
Republicans and many Democrats in America, and many people who 
are not in politics who think we have no business doing 
anything in the Balkans at any time. This is not in our 
interest, they say. What difference does it make? they ask.
    I happen to share the view expressed by the majority of 
Republicans and Democrats in the Congress that, having made a 
commitment, and having made statements of policy, we did have a 
responsibility to act. I therefore hope that when the next 
problem arises, we will have a different, more coherent and 
pro-active approach. I would ask that my statement be made a 
part of the record, along with my statement to the Kosova 
Albanian leadership at the Lansdowne conference.
    Senator Smith. Without objection, we will include it in the 
record.
    [The prepared statements of Senator Dole follow:]

                 Prepared Statement of Senator Bob Dole

    Thank you, Mr. Chairman It is a privilege for me to be back in the 
Senate today and to be able to share a few observations with you 
regarding Kosova. Specifically, I have been asked to look back at the 
recent history of official U.S. policy toward the region, to provide an 
assessment of where things stand now, and offer some thoughts on where 
we go from here.
    In the past, I have described the Kosova policy of the United 
States and its allies as a ``litany of missed opportunities.'' Time and 
time again, when we have had the chance to stop Serbian leader Slobodan 
Milosevic, we have failed. Even today, after confronting Milosevic in 
both Bosnia and Kosova, we have done so with half-measures that have 
left Bosnia divided and politically and economically impoverished, 
Kosova on an uncertain path, and Serbia still firmly in the grips of 
the most backward and repressive regime in Europe.
    It did not have to be this way. When I first came to this issue, it 
was with horror at what Milosevic was doing to Yugoslavia, but also 
with hope that, through swift and decisive action, the United States 
and its allies could end Belgrade's brutal treatment of the Kosovar 
Albanians. In 1990, I took a Congressional delegation to Pristina, 
where we learned firsthand of Milosevic's brutality and political 
disenfranchisement of the Albanian people. Approximately 30,000 people 
turned out to greet us, but Milosevic's forces tried to turn them away 
with water cannon and truncheons. We succeeded in having our meetings 
anyway and took back a clear message to Washington: The situation in 
Kosova is dire, it is deterioriating, and the United States should act 
quickly to contain Milosevic.
    The Bush Administration did not see the urgency. Eventually, 
however, in 1992, when Milosevic's forces were busy turning eastern 
Bosnia into a giant killing field, the Administration issued its famous 
Christmas warning to Milosevic: If you attack or create unrest in 
Kosova, the United States is prepared to use force against you. In 
1993, President Clinton sent Milosevic the very same message.
    In retrospect, I wonder about these warnings: When Milosevic was 
getting his way in Bosnia, we warned him not to cross the line in 
Kosova. When he started to get his way in Kosova, we warned him not to 
cross the line in Montenegro.
    Regardless of whether he genuinely respected our threat or had his 
bloody hands full elsewhere, Milosevic did heed these warnings. The 
brutal oppression, the beatings, the random murders--all of these 
things continued, but Milosevic refrained from the massive purges that 
had decimated the Muslim population of eastern Bosnia.
    The next major opportunity to save Kosova came more than two years 
later, at Dayton. When Clinton Administration welcomed Milosevic, 
Bosnian President Alija Izetbegovic, and Croatian President Franjo 
Tudjman to Dayton, they billed the talks as a ``comprehensive Balkan 
peace process.'' Somehow, however, the issue of Kosova never made it to 
the table. When Dr. Bujar Bukoshi, the ``prime minister'' in Kosova's 
Albanian government-in-exile, arrived to raise the issue, he was turned 
away at the gates.
    Dr. Bukoshi knew what would happen when the United States and its 
allies declined to derail Milosevic's anti-Albanian train at Dayton, 
just as Dr. Haris Silajdzic, at that time Bosnia's foreign minister, 
had sat in my office three years earlier and warned me what would 
happen if we didn't stop Milosevic in his country.
    Two years after Dayton, Milosevic turned again to Kosova. For more 
than half a year, the Clinton Administration did little to stop the 
killing of Albanian civilians at the hands of Serbian forces. Soon, 
these forces were purging entire villages. What happened next is, in my 
view, one of the most remarkable climb-downs by the West in the history 
of its dealings with the Belgrade regime: First, President Clinton 
steadfastly refused to repeat the Christmas warnings--an omission that 
surely was not lost on Belgrade. Then, just as support was building for 
a forceful NATO response to Serbia's attacks, it sent Ambassador 
Richard Holbrooke to Belgrade to cut another deal with Milosevic.
    This deal was a lifeline for Milosevic. First, it flew in the face 
of an ultimatum and threat of NATO action. Second, it allowed Milosevic 
to keep approximately 20,000 troops in Kosova. Third, the only means of 
verifying Milosevic's compliance with the agreement and deterring 
further attacks on the ground was the presence of an unarmed pool of 
verifiers, drawn largely from the diplomatic corps and the staff of 
international organizations. Ambassador Holbrooke called these people a 
``civilian army.''
    Why we would give Slobodan Milosevic another chance, knowing what 
we knew by then, defies a logical answer. Milosevic had started two 
wars--in Croatia and Bosnia--against civilian populations, and he was 
in the early stages of a third.
    In any case, the results of he West's illogical decision quickly 
became clear: Milosevic wasted no time in escalating his attacks. Less 
than four months after the Holbrooke agreement, the Administration 
launched a full-court diplomatic press at Rambouillet. The Serbs and 
the Kosova Liberation Army rejected it, but the KLA eventually signed 
on. Serbian forces escalated yet again, and at long last the United 
States and its NATO allies launched a bombing campaign to stop them.
    Much has been written about that campaign--some of it by me. I 
continue to believe that it was a political, rather than a military 
bombing. Just as in Bosnia, it appeared to be calculated merely to 
bring Milosevic to the negotiating table, not to drive his forces from 
Kosova or to bomb him, his military, and his capital into submission. 
There is strong evidence of this in the Administration's refusal to 
change tactics, even after Milosevic's forces began their genocidal 
sweep through the cities, towns, and villages of Kosova. In the end, 
the results were sufficient to persuade Milosevic to accept the West's 
fundamental demands, but they also created housing reconstruction work, 
missing persons tasks, and a Serbian displacement problem that would 
have been far smaller if we had gone to Belgrade from the start and 
shut down the Serbian Army's operational capabilities.
    I had a chance to see some of the results of the bombing and the 
attacks by Serbian forces when I traveled to Kosova in July in my 
capacity as Chairman of the International Commission on Missing 
Persons. I spent a day in Pristina, a day in Peja, and also had a 
chance to fly by helicopter over Kosova's southern, western, and 
central regions. I came away with a mixed assessment. Ethnic Albanian 
residential housing, property, schools, and businesses seem to have 
been badly hit. Three-fifths of Kosova's housing and 45 percent of its 
schools were damaged. Eighty percent of property records have been 
stolen or destroyed. Identity documents and records have suffered a 
similar fate. There can no longer be any doubt as to the nature of 
Milosevic's genocidal campaign: Serbian forces set out to drive the 
Albanians out of Kosova, and eradicate their history and culture.
    There can also no longer be any doubt that Milosevic intended to 
win the war and create a new, Albanian-free Kosova for the Serbs: His 
forces did remarkably little damage to Kosova's infrastructure 
indigenous assets, and natural resources. The multi-billion dollar 
reconstruction projects that many had envisioned will therefore not be 
necessary.
    Of course, this provides little consolation for the many thousands 
of families whose houses and livelihoods were destroyed and who have no 
shelter for the coming winter. The United States and its allies have a 
responsibility to ensure that these vital humanitarian needs are met, 
and are met quickly.
    The plight of the homeless brings me to the more negative part of 
my assessment: In recent weeks, the news has been filled with ominous 
reports of power grabs, town-hall occupations, murderous reprisals, 
black marketeering, extortion, violent intimidation of Albanians and 
Serbs alike, and property confiscation by self-appointed mayors, 
governors, and commissars--many, apparently, with ties to the KLA.
    Part of this happened due to the ``power vacuum'' that was created 
because, after NATO's victory, its ground forces and U.N. officials 
were slow to arrive or act in certain areas. The division of the town 
of Mitrovica is the most glaring example of this. But part of it 
happened because it appears that some of Kosova's would-be leaders are 
not committed to democratic principles.
    Today, the ethnic Albanian leadership remains bitterly divided. As 
for the Serbs, many Serbian civilians have fled. Some have been 
murdered. Of those who remain, it is difficult to imagine that they 
feel safe. No one expected the return of the Albanian people to Kosova 
to be without some pain for all, or without particular difficulties for 
the Serbian civilian population. Bu no one expected this kind of 
behavior, either. There was certainly no precedent for it among the 
Bosnian Muslims, who provide the most recent example in the minds of 
most Americans.
    This kind of behavior should give all of us pause. And it was 
something that I raised when I met--at Secretary of State Madeleine 
Albright's request--with approximately 40 Kosovar Albanians political, 
economic, and civil leaders earlier this month. I told them that, if 
they do not commit firmly and resolutely to full cooperation with NATO 
and the United Nations, as well as to democracy and the rule of law, 
Kosova could lose the support of the West, become another ``black 
hole'' of Europe, and conceivably risk a return to Serbian control.
    I also told them that, if they would make this commitment, I was 
convinced that Kosova would not only enjoy a democratic future, but 
also be able to realize its dreams of independence and economic 
prosperity.
    Ultimately, the responsibility for building a democratic Kosova 
lies with the Kosovar Albanians. But we in the West have a duty to give 
them the tools to do it. It is in our interest to ensure that NAT0 
carries out its full mandate in every corner of Kosova, than the United 
Nations assumes full authority for civic administration, and that 
Kosovar Albanian leaders hew to a democratic course. In short, it would 
be a grave political, economic, and moral tragedy for the United 
States, its allies, NATO, and the people of Kosova if their homeland, 
finally freed from Serbian oppression, now finds itself under the 
brutal thumb of self-serving Abanians.
    Instead, we must seize the opportunity to steer Kosova from its 
current crossroads toward democracy. It will not be easy. All of us who 
have supported freedom and liberty in the Balkans will have to work 
relentlessly and wholeheartedly for the common good of the people of 
Kosova.
    We will also need to lean the lessons of our past failures in 
Kosova: First, early intervention is far less costly, and often just as 
effective, as belated intervention. We could and should have acted 
against Milosevic much earlier. We must have policies set by our 
interests and objectives--in this case, preventing genocide and further 
instability in the Balkans--rather than one triggered by a ``massacre 
threshold.''
    Second, half-measures yield half-results. Our political bombing 
campaign succeeded in driving the Serbian forces from Kosova, but it 
has not solved the Milosevic problem, and, on the issue of independence 
or any other final political status for Kosova, it has merely kicked 
the can down the road. It appears also to have increased the killing in 
Kosova. When we wage war, we must do so to win, and win decisively.
    Third, halting the fighting is not enough to guarantee success. 
Tbis is a lesson that we still have not learned from Bosnia. In Kosova, 
we could have done more earlier to unite the Albanian leadership and 
discourage hardliners. We also could have done more to ensure that the 
United Nations and NATO forces acted quickly to carry out their 
mandates. We can still solve this problem: Having set the chain in 
motion for the Kosovar Albanians to live safely and securely, freed 
from Serbian oppression, we must now help them with the next, equally 
difficult steps, toward democracy and, ultimately, economic prosperity. 
The Emperor Justinian once said, ``Peace should cost as much as war.'' 
Peace should also command as much effort as war. The battle in Kosova 
has only just begun.
    Thank you, Mr. Chairman.
                                 ______
                                 

 Remarks by Senator Bob Dole--Kosovar Albanian Conference--Lansdowne, 
                      Virginia, September 13, 1999

    Thank you, Ambassador Crocker. When Secretary Albright asked me to 
talk with you here, I was immediately reminded of her request that I go 
to Skopje last March to obtain final support for the Rambouillet 
agreement. Last time, I couldn't find Mr. Thaqi, and this time I can't 
find President Rugova! But, seriously, both missions are important. If 
all of you who participated in the talks in France last February had 
not accepted the Rambouillet agreement, Kosova would still be firmly in 
Milosevic's control.
    Today, if all of you at Lansdowne do not commit firmly and 
resolutely to full cooperation with NATO and the United Nations, as 
well as to democracy and the rule of law, Kosova could lose the support 
of the West, become another ``black hole'' of Europe, and conceivably 
risk a return to Serbian control. If you do make this commitment, 
however, I am convinced that Kosova will not only enjoy a democratic 
future, but also be able to realize its dreams of independence and 
economic prosperity.
    I know that independence is not a goal that the U.S. government 
shares with you officially, but, as a private citizen, I do. And I hate 
to see that goal--not to mention any other legitimate Kosovar Albanian 
aspiration--thwarted.
    You know better than any outsider how things currently stand in 
Kosova. But, among the outsiders, I am probably as qualified as anyone 
else to offer a Western perspective on current developments. Based on 
my trip to Pristina, Peja, and other regions in July, and on what I've 
been able to ascertain since then, my assessment is mixed. Albanian 
residential housing, property, schools, and businesses seem to have 
been badly hit. Three-fifths of Kosova's housing and 45 percent of its 
schools were damaged. Eighty percent of property records have been 
stolen or destroyed. Identity documents and records have suffered a 
similar fate. There can no longer be any doubt as to the nature of 
Milosevic's genocidal campaign: Serbian forces set out to drive you out 
of Kosova, and eradicate your history and culture.
    There can also no longer be any doubt that Milosevic intended to 
win the war and create a new, Albanian-free Kosova for the Serbs: His 
forces did remarkably little damage to Kosova's infrastructure, 
indigenous assets, and natural resources. The multi-billion dollar 
reconstruction projects that many had envisioned will not be necessary.
    Of course, this provides little consolation for the many thousands 
of families whose houses and livelihoods were destroyed and who have no 
shelter for the coming winter. The United States and its allies have a 
responsibility to ensure that these vital humanitarian needs are met, 
and are met quickly.
    The plight of the homeless brings me to the more negative part of 
my assessment: In recent weeks, the news has been filled with ominous 
reports of power grabs, town-hall occupations, murderous reprisals, 
black marketeering, extortion, violent intimidation of Albanians and 
Serbs alike, and property confiscation by self-appointed mayors, 
governors, and commissars.
    No one expected the return of your people to your homeland to be 
without some pain for all, or without particular difficulties for the 
Serbian civilian population. But no one expected this kind of behavior, 
either. There was certainly no precedent for it among the Bosnian 
Muslims, who are the most recent example in the minds of most 
Americans.
    What I said to many of you in Pristina a few weeks ago is still 
true today: If this pattern of criminality and brutality continues, it 
will quickly turn the euphoria of the Albanian people into despair. It 
will also cost you the support of those who are now in the best 
position to help you.
    First, NATO: Only the alliance can provide the security necessary 
to build a genuine and sustainable peace. Today, KFOR is serving not 
only as a bulwark against further aggression from Belgrade but also as 
a facilitator of the development of an autonomous, if not independent 
Kosova. In the face of opposition and criminality, however, it could 
become an occupying force that serves no purpose other than to separate 
the parties and prevent a return to all-out warfare.
    Second, donor nations: The European Union, the United States, 
Taiwan, Japan, and other countries have pledged hundreds of millions of 
dollars to rebuild Kosova. Lawlessness, new self-proclaimed 
governments, and other attempts to usurp the authority of NATO and the 
United Nations will alarm these donors, reduce financial assistance, 
and thus hinder economic recovery. In addition, this assistance will be 
given only if donors are certain that their funds and materials will 
not be used to line the pockets of corrupt political leaders.
    Third, the Albanian diaspora: Albanian communities in the United 
States and Europe have provided extraordinary political and financial 
support to Kosova. They gave this aid with the hope that democracy and 
a free market would eventually come to Kosova. Unless Kosova develops 
democratically, that aid will dry up, and these friends--your most 
likely foreign investors--will look elsewhere.
    In short, it would be a grave political, economic, and moral 
tragedy for Kosova to finally be freed from Serbian oppression, only to 
find itself under the brutal thumb of self-serving Albanians. Instead 
we must seize the opportunity to steer Kosova from its current 
crossroads toward democracy.
    Each of you has played a positive role in bringing Kosova to this 
crossroads: the political dissidents in the 1960s 70s, and 80s; the 
academics, doctors, journalists, lawyers, and other professionals who 
founded the LDK and then governed Kosova from underground and in exile 
through the 1990s; the brave KLA men who fought on the battlefield this 
year and last; and everyone else who has served the cause of freedom 
and liberty. Your service, and each stage in Kosova's development was 
necessary to bring your nation to where it now stands. All of you have 
therefore earned the right to play a role in Kosova's future, and all 
of you should be proud. I myself am proud to be associated with your 
cause.
    I hope that, in the critical months ahead, all of you will remain 
true to that cause. It will not be easy. The Emperor Justinian once 
said, ``Peace should cost as much as war.'' Peace should also command 
as much effort as war. You, and all of us in the West who support you, 
will have to work relentlessly and wholeheartedly for the common good 
of the people of Kosova.
    Every political right and civil liberty that Milosevic and his 
proxies denied to you for a decade must be extended to every single one 
of your citizens: Albanian, Serb, and Gypsy. When it benefits that 
common good to forgive, you must forgive. When justice is to be done, 
you must ensure that it is a pure and blind justice, untainted by 
prejudice or revenge. When there is opportunity for great profit, that 
profit must be directed to benefit Kosova, not just individuals. When 
the children of Kosova are educated, they must learn facts, not the 
history of the victor or the revisionist. When the people of Kosova are 
informed, they must know the truth, not propaganda. And when the 
citizens of Kosova are led, they must be guided by men and women who 
have set self-interest aside, and who are dedicated to establishing a 
government of the people, by the people, and for the people of Kosova.
    I say this even though we all know that Kosova is not the United 
States: The last thing you need is a bunch of Americans locking you 
away outside of Washington and telling you about Thomas Jefferson, and 
expecting you to respond as though you were Alexander Hamilton. 
(Particularly when the food is not quite as good as Rambouillet.) You 
cannot build a flourishing democracy overnight.
    But Kosova is not Serbia, either. There is no reason for it to join 
Belgrade at the political, economic, and moral bottom of Europe. There 
is no reason for it to be mired in corruption, cronyism, and 
criminality.
    If, instead, you follow the principles ofjustice and democracy and 
grant the political, economic, and social rights to your people that 
Serbia denied them for so long, you will, brick by brick, build the 
foundations of a civil society. And, in my view, the house that you 
will have erected will turn out to be a secure and freestanding one. 
And, in the eyes of some--and I hope enough--Western governments, you 
will have earned the formal right to nationhood.
    I wish you every success. God bless America, and God bless Kosova.

    Senator Smith. Senator Dole, is it not fair to say that 
when you first went to the former Yugoslavia in 1990, that 
Americans at this end of the decade may not remember the kind 
of feelings that were present when the wall had just fallen and 
all of these Eastern European countries were frankly crying 
out, reaching out to the West, and because we had spent nearly 
50 years fighting the Communist ideology, we felt a duty to be 
there, a duty to be concerned. Is it not fair to say that 
strategic reasons were part of why you went and President Bush 
and others said yes, these do involve our interests?
    Senator Dole. There is no question about it. Like many 
others in the beginning, I had to look to find Kosovo on a map. 
I hadn't thought much about Kosovo before we decided to make 
that trip, and I think my other colleagues in the Senate--
Senators Nichols and Mack, for example, would agree that we 
learned a lot from the trip. Our eyes were open. We saw 
firsthand what was happening, and it did not take a rocket 
scientist or foreign policy expert to figure it out.
    Senator Smith. Is it not true that the genocide on top of 
what we perceived then and still as a strategic interest in the 
United States of NATO, the genocide only magnifies our desire 
to do something or at least our right to do something. Is that 
a fair statement?
    Senator Dole. Well, I think it is. I think some people 
would disagree and believe that we shouldn't act militarily 
beyond our borders. I believe, however, that if you destabilize 
part of the Balkans, you risk greater instability in the region 
and in Europe, and you risk having to involve the United States 
directly in an even greater way later, so I supported the 
conclusion that we had an interest in intervening, as both 
President Bush and President Clinton did. In my view, however, 
after the United States made that determination, it should have 
enacted stronger policies.
    Senator Smith. Do you feel like had we not done something 
in Kosovo, in other words, within view of our troops in Bosnia, 
that Mr. Milosevic could keep us pinned down in Bosnia and 
other places in the Balkans for an indefinite period of time? 
Is that likely?
    Senator Dole. I think that is true. I also think, as we 
have learned in Kosovo, the Kosovar Albanians have great 
respect for America. If American troops had not been a part of 
the peacekeeping force, I think it would have been hard to 
obtain Albanian support for the peace settlement. Once the 
United States agreed to become part of the international force, 
the Kosovar Albanians could deal with their other objections to 
the settlement, including the presence of Russian and French 
troops, who ahve performed questionably from time to time.
    My view is that we have certain responsibilities. Serving 
in this force is one of them, and it should be carried out 
properly.
    Senator Smith. Senator, what do you see going forward? 
Rambouillet was predicated upon autonomy, not independence. 
What ought to be our U.S. policy toward that now on the issue 
of--it affects Macedonia?
    Senator Dole. Right. I know that the administration cannot 
support independence publicly but I believe that Kosova will be 
independent--if the KLA and other Albanian leaders subscribe to 
democratic principles, hold free elections, and move toward 
this economic prosperity.
    Senator Smith. How about Montenegro? These are all issues 
of their self-determination? Should that be our policy?
    Senator Dole. Well, that would be my policy. I do not 
belong to any organized group anymore. I am a Republican.
    Senator Smith. And as a Republican, you share my view that 
it was OK to stand up to Adolf Hitler.
    Senator Dole. Yes. I thought World War II was a fairly 
noble cause.
    Senator Smith. I share that conclusion.
    Senator Dole. I have not read anyone's book so I cannot 
really comment on it.
    Senator Smith. I have not read it either, but I do not like 
what I have read of it.
    Senator Dole. I do not want to buy it.
    Senator Smith. Senator Dole, you have been very generous 
with your time, and your views are as wise as ever. We thank 
you for honoring this committee by participating with us today, 
and we wish you well in your travels to New York.
    Senator Dole. Before I go, I do want to put in a good word 
for Secretary Albright. I know she has had her ups and downs, 
as we all do in this business. But I must say in my dealings as 
chairman of International Commission on Missing Persons, and in 
dealing with some of the KLA figures, I have found her to be 
forthright. She has been very helpful in getting these things 
done because she has a great deal of credibility. Thank you.
    Senator Smith. We thank you, sir.
    It is now our pleasure to welcome our second panel, Mr. 
Daalder and Mr. Kagan. You are invited to come forward.
    Mr. Daalder, we thank you for coming, and invite your 
testimony. We'll start with yours.

  STATEMENT OF IVO H. DAALDER, SENIOR FELLOW AT THE BROOKINGS 
                          INSTITUTION

    Mr. Daalder. Thanks very much for inviting me and thanks 
for holding these hearings which I think are important, if only 
to get the historical record right. And also to learn the 
lessons that can be learned from this case, or perhaps to start 
unlearning some of the lessons we already learned.
    Let me start with my bottom line conclusion. Although NATO 
did in the end succeed in creating the secure environment 
necessary for Albanians to live in safety and security, a 
different strategy prior to the war might have succeeded in 
achieving this result at less cost. In particular, if we take 
it that Milosevic's regime was at fault in Kosovo, as I think 
it was, and if we believe that it was strategically undesirable 
to have an independent Kosovo, for which I think a case could 
arguably be made, then the logic of our position was that we 
should have imposed a solution by force. But we could not do 
that just by bombing. We would have to have done that by the 
use of ground forces, and that probably would have involved 
more, rather than less ground forces and American troops 
playing a significant part. In the year prior to the war and 
even during the war itself, the absence of a willingness to 
deploy ground forces and if necessary to use them in a 
nonpermissive environment made the outcome we had inevitable.
    That said, let's stress that the outcome was indeed a 
success. In fact, one has to start off with an examination of 
this whole history by acknowledging that things did turn out 
well, in fact, much better than many of us, including myself, 
thought was likely with the means that we were using at the 
time.
    For the average Kosovar today, life is much better, and the 
future is more promising than at any time since autonomy was 
stripped away from them a decade ago. Clear evidence of this is 
found in the fact that 750,000 refugees returned within just 1 
month after the end of the war. Today, all Kosovars who wanted 
to come back are back. That is a remarkable testament to the 
success of U.S. and NATO policy, and it stands in marked 
contrast to the fears of all of us just a very few months ago, 
fears of permanent exile of nearly a million people, fears of 
starvation for many hundreds of thousands, and fears of deaths 
and rape affecting many tens and thousands.
    Of course, daily life in Kosovo today is not yet normal. 
There has been a large exodus of Serbs. Some 300 Serbs and 
Albanians have been killed, but however tragic these 
developments are, we ought to put this in perspective. The 
killings after the war occurred at a rate that is still no 
different than the murder rate in many U.S. cities, and while 
many Serbs have left precipitously, some in fact are coming 
back. More importantly, it is wrong morally and otherwise to 
compare this to the systematic forced expulsion of nearly a 
million people from Kosovo. All and all, it is therefore 
impossible to escape the conclusion that the development inside 
Kosovo after the war are powerful evidence of NATO's 
achievement.
    Nevertheless, I would maintain that that accomplishment 
came with a price tag. Ten thousand Albanians have been killed, 
according to the best estimates that we have. Tragedy has 
befallen every single Albanian. They were killed, they were 
raped, and they were forced from their country. Their houses 
were burned, their livelihoods were taken away. It is no 
surprise that hatred and revenge still run deep in the 
territory and that this is a country that is increasingly 
monoethnic in nature. So this raises a question. When violence 
started in March 1998 in Kosovo, would a different policy have 
avoided this high price? My answer is yes, though I hasten to 
add that we cannot possibly know.
    From the outset of the Kosovo conflict, the Clinton 
administration based its policies on three assumptions. First, 
developments in Kosovo were of fundamental interest to the 
United States. Second, at the heart of this conflict was 
Milosevic's nationalistic policies and only pressure on 
Milosevic would likely be effective in achieving solution; and 
third, that the preferred solution to this conflict had to be 
self-government for the Kosovars that fell well short of 
independence. I fully accept the validity of the first of these 
assumptions; namely, that what was happening in Kosovo on both 
moral and strategic grounds was important to the United States. 
However, the second and the third of these assumptions were and 
still are contradictory. Since the solution sought by the 
administration and its European allies was much closer to what 
Mr. Milosevic wanted than what the Kosovars wanted, pressure on 
Belgrade was unlikely to achieve the effect we sought, which 
was self-government but not independence. Indeed, the more 
pressure we placed on Milosevic, the less likely the Albanians 
were to accept anything less than independence.
    So we had a choice between three policy options--in theory, 
at least. One, we could have acquiesced in what Milosevic was 
doing. Second, we could have supported Kosovar's independence 
and supported the KLA. Or, third, we could have imposed a 
solution on the conflict in order to avoid the first option and 
in order to prevent the second option.
    Over time, the Clinton administration and its allies came 
to accept, however reluctantly, that imposing a solution was 
the only way that they could end this conflict, and that indeed 
was what the Rambouillet conference was all about. Yet not only 
did we come to this conclusion very, very late--10 months after 
the conflict had been started and only after half a million had 
been forced from their homes--but we never really prepared for 
what was necessary to impose the solution. To impose a solution 
would have meant putting forces on the ground in Kosovo and 
given the security environment inside Kosovo, it would have 
meant more forces rather than less and a significant American 
presence if not actually an American lead. In the end, the 
Clinton administration came to accept the need for such troops 
only last February, and even then, the administration ruled out 
the deployment in anything but a permissive environment right 
through the end of the war.
    The administration argued then and still argues now that 
there were three reasons why it was reluctant to deploy ground 
forces. First, there was no support in Congress or in the 
country for deploying yet more troops to the Balkans and to the 
extent that that judgment was correct, Congress bears a 
significant part of the responsibility. Indeed, while I 
recognize as Senator Smith said in his opening comments that 
the administration never made a persuasive case for ground 
troops, I wonder whether if it had the reception would have 
been any different up here.
    The second reason for the reluctance to push the issue of 
ground forces was the belief that there would be major fissures 
within the NATO alliance, particularly because countries such 
as Germany, Italy and Greece were not supportive of deploying 
ground forces. I believe, however, that had the American 
administration together with its British allies--which did 
commit to ground forces in a very early stage--led rather than 
waited for a consensus to emerge, a consensus could have been 
found sooner rather than later.
    A third reason why the administration hesitated had to do 
with Russia. The administration has to be applauded and lauded 
for its constant attempt to keep Russia on board as it was 
dealing with the Kosovo issue. In the end, the administration 
decided that bombing was preferable than deferring to Moscow's 
wishes, a decision that I think was right. In the end, I would 
have argued that if we had deployed ground forces, the Russians 
would have remained with us because they had no other place to 
go.
    Let me end here with some lessons. What can we learn from 
these mistakes? From this history? Clearly one is this. Once 
you decide to engage in the conflict, you cannot do so 
halfheartedly. You need clear objectives, a clear and 
achievable strategy to meet those objectives, and the 
determination to succeed. Prior to the war United States and 
allied policies were characterized by muddled objectives, by 
contradictory strategy, and by hope at least that the least of 
its bad options would work in order to avoid the worst. It was 
only late April that incoherence and muddling finally were 
discarded in favor of a clear strategy designed for victory. 
The bombing intensified inflicting real damage on leaders of 
power in Belgrade. Diplomacy accelerated to close off any 
thought that Milosevic might have had that Russia was ready to 
pull his head out of the ring, and NATO planning for ground 
forces intensified in order to convince Milosevic that he had 
no way out even militarily. That finally led to success to the 
United States, for NATO, and above all for the Kosovar who now 
lives in this region. Thank you.
    [The prepared statement of Mr. Daalder follows:]

                  Prepared Statement of Ivo H. Daalder

                  u.s. diplomacy before the kosovo war
    Mr. Chairman and members of the Committee, it is an honor to appear 
here before you today to discuss what lessons we might learn from the 
way the U.S. conducted diplomacy before the Kosovo War. I would also 
like to take this opportunity to commend the Committee for taking a 
look at the Kosovo War and the lessons that have and can be learned--
this is worthwhile enterprise, particularly since many in and outside 
government appear to be learning some wrong lessons.
    Let me start with my bottom-line conclusion. Although NATO did, in 
the end, succeed in creating a secure environment for ethnic Albanians 
inside Kosovo by forcing Serb security forces out and deploying 50,000 
troops inside the territory, a different strategy prior to the war 
might have achieved this result at less cost. In particular, if 
Milosevic's regime was the fundamental cause of the conflict and if 
Kosovo's independence was strategic undesirable as the U.S. and its 
allies rightly argued since the conflict started early last year, then 
the only logical solution to the conflict was one imposed by force. 
That required a willingness to use ground forces--more rather than less 
and with American troops playing a significant part. Absent a 
willingness to deploy and, if necessary, use ground forces, the current 
outcome is probably the bcst we could have achieved.
NATO's Success
    It is important to begin any assessment of U.S. policy toward 
Kosovo by acknowledging that, in the end, turned out well--to a degree 
that many, including myself, doubted would ever occur with the means 
that had been chosen to achieve it. For the average Kosovar, life today 
is better and the future more promising than at any time since Belgrade 
stripped Kosovo's autonomy away a decade ago. Clear evidence for this 
can be found in the fact that within one month of NATO forces entering 
Kosovo, 750,000 refugees had returned to the territory. Today, all 
Kosovar Albanians who wanted to return have come home. That is a 
remarkable testament to the success of U.S. and NATO policy. It stands 
in marked contrast to the fears all of us had just a very few months 
ago--fears of permanent exile for nearly a million people, of 
starvation and death through exposure to a brutal winter for many 
hundreds of thousands, and of many tens of thousands of victims of rape 
and murder.
    Of course, daily life in Kosovo is not yet normal. As expected, 
there has been a large exodus of Serbs, and in the chaos and confusion 
that accompanied the end of the war some 300 Serbs and Albanians have 
been killed. Though tragic, it is important to put these developments 
in perspective. The killings after the war occurred at a rate that is 
still differs well below the murder rate in many U.S. cities. And while 
many Serbs left precipitously in fear of returning Albanians, this 
should not be compared to the systematic and forced expulsion of the 
Albanian population prior to and during the war. All in all, it is 
impossible to escape the conclusion that developments inside Kosovo 
after the war are powerful evidence of NATO's achievement.
    Nevertheless, this accomplishment came with a significant price-
tag. According to best estimates, 10,000 Albanians were systematically 
killed by Serb forces. Tragedy befell nearly every ethnic Albanian 
inside Kosovo--some were killed, more were wounded, raped, and 
mutilated, and almost all were hounded from their homes and their 
country. It is not surprising that in today's Kosovo, hatred and 
revenge still run deep and that the territory is increasingly 
monoethnic in its makeup.
A Different Policy?
    This raises an important question: When violence started in March 
1998 would a different policy have avoided this high price? I believe 
the answer is ``yes,'' although I hasten to add that we will of course 
never know.
    From the outset of the Kosovo conflict, the Clinton Administration 
based its policy on three assumptions.

  <bullet> First, developments in Kosovo were of important interest to 
        the United States and its European allies not only because of a 
        general and commendable concern with human and minority rights 
        in this part of the world but also because a violent flare-up 
        there could prove unsettling for the Bosnian peace achieved in 
        Dayton and stability within southeast Europe as a whole.
  <bullet> Second, at the heart of the conflict was Milosevic's 
        nationalistic policies and only pressure on Belgrade would 
        succeed in effecting a solution to the conflict.
  <bullet> Third, the preferred solution to the conflict involved 
        increased self-government for the Kosovar Albanians that would 
        fall short of the territory's independence, let alone its 
        partition.

    Of these three assumptions. I fully accept the validity of the 
first--on both moral and strategic grounds, developments in Kosovo were 
and remain of interest to the United States. However, the second and 
third assumptions were (and still are) contradictory, the more so as 
pressure moved from diplomacy and considerations of economic sanctions 
to considering the threat and actual use of force. Since the solution 
sought by the administration and its European allies was closer to 
Milosevic's position than to that of the Kosovars, pressure on Belgrade 
was unlikely to end in an agreement acceptable to both sides. Indeed, 
the more we pressed Milosevic, the less likely the Albanians were to 
accept anything less than independence.
U.S. Policy Options
    From the outset of the conflict, there were three basic options: we 
could have acquiesced in what Milosevic was doing, supported Kosovo's 
independence and assisted the KLA, or we could have imposed a solution 
in order to prevent both the inevitable violence caused by the first 
option and the destabilizing outcome of the second.
    Over time, the Clinton Administration and its allies in Europe 
reluctantly came to accept that only the third of these options was 
acceptable. That, indeed, was what Rambouillet was supposed to be 
about. Yet, not only did we come to this conclusion very late--ten 
months into the conflict and only after nearly half a million people 
had been forced from their homes--but we were never really prepared to 
do what was necessary to impose a solution. That meant putting troops 
on the ground in Kosovo. And given the security environment inside 
Kosovo, it would have required more rather than less troops and a 
significant American presence, if not actually a U.S. lead. In the end, 
the Clinton Administration came to accept the need for some troops only 
last February. Even then the administration ruled out their deployment 
in anything but a permissive environment right through the end of the 
war.
    Administration officials contend that there were three reasons for 
their reluctance to deploy ground forces in Kosovo. First, there was no 
support in Congress or the country for deploying yet more troops to the 
Balkans. To the extent that judgment was correct, Congress bears a 
significant part of the responsibility. While I recognize that the 
administration never made its case, I wonder whether the reception up 
here would have been any different if it had.
    Second, the prospect of ground forces would have created major 
fissures within the NATO alliance and posed particular problems for key 
allies like Germany and Italy, both of which were facing a transition 
in government. In contrast, Britain had concluded as far back as August 
1998 that ground forces were needed in Kosovo. But American hesitation 
was hardly the way to garner an allied consensus, however difficult 
that task would have been.
    Third, Russia had opposed the use of force under any circumstances 
and would have gone completely off the reservation if U.S. and NATO 
troops entered Yugoslavia without Belgrade's consent. Indeed, the 
administration had worked assiduously to keep Moscow on board, and a 
ground force decision would inevitably have led to further strains in 
the relationship. But as subsequent events were to show, what was 
Russia going to do? In the end, Moscow had no option but to work hard 
to convince Milosevic to accept NATO's basic terms.
Lessons
    If there is a lesson to be learned from this history, it is this: 
once you decide to engage in a conflict, you cannot do so half-
heartedly. You need clear objectives, a clear and achievable strategy 
to meet these objectives, and the determination to succeed. Prior to 
the war, U.S. and allied policies was characterized by muddled 
objectives in favoring neither independence nor the maintenance of the 
status quo for Kosovo; by a contradictory strategy that consisted of 
inconsequential sticks that were insufficient to persuade Belgrade but 
sufficient to give the Kosovars hope for eventual success; and by a 
hope that the least bad option would succeed rather than a 
determination that the worst would not occur.
    In late April, incoherence and muddling through were discarded in 
favor of a clear strategy designed for victory. The bombing 
intensified, inflicting real damage on key levers of Milosevic's power, 
diplomacy accelerated to close off any thought Milosevic might have 
that there was still a diplomatic escape, and NATO planning for a 
ground invasion was stepped up to make sure Milosevic had no hope of 
escaping military defeat. That, finally, led to success--for the United 
States, for NATO, for stability in the region, and, above all, for the 
average Kosovar who could now return home in safety.

    Senator Smith. Thank you very much.
    We are joined by Senator Biden.
    Senator Biden. I apologize for being late. I chair a 
subcommittee in the Judiciary Committee on Juvenile Justice, 
and there was a group of witnesses I had invited. So that is 
why I was late.
    Senator Smith. Thank you, Senator.

STATEMENT OF ROBERT KAGAN, SENIOR ASSOCIATE, CARNEGIE ENDOWMENT 
   FOR INTERNATIONAL PEACE, DIRECTOR, U.S. LEADERSHIP PROJECT

    Mr. Kagan. Thank you, Mr. Chairman. I also appreciate the 
opportunity to come up and speak to you. And I also want to 
congratulate the committee and the Chairman for holding these 
hearings.
    There have--out in the press over the past weeks and 
months--been after-action reports about the way the war was 
waged and what was ultimately successful in bringing Slobodan 
Milosevic to heel, but, as always, there has been far less 
attention paid before the war and discussion of whether this 
war could in fact have been avoided or at least fought at lower 
cost. This is generally true, I think. We do focus a great deal 
more attention on how we wage war and far less attention on how 
war can be deterred. I think that is a general truism about 
American foreign policy. And therefore, I think it is very 
important that we engage in this kind of discussion, because I 
believe I am quite confident in fact that the main task of 
United States foreign policy over the coming decades is going 
to be to deter conflict.
    And frankly, it does not matter whether we are determining 
humanitarian catastrophe or war for what people might consider 
to be more vital strategic interests. The concepts of 
deterrence are going to be roughly the same, and I do believe 
in the next decade even we will be increasingly consumed in 
deterring conflicts in the Taiwan Strait, on the Korean 
peninsula, in South Asia and in the Persian Gulf, areas where 
we would not have time to have a debate over the purposes of 
humanitarian intervention.
    Unfortunately, our track record in recent years does not 
give optimism, reason for optimism that we are going to be 
successful in deterring conflicts. The story of the 1990's is 
mostly one of failures of deterrence. I want to emphasize this 
is not something unique to the Clinton administration. The 
Persian Gulf war, which we all correctly remember as a great 
victory, was nevertheless preceded by a failure of deterrence. 
We watched as Saddam Hussein masked forces on the border. 
Intelligence forces said he was not going to attack. We hoped 
to persuade him not to attack Kuwait, and ultimately deterrence 
failed, and that is why we had to fight a war in the Persian 
Gulf. Similarly, the Balkans under the Bush administration, so 
this is decidedly not a partisan issue. It is an endemic policy 
in American foreign policy.
    In that respect, I think that as we look at the history of 
the Kosovo conflict, we need not for partisan purposes, but for 
serious purposes in history, but also to lessons for the future 
to take a hard look at what could have been done differently 
that could have been prevented the horrors that we all had to 
witness just this past thing. I will quickly state some of the 
lessons I think we learned. I am hesitant to do so because 
whenever you draw out the general lessons of any conflict, you 
are in danger of saying something that is almost immediately 
provable to be wrong, but I will do so nevertheless. I can 
think of at least four lessons that we ought to have learned in 
Kosovo.
    One is the need to identify an important interest before it 
is under attack. Two is the need to put together a prepared and 
implementable military plan that can succeed if diplomacy 
fails, and I want to emphasize this does not mean a military 
plan that is merely an adjunct to diplomacy. We need to be able 
to use or credibly threaten military force in the early stages 
of a crisis before a potential adversary has completed 
preparations for the attack that they intend to carry out. And 
fourth, and in some ways for our purposes most importantly, we 
need to prepare the American people and American allies for the 
possibility of war before the need for war becomes obvious to 
viewers of CNN. This inevitably requires the expenditure of the 
President's political capital for it means he will be by 
definition well out in front of the popular consensus and will 
not necessarily find support in the polls or in Congress for 
his proposed course of action.
    It seems to me the Clinton administration failed on at 
least three of these tests or failed to abide these lessons. 
They recognized, I think, or at least many of them did that a 
serious interest was at stake in Kosovo, although there was 
some disagreement about the level of interest that was at 
stake, but then the President and his advisors did not prepare 
to implement the determination to carry out a plan if diplomacy 
failed. Diplomacy did fail. The administration did not use or 
credibly threaten military action in the early stages of the 
crisis before President Milosevic had en massed his forces 
capable of carrying out his offenses against the Albanians 
beginning in March. The President did not begin to prepare the 
Nation for war until war was imminent. He was unwilling to 
expend political capital for war before war became obvious.
    I'll try to be brief. Ivo has covered this in a broad 
sense. I want to focus on the issues of surrounding of the deal 
that was struck by Ambassador Holbrooke in October. I want to 
emphasize that this is not a matter of blaming Ambassador 
Holbrooke for that deal. This was forces that were beyond 
Ambassador Holbrooke's control, but nevertheless, I think it is 
worth focusing on it. I think it was very much on that basis 
that Ambassador Holbrooke went to Belgrade to negotiate an 
agreement with President Milosevic.
    I want to emphasize, however, that there were two, it seems 
to me, serious flaws in the way that negotiation went about. It 
seems to me that that was the time--and this is very easy to 
say in historical retrospect, a lot easier to say at the time, 
but that is what we are engaged in. We are engaged in 
retrospective so that we can learn for the future.
    It seems to me in October was the time to deliver the final 
ultimatum to Milosevic to remove his forces from Kosovo and to 
accept an autonomy agreement, negotiated autonomy agreement, 
with the Kosovar Albanians. At that time, although we had 
substantial forces in Kosovo, it seems to me fairly clear from 
looking at subsequent events that he did not yet have the 
forces in place to carry out the full extent of Operation 
Horseshoe, which he later carried out beginning in March.
    Between the October deal and the March offensive, I think 
he added in the order of 20,000 additional troops and 
significantly greater tanks and hardware to carry out that 
offensive, and therefore, it seems to me as we now know in 
retrospect that that was a moment when in fact the 
administration's preferred strategy of a limited air campaign 
to force compliance with those two key terms, the withdrawal of 
all forces and the settlement of an autonomy agreement, that is 
the time in fact when an air campaign alone might have worked 
because he was not yet in the position to carry out the 
offensive that he later carried out in March. Unfortunately----
    Senator Smith. I am just really--you are making such an 
excellent point.
    Mr. Kagan. But I'm going too long.
    Senator Smith. No, no, I want you to go longer, but what I 
want to ask you is while this was going on and we could have 
and I believe should have been doing that, Joe and I were just 
saying it is funny how an impeachment trial gets in the way. 
Can you speak to your comment with that overlay, because I 
mean, every time the President did anything, it was sort of an 
accusation wagging the dog.
    Mr. Kagan. No. And in fact, there were two things going on 
at the time, one was impeachment and one was Iraq because we 
were also in a confrontation with Iraq in which the 
administration was threatening to use--to go bombing. You know, 
at a certain point, foreign policy theory falls down and you 
are dealing with real people, and I would say the impeachment 
trial was clearly on people's minds, and so was the fact that, 
well, how many places were we going to bomb at the same time.
    Senator Smith. Do you think Milosevic was taking advantage 
of the President's domestic situation in the way he was 
responding to what had been worked out in October?
    Mr. Kagan. Well, I think he was taking advantage of what he 
perceived as the entire situation both in the United States and 
in NATO as reflected in the way the United States advanced 
toward him in negotiations. I think it was clear to him that 
there was reluctance in allied capitals and in Washington to 
use force. I do not want to try to climb into his mind and ask 
whether he had impeachment specifically on the brain at that 
time.
    Senator Smith. I am just saying I think your points are 
well taken. It just is so important to have it in context of 
everything that was going on.
    Mr. Kagan. I agree.
    Senator Smith. I think Joe has a point about that. Then we 
want you to keep going.
    Senator Biden. I think here, as the kids say, you are right 
on. Keep in mind from the context of when we start questioning, 
you are talking to two of the four people here--and I mean four 
people, I do not mean 14, I do not mean 24, I do not mean 44. 
Four. And you are talking to one, the one person who said in 
June we should go to the European capitals and just say we are 
going in. OK? So, I agree with you, and I have the scars to 
prove it. And I was as close as I could ever say--I have never 
said this before in my 27 years. I was as close to inside a 
President's head on this as I have ever been in my entire 
career. I mean two, three, four times a week.
    And I, at some point, when we get into questioning, I want 
us to really review the context as well because the underlying 
assumption you are making is that the military plan failed. You 
said we have a plan that worked. Bombing did not work. It seems 
to me bombing worked and even though Mr. Thaqi tells me as I 
met with him for several hours how he did anything--that is a 
bunch of crap. The incremental impact of the KLA on this 
process was just that, incremental. No evidence, none. You may 
be talking about 1,500 fighters, not 10,000. Mr. Thaqi asked 
me, he said, you are 29, like I am, when you took office. Do 
you have any advice? I said, well, if you are asking, I am 
happy to tell you, although very different circumstances. He 
said, what is your advice? I said No. 1, do not take yourself 
so seriously and, No. 2, understand that I know that you know 
you do not control the KLA.
    There is no KLA like we talked about here. We are talking 
somewhere between 500 and 2,000 people. And so it seems to me 
the underlying assumption that both of you are saying is that 
if we just had a military plan that worked. It may have been 
one that worked better. I happen to think--John McCain and I 
tried to get ground forces in, OK. Maybe I think it would have 
worked better and quicker, but this seemed to have. How do you 
deal with this issue of what worked? I mean is what ended up--
did it work?
    Mr. Kagan. I am not addressing that particular question 
because my view is that this was a great success ultimately. I 
am only addressing the question of whether the success had to 
come at the cost it did. I have not allowed myself for the 
purposes of this hearing to get to the end of the war. I am 
supposed to go up to the beginning of the war.
    Senator Biden. OK, fine. I'm sorry. I thought you had said, 
and this is what confused me, because I agree with everything 
you said thus far, but I thought when I took notes that you 
said that if we could have had a military plan that worked is 
one of the lessons to learn, and I thought the implication of 
that was you concluded that what we did do did not work. That's 
the only reason that I----
    Mr. Kagan. Not only do I not feel that, but I have my own 
self in print to prove that I thought it worked at the time. 
Actually, I wanted to make a different but related point.
    The point I wanted to make is that the military plan that 
the administration had seized on, which was a limited air 
campaign to force Milosevic to back down, which was the 
military plan that they embarked on in March when the campaign 
began, when the campaign started, and which had to be adjusted 
along the way because that limited air campaign proved clearly 
insufficient, did not solve the problem of the offensive 
against the Kosovar Albanians and by itself if it had not been 
significantly ratcheted up over the course of that war, could 
not have, I think, brought Milosevic to heel.
    But what I want to say is that if you look back to October, 
that plan might have worked, and the problem that we faced 
occurred between the October agreement and the initiation of 
hostilities in March because the bottom line is Milosevic 
changed the equation. When he amassed the forces that he did, 
not only violating the agreement by not reducing the forces in 
Kosovo as Holbrooke had negotiated, but in addition to that 
augmenting the forces in Kosovo and conducting a major buildup 
across the border in Serbia for preparation for Operation 
Horseshoe, that fundamentally changed the situation, and the 
limited air campaign that the administration had in mind back 
in October and which might have worked in October, Milosevic 
had defeated that strategy.
    Senator Biden. I'm sorry, I misunderstood you.
    Mr. Kagan. Milosevic had defeated that strategy already. 
And when people said why did not the administration know that 
he was going to do this, why did they start with this limited 
air campaign, I just think it is important to get in the head 
of policymakers.
    I think to a very large extent the Clinton administration 
still had its head back in October. They were still thinking of 
a time when limited air strikes might have indeed put him in a 
position where he had to back down. Unfortunately, he had 
changed circumstances by building up that force. He had 
defeated their strategy, and at that point a limited air 
campaign was no longer going to be successful. The adjustment 
just was not quick enough. That is my basic view of the 
military campaign.
    All of which--again, I do not want to overstay my welcome, 
but all of which leads me to conclude it is a classic instance 
of a failure to act early enough at a time when your opponent 
is not really ready to confront you. You can possibly succeed 
at a lower level of military conflict, but the challenge then 
is how do you get your Nation, your Congress, and your allies 
to do what is a relatively large thing, conduct an aerial 
campaign against another nation before the need to do so has 
become absolutely necessary, before there was slaughter going 
on? How do you get what is a fairly high-level action in 
response to what still appears to be a relatively low-level 
threat?
    This challenge is going to confront the United States again 
and again and again over the coming decades. As I said, it is 
going to confront us in Taiwan, it is going to confront us in 
the Korean peninsula. It is the need to get out in front of 
events, but in the United States and democracy, that means 
pulling everybody along with you, and the only thing I just 
want to support what Ivo said and what Senator Dole said, this 
was not a problem that was unique to the Clinton administration 
by any means. I wish I could say that Members of Congress had a 
cleaner insight, present few excepted. I wish that Congress 
itself had been willing to push in that direction rather than 
be something the administration was afraid to go to to take the 
necessary measures. And I just hope as we move to the 
inevitable next crisis, that we will learn these particular 
lessons of Kosovo.
    [The prepared statement of Mr. Kagan follows:]

                   Prepared Statement of Robert Kagan

            the lessons of kosovo: the failure of deterrence
    There have in recent weeks and months been numerous after-action 
reports on how the war in Kosovo was conducted. There has been much 
discussion of whether the air campaign was successful, whether it was 
waged correctly from the beginning, and whether planning for a ground 
war was the decisive factor in Milosevic's eventual capitulation.
    But there has been almost no discussion of whether the war itself 
could have been avoided or whether the objectives could have been 
achieved with less force and, above all, without the frightful toll in 
human life that occurred when Serbia launched its offensive against the 
Kosovo Albanian population.
    I want to congratulate this committee for focusing today on this 
latter question. Much attention is paid to how we wage war. Far too 
little attention is paid to the question of how to deter it.
    There is perhaps no more important topic for the American foreign 
policy community, for the Congress and for future administrations. And 
let us be clear. The question is not merely how to prevent humanitarian 
disasters like those which occurred in Kosovo, in Rwanda a few years 
ago, and in East Timor most recently. As was true in the case of 
Kosovo, there often are more than humanitarian issues at stake in such 
crises. In the future, too, interests and morality will often 
intersect, and the United States and its allies will have to act both 
to save innocent victims from slaughter and to defend vital interests 
in important regions of the world.
    The main task of the United States in the coming decades is going 
to be to deter conflict, and the requirements of deterrence are pretty 
much the same regardless of whether the goal is the prevention of a 
humanitarian catastrophe or the defense of vital national interests. In 
recent years we have focused on deterring conflict in the Balkans. Over 
the next decade, I predict we will be increasingly consumed with 
deterring conflict across the Taiwan Strait, on the Korean peninsula, 
in South Asia, and in the Persian Gulf, areas of unmistakably vital 
strategic significance to the United States.
    Unfortunately, our track record in recent years does not give 
reason for optimism that we will be successful. The story of the 1990s 
is mostly one of failures of deterrence. Nor is the Clinton 
administration alone culpable in this respect. The Persian Gulf War, 
which we all remember, correctly, as a great victory, was nevertheless 
preceded by a failure of deterrence. And this failure was similar in 
many respects to the Clinton administration's failure in Kosovo. Thus 
American officials misread Saddam's intentions, believed they could 
deter his aggression by blandishments more effectively than by threats, 
and even when he massed troops on the border of Kuwait in the summer of 
1990 failed to predict his invasion of Kuwait and failed to take 
effective steps to deter it. In the Balkans, meanwhile, the failure to 
deter Milosevic began with the Bush administration and continued 
through the Clinton years.
    We must do a better job deterring conflicts in the future, when the 
stakes are likely to be even higher than they have been this past 
decade. And to deter these conflicts, we will have to learn the lessons 
of Kosovo.
    What are those lessons? I can think of at least four, though there 
are no doubt many others.

  <bullet> The need to identify an important interest before it is 
        under attack.
  <bullet> The need to put together and prepare to implement a military 
        plan that can succeed if diplomacy fails. This does not mean a 
        military plan that is merely an adjunct to diplomacy.
  <bullet> The need to use or credibly threaten military force in the 
        early stages of a crisis, before a potential adversary has 
        completed preparations for attack.
  <bullet> The need to prepare the American people, and American 
        allies, for the possibility of war before the need for war 
        becomes obvious to viewers of CNN. This inevitably requires the 
        expenditure of the President's political capital, for it means 
        he will by definition be well out in front of the popular 
        consensus and will not necessarily find support in the polls or 
        in Congress for his proposed course of action.

    In the case of Kosovo, the Clinton administration failed on three 
of four of these points. Senior officials understood that an interest 
was at stake in Kosovo, though there was disagreement about the 
relative importance of the interest. But then the President and his 
advisers did not prepare to implement and determine to carry out a 
military plan that could succeed if diplomacy failed. Partly as a 
result of this lack of planning and determination, diplomacy did fail. 
The administration then did not use or credibly threaten military 
action in the early stages of the crisis, before President Milosevic 
had amassed forces capable of carrying out his offensive against the 
Kosovar Albanians. And finally the President did not begin to prepare 
the nation for war until war was imminent. He was unwilling to expend 
political capital marshalling support for a war before the need for war 
became obvious.
    Instead, the administration was driven chiefly by the desire to 
avoid going to war. Unfortunately, as is so often the case, this had 
the perverse effect of making the war inevitable.
    One can trace this failure from at least the beginning of 1998. But 
I would like to focus specifically on the moment when I believe the 
most critical errors were made and when the awful conflict in Kosovo 
became just about inevitable.
    We all recall the brewing crisis of late summer and early fall of 
1998. Serb forces in Kosovo were carrying out another offensive, 
leading to the massive dislocation of the Kosovo Albanian population. 
American and allied officials faced the prospect that this displaced 
population might starve or freeze in the winter months. The crisis came 
to a head in October, when the administration sent Richard Holbrooke to 
Belgrade. This was the moment to achieve a resolution to the crisis, to 
force Milosevic to withdraw all his forces from Kosovo and accept 
political autonomy for Kosovo. This was not a time for a negotiation 
but for an ultimatum: either Milosevic would comply fully with NATO's 
demands or the air campaign against him and his forces would begin.
    I believe that if the United States and its allies had carried out 
an air campaign in October, and been prepared to use ground forces, as 
well, Milosevic might well have backed down after a few days--just as 
administration officials hoped he would later at the end of March 1999. 
In October 1998 Milosevic did not have the forces in place to carry out 
what later came to be known as Operation Horseshoe. Had he attempted in 
the early stages of an air campaign to bring those forces into Kosovo, 
they would have been easy targets for allied bombers. The situation in 
Kosovo would have been even more difficult for Serb forces had the 
United States at that time begun to arm the KLA, as some in Congress 
recommended. If Milosevic had rejected the ultimatum, his smaller 
forces in Kosovo would have been cut off and subject to attack both by 
NATO aircraft and by the KLA. He might have launched an offensive 
against the Kosovo Albanian population anyway, but the amount of 
destruction he could have wreaked would have been much less and the 
duration of the offensive much shorter than it later proved to be. His 
ability to present the United States and its allies with a fait 
accompli in Kosovo--which was his main objective in Operation 
Horseshoe--would have been highly questionable in October 1998. And 
that fact alone might have convinced him that a settlement was 
preferable to war.
    Unfortunately, for a variety of reasons with which we are all 
familiar, President Clinton was not ready for a war over Kosovo in 
October 1998. The NATO allies, with the exception of Great Britain, 
were also not ready for war. Ambassador Holbrooke's negotiation with 
Milosevic reflected this basic reality, and so did the deal which 
emerged. Instead of forcing Serb forces out of Kosovo, the deal 
Holbrooke negotiated permitted up to 20,000 Serb military and police 
forces to remain. These forces, later augmented by an approximately 
20,000 more heavily armed troops, would commit the atrocities of ethnic 
cleansing against the Kosovo Albanian population.
    In addition, because there was no will among the NATO allies, 
except, again, Great Britain, to deploy ground forces to police the 
October settlement, Holbrooke agreed to the deployment of 2,000 unarmed 
OSCE monitors--what Holbrooke regrettably referred to as a ``civilian 
army.'' These monitors would later uncover the atrocity at Racak, but 
were powerless to enforce any agreement and, in the end, proved to be 
obstacles to the start of any air campaign. As many predicted at the 
time of the Holbrooke-Milosevic agreement, the monitors quickly became 
``hostages.''
    There were other flaws in the October 1998 agreement, but these two 
were by far the most significant. The agreement left Milosevic with 
forces in Kosovo to carry out an offensive, and no NATO forces to 
compel his compliance with the other terms of the agreement.
    From the moment the agreement was signed, therefore, Milosevic 
began to violate it. He continued to carry out attacks on Kosovo 
Albanians. More importantly, rather than reducing his forces in Kosovo 
even to the generous levels permitted by the October agreement, 
Milosevic began to augment his forces on both sides of the Serb-Kosovo 
border. By March 1998, General Wes Clark reported that there were 
between 14,000 and 16,000 heavily armed Serbian policemen in Kosovo 
along with between 17,000 and 20,000 Yugoslav Army troops. Another 
5,000 to 10,000 were positioned just across the border, armed with 
hundreds of tanks, armored vehicles and artillery pieces. This was the 
full force Milosevic and his military commanders believed necessary to 
carry out Operation Horseshoe--the complete ethnic cleansing of Kosovo 
Albanians.
    There has been much discussion about how the Clinton administration 
could have so miscalculated the effect of their bombing campaign in 
March 1998. Why did officials believe that a brief air campaign would 
force Milosevic to back down? I believe the answer may lie in the 
administration's failure to alter its calculations in light of the 
enormous buildup of Serb troops in and around Kosovo between October 
and March. In October, as I have suggested, Milosevic might well have 
backed down in the face of a brief, punishing air attack. His options 
at that time were limited and not attractive. By March, however, 
Milosevic had fundamentally changed the military equation. Now his 
answer to a brief air campaign was a rapid destruction of the Kosovo 
Albanian population. Convinced that the U.S. and NATO would never send 
in ground troops to save Kosovo Albanians, Milosevic believed he could 
weather an air attack and present the world with a fait accompli in 
Kosovo. (Saddam Hussein had made almost exactly this calculation in 
1990.)
    What U.S. officials did not realize was that between October 1998 
and March 1999, Milosevic had figured out a way to defeat their 
strategy. The administration's strategy was to use an air campaign to 
force Milosevic to accept a resolution of the Kosovo crisis. In 
October, when Serb forces in Kosovo were smaller than Milosevic 
obviously believed were necessary to carry out Operation Horseshoe, 
this strategy might have succeeded. But by March, Milosevic believed he 
had acquired the capacity to settle the Kosovo problem on his own 
terms, regardless of whether NATO carried out an air attack.
    Unfortunately, administration officials and NATO military planners 
when they initiated the air campaign in March 1999 were still operating 
based on the assumptions of October. This was clear in the early days 
of the campaign, when the plans for the air campaign still emphasized 
``signaling'' and gradual escalation and contained no answer to the 
huge offensive which Serb forces had launched against the Kosovo 
Albanian population. It would be weeks before the air campaign 
adjusted, and weeks more before the U.S. and NATO came to the 
realization that it might be necessary to commit ground forces in 
Kosovo. When word reached Milosevic that NATO was preparing for the 
introduction of ground forces, he capitulated. For only then did he 
believe that the U.S. and NATO had come up with a way of defeating his 
strategy.
    The errors of the Clinton administration in October and in the 
months that followed had the most tragic consequences. Had the United 
States employed force in October to enforce an ultimatum to Milosevic, 
the full extent of the catastrophe of the spring of 1999 might well 
have been avoided. Had the United States responded to Milosevic's 
gradual buildup of Serb forces after October, it could have blunted and 
perhaps prevented the later offensive. It is possible in both instances 
that air power alone would have succeeded, though it would have been a 
mistake then as it was later to rule out the use of ground troops. It 
is an old cliche that if you want to preserve peace you must prepare 
for war. Unfortunately, old and hackneyed though that wisdom may be, it 
was not followed by the Clinton administration in Kosovo.
    I wish I could say that the Clinton administration was unique in 
this respect. But it is not. Many Members of Congress were no better 
than the Clinton administration in recognizing what had to be done to 
prevent catastrophe in Kosovo. Many, in fact, were considerably worse. 
Had Clinton done what was necessary in October, I wonder whether he 
would have had the full support of Congress. Even in March and April 
1999, many Members of Congress voted against the air campaign, voted 
against the deployment of peacekeeping troops in Kosovo, and generally 
opposed NATO efforts to defeat Milosevic. Few had the wisdom or the 
political courage to insist that the U.S. employ all necessary means to 
achieve victory.
    When the next crisis comes, when the moment next arrives when the 
United States will have to deter an aggressor, and to do so in time 
actually to prevent the aggression, I hope we will all do a lot better. 
I am absolutely confident that we will be tested again. I wish I were 
more confident that we will pass the test.

    Senator Smith. Thank you both, gentlemen. We'll go 7 
minutes a round on questions. I wonder if either of you would 
agree with me that what we have in Kosovo right now is a 
success, not yet a victory? At least that is my reading of it. 
We have been successful, at least in a limited objective, of 
getting Mr. Milosevic to withdraw from Kosovo. But I am 
wondering what either of you think our policy should be now 
going forward toward Kosovo? I agree with your evaluation of 
mistakes we made and frankly, correct decisions we did also 
make in the past, but what should our policy be toward Kosovo 
and Mr. Milosevic?
    Mr. Kagan. I'll answer the Milosevic question then you can 
answer the Kosovo question.
    Mr. Daalder. Thanks.
    Mr. Kagan. On Milosevic, I do not think--even though the 
war was a success, I do not think we will fairly be able to 
call it a victory, and the name is unimportant. The question is 
whether it is a lasting success or not. I do not think we will 
be able to call it a lasting success as long as Milosevic is 
empowering Belgrade. And, therefore, it seems to me that moving 
beyond Kosovo means moving toward Milosevic's ouster.
    Senator Smith. Are we elevating him as being too important 
to this or are the feelings shared that Mr. Milosevic sort of 
embodied, are those shared very broadly in Serbia?
    Mr. Kagan. I have to say you can never be sure, but I am 
willing to take my chances. I think that Milosevic like some 
other world leaders, and in his context, lesser than many of 
these world leaders who have caused us so much trouble in the 
past has unique abilities. He has some unique abilities to 
inflame nationalism and draw it into a force for power for 
himself, and he is a riverboat gambler and he has played it 
very well.
    I do not want to try to cure Serb nationalism. I do not 
think we can cure Serb nationalism. Just as I think it was a 
mistake to leave Saddam Hussein in power at the end of the gulf 
war, I would have been willing to see what came after Saddam, I 
would be willing to bank. I would be willing to take the risk.
    Senator Smith. We never, whether in the gulf war or in this 
war, that has never been one of our objectives. An allied 
stated mission beforehand is always short of that. And I have 
always, at least from my view, I think that ought to be one of 
the objectives is it is a political removal as well, but 
whatever. Do you think that our policy toward Serbia now is 
going to work? What is your evaluation? Is he weaker today than 
before, or is he----
    Mr. Kagan. Now I am really going to say I do not have 
enough knowledge to know. I read the papers 1 day and the 
headline says Milosevic is getting more powerful. I read the 
papers the next day it says, no, looks like the opposition is 
rallying again. I do not know what the answer is. I think I 
would defer to Ivo on that matter.
    Mr. Daalder. Just before you--let me answer your previous 
question because I sort of half agree with Bob and half 
disagree. I think it would be wonderful to get rid of Mr. 
Milosevic, but I have very little confidence that that will 
solve our problem. I do think that this is something that goes 
deeper than just Mr. Milosevic and his inability to manipulate 
Serb nationalism.
    I was disturbed by a wonderful New York Times magazine 
piece that Blaine Harden did about a month ago called ``The 
Milosevic Generation'' in which he had two pertinent facts. One 
is that the way to get ahead in Milosevic's Serbia today for 
young people is either to leave the country, so that of the 
600,000 people in Serbia who have a post-high school education, 
only 100,000 remain. It is an astonishing figure.
    Senator Smith. That's 100,000 out of how many?
    Mr. Daalder. Out of 600,000 with a post-high school 
education, only 100,000 remain, and they are mostly elderly. 
The young are all leaving. They are here studying and they are 
staying here or in Europe. They are not coming back.
    Senator Smith. Those that are staying are----
    Mr. Daalder. Those that are staying are finding their new 
careers in prostitution and crime. That is the Milosevic 
generation. This is a bleak picture that the removal of this 
one man is not going to resolve in and of itself.
    Senator Smith. So the demonstrations against him and the 
tens of thousands of people.
    Mr. Daalder. Let us put these demonstrations in context. 
Let us say you have in 1 day in the whole of Serbia, a country 
of 10 million people, 8 million Serbs, maybe 40,000 protesting. 
We had 35,000 people doing an AIDS March here in Washington on 
Sunday. This is not the Nation rallying in opposition to Mr. 
Milosevic. We had 500,000 to a million people in 1996-1997 
hitting the streets. Those were demonstrations. When you have 
10,000 people in the square in Belgrade, that is less than a 
football match.
    People are sick and tired of Milosevic, they are sick and 
tired of this regime, they would love to get rid of him, but 
that is not going to lead to a newfound democracy in Serbia. 
They are also sick and tired of having lost the war in Kosovo, 
quite frankly. They remain deeply committed to their own sense 
of victimhood. This is not every Serb everywhere, but it is a 
more general feeling than just the leadership and just the 
regime.
    Senator Smith. Where does that lead you on autonomy versus 
independence for Kosovo?
    Mr. Daalder. I think that issue has been settled for all 
practical purposes. And I think our current policy which says 
do not do anything that reaffirms Serb or Yugoslav sovereignty 
over Kosovo is exactly right. Do not close the door to 
independence. Do not become the obstacle to independence. But 
at the same time, it is much too early to raise the final issue 
of whether we can find an autonomy as part of a new Serbia 
which may or may not emerge. It is too early to make that 
decision.
    The key is do not make decisions now that reaffirm Yugoslav 
sovereignty. Do not insist on the dinar, as we haven't, as the 
currency. Do not insist on having Yugoslav customs on the 
border, as we haven't, and do not insist on having Yugoslav 
flags flying everywhere, as we have not. All these are right 
decisions, which by the way our allies have opposed all along 
because they have made a decision. They do not want an 
independent Kosovo. And this is going to be a major difference 
between us and them. Not that we want it. We just want to be 
absolutely sure that the international community does not do 
anything that prevents that from happening if and when that 
eventually becomes a reality because we do not want to fight 
the Kosovars over the question of independence. We do not want 
to be the obstacle. It is not the situation you want to put 
U.S. troops or any other troops in.
    Senator Smith. Do you feel like the European fears on 
independence are overblown?
    Mr. Daalder. I understand the fears, but I think we 
therefore have to manage the consequences of independence, 
dealing with Macedonia and above all, dealing with Albania. It 
is a completely utterly failed state that needs to be brought 
up to par. The Macedonians in fact are doing a quite good job 
of inviting the Albanians into their own government. There are 
few Albanians in the elite at least in Macedonia that look to 
either Kosovo independence or a greater Albania as their 
salvation. They look toward their salvation in Skopje and in 
their own country. That is a good sign. But I am worried about 
what is happening inside of Albania, the drug running and 
everything else that is going on in that noncountry, nonentity 
is troubling for figuring out what we are going to do in 
Kosovo.
    Senator Smith. Senator Biden.
    Senator Biden. I, as a young student, could never fully 
understand--not even fully, I could not understand, period--how 
men of consequence could sit at the table that we sit at over 
in S-116, whatever it is, our Foreign Relations committee room, 
the beautiful, old historic room, how they could sit around 
that table in 1935, 1936, 1937, 1938, 1939, and 1940 and not 
have acted.
    Some of them were great men. It all of a sudden dawned on 
me one day about a year and a half ago: We had a meeting, and I 
do not know whether you were there, Senator, but some of the 
Armed Services members were there. And there was just Senators. 
I think there were Senators. Some staff. And I made a push for 
what I thought should be a very aggressive policy. And I guess 
it is almost 2 years now, because Bosnia was just--it just 
ended and I thought there were certain lessons to learn from 
Bosnia and we were about to repeat the mistakes in Kosovo.
    And I'll never forget one of our colleagues, a man with 
more experience than I have, who knows a great deal about the 
military, who was, unlike me, a war hero. He looked at me and 
he asked me the question: he said, but can you guarantee me no 
American will be killed? And it was a little bit as if I had 
been in for my annual physical with that little triangular 
rubber hammer the doctor uses to check your reflexes, and 
taking that hammer and going ``boing.'' Hit me right in the 
middle of the head. And all of a sudden it became absolutely 
clear to me why no one acted in 1934 and 1935, and 1936, and 
1937.
    Mr. Daalder, why I chose, instead of a history professor, I 
chose to be a Senator, was because foreign policy, history and 
political science seldom ever lend themselves to reality in 
terms of what happens. What happened then.
    I realized for the first time in my political career that 
the single most difficult thing to do for a President was to 
take a nation to war where you had to assume you were going to 
lose some American lives, maybe 2, 5, 10, 20, 100, 300, when 
the Congress clearly, Democrat and Republican, did not believe 
that there was a crisis that warranted it, where allies were 
opposed to it and where NATO had never conducted war. And if 
you won then, if they had moved in June when I was talking 
about it because I think you are wrong. We waited, October; it 
is too late, I think June. What would have happened if it 
succeeded. We would have been told there was no threat; that it 
was not really the problem you thought it was; you spent all 
that money, you waste our money, it is a political campaign. If 
you go in and you are wrong and you ``lose,'' they have taken 
the Nation to war over something that no one thought was worth 
doing it anyway and why did you get us involved in this?
    And I cannot think, Mr. Daalder, of a single event in 
American, modern American, foreign policy, from 1890 to now, 
where the United States ever subscribed to your lesson. Ever. 
Maybe Panama or maybe Grenada, saving the medical students. You 
know. Can you think of one? What one?
    Mr. Daalder. In 1949, we signed the North Atlantic Treaty 
Organization.
    Senator Biden. We signed it.
    Mr. Daalder. We signed it and we put a lot of troops on the 
ground in Europe. We had brought them home. We put them back 
in. We spent a lot of money in terms of----
    Senator Biden. That is true. But no one was saying in 1949 
that we are sending them to attack. No one. The promise made 
was one that this will prevent something from happening. 
Fundamentally different. If we had been saying in Kosovo, by 
the way, if we send 10,000 troops, reposition 10,000 troops out 
of Germany to Hungary and they are just going to be in position 
and sit there, that is what they are going to do, then that is 
a different deal. And then even in Greece what we did, we said, 
we are going to prevent something from happening. We are not 
going to take any proactive, in terms of physical, use of 
force, striking first, proactive action. So it always 
fascinates me when scholars come and tell us about these 
formulae.
    I can think of not a single time, including the one you 
have said, Panama, maybe, because Panama, Reagan said boom, go. 
Grenada, boom, go. You know, they went in, out, gave everybody 
six million ribbons, and we declared a victory and the medical 
students were safe. I am being obviously facetious. It 
literally was that way. It was a clear objective. It was never 
discussed and it was done. I do not know how a democracy--I do 
not know how in a democracy--the prescription can be, that you 
propose, can be met, I mean can be filled.
    Now, the one thing I do agree with you both on, and I was 
very outspoken privately beforehand and after with the 
President: I thought he should have been going to, as the 
Chairman did, to those meetings at the White House. Mr. 
President, you have got to speak up. You have got to talk about 
this. Literally, this is not fiction. This is not anything we 
have read in a history book. We were there. We said speak, go, 
talk about it.
    But at the same time, what was going on is, you know, the 
military plan had to be clear. Well, the military plan that had 
to be clear was, one that our NATO allies said they do not want 
any part of. Now, my prescription for that was, just like it 
was in Bosnia, go. Go it alone because they will follow. They 
cannot afford not to. And I wish they were not private--I would 
like to--I mean, I wish I had not sent them to the President. I 
would like to give you the memos I sent to him. I do not know, 
scores of them, to the President. Go. But the truth was, at the 
time, that was an incredible risk.
    I think I am right. I think the Europeans, including the 
French, could not have stood it that we were taking initiative 
on our own in Europe. They would have been like that old joke 
about the French Revolution where the general walks out and 
said which way do my troops go so I can run ahead of the column 
and lead them. I think that is what would have happened.
    But do we not all have to admit that that is, I mean, that 
is--there were not 2 percent of the foreign policy community. 
There were not 2 percent of the elected community who shared 
that view at the time. And so, I say this not in defense or 
criticism of this President and the last, but the next 
President, and my 7 minutes is up. And the second round I'll 
come back and pursue this. Here we are about to--I just spoke 
with the National Security Advisor today. The issue I raised 
with him after he was coming back from the region was that my 
colleagues are anxious to know where we are on the stability 
pact, and what portion of that we are going to contribute to, 
and what our role is going to be in that. I guess I am making 
news here and I shouldn't, but the response was, we have that 
pretty well worked out, Joe. If you want to come down, I'll 
show it to you, but we do not want to go up to the Congress 
with it now, because the Europeans have not signed on their 
deal, and you know what will happen. They will get ripped 
apart. And they will. They absolutely get dismembered.
    Now, here we are in peace, quote, unquote, and by the way, 
there is relative peace over there. I mean, you can walk the 
streets, people are out at night, it is as you have pointed 
out, Mr. Daalder, it is incredible to me there have been so few 
revenge killings. I find it incredible. And yet, we cannot even 
get a consensus up here, I think it is fair to say.
    Let me put it this way. Whenever the plan comes up, I'll 
lay you 8 to 5 it is a donnybrook getting it passed. The Wye 
Accords, you know what we just did? The government in the 
foreign appropriations markup can send the President a bill 
that does not meet our obligations financial. Do you want to 
hear what he said, we cannot even get this outfit--Democratic--
I am not making it up--We cannot even get this outfit to agree 
to fund the Wye Accords. This is not speculation on my part. I 
get a call at 10 this morning. You probably did. Your staff 
probably told you, hey, they finished the markup, $3 billion 
short, no money for Wye. So I do not--I guess I am going much 
too long.
    I think there is an underlying debate here which we really, 
really, really, really, really need you guys and your 
colleagues to jump on. And as I think there is a debate to be 
that is over 300 years old, before we were a nation, about 
isolation and intervention, I think there is a fundamental 
struggle going on up here in the Congress about whether we are 
going to engage in war or we are not. I think at the root of 
this is this strong and historic pull for nonintervention. And 
so I am really, you know, if you read most of your colleagues, 
they are saying well, based on what we have done in Bosnia and 
based on what we have done in Kosovo, we are unlikely to have 
any President who is going to pick a third area which is 
equally as compelling to get involved in.
    In fairness, I think, to President Bush, I do not know 
anybody who knew the former Yugoslavia better than Larry 
Eagleburger. He was Secretary of State. The only guy I know 
that occupied that position who spoke Serbo-Croation, not that 
that makes him qualified--but he is totally qualified.
    Mr. Daalder. The current one does, too.
    Senator Biden. I guess you are right. She can. Obviously. 
Thank you. That is two in a row. But--not in a row, but two. 
And one of the things, when I talked to him about why are not 
we involved in Bosnia, why are we not getting engaged, the 
answer was in part, was much more than this, was, look, we just 
did Iraq. We cannot do another one. We cannot do another one. I 
am not sure the horse is strong enough to carry the sleigh 
here, you know, as my grandpop used to say. I mean, the sleigh 
is a foreign policy commitment that has worldwide significant 
involvement down the road, and I think we are so incremental 
about it, and I do not know whether we are going to find a 
President who is going to be strong enough in terms of his or 
her will or their relative position at the moment to be willing 
to take the risk and get that far out ahead of the Congress. 
Get that far ahead out of the American people. And I think the 
only way to do it is to argue for it and go to the wall.
    My argument to the President was, Mr. President, in the 
next meeting or in the principals meeting, say this is what we 
are going to do now. If you want to be with this fine, if you 
do not, we are out. It is all your problem. We are not going. 
We are out. You solve it.
    Anyway, I rambled more than I asked questions, but I really 
find this hard to figure out what lessons learned. After him 
taking two rounds to make up for mine, I would like to ask you 
questions about specific aspects of implementing the peace, 
early elections, and matters that I would like to speak to.
    Senator Smith. I would just frankly echo some of the--we do 
appreciate your insights on that. But it was not just 
impeachment. There is just sort of an opposition of all things 
structured to our foreign policy and the United States, and I 
wonder if you have a comment to Senator Biden's----
    Mr. Daalder. Just to start off, I think you are right. This 
is tough business, and it is--it is difficult to expend 
political capital on these kinds of issues for any President 
under any circumstances. The best one can hope is to have 
people up here tell the President and people on the outside and 
on the inside telling them, well, you know, sir, on this one 
you really got to do it.
    Senator Biden. Did it surprise you that not many of your 
colleagues--and I mean the intellectuals--and I am not being 
smart, I mean this sincerely--none of the academics, foreign 
policy experts, foreign policy community were not telling you 
to do it? It was deafening the silence, absolutely deafening.
    Mr. Daalder. I agree completely.
    Mr. Kagan. Who do you think we are fighting with all the 
time?
    Mr. Daalder. We are just two people.
    Senator Biden. Maybe the four of us should go off and feel 
sorry for one another for a while. I don't know.
    Mr. Daalder. I would go a little further. I worked in the 
first term of this administration on that wonderful issue of 
Bosnia, and there came a time, it took a while, but there came 
a time when people on the inside said we have had enough. We 
cannot go on this way. And that, the summer of 1995, when 
horrible things were happening, led to people saying it does 
not matter what the Hill says, it does not matter what the 
allies say. We are just going to do this. This is what we are 
going to do. And they--and they marched on.
    But with Kosovo, what I saw in the first year, and well 
into the war, the first 4 weeks of the war, was a 
decisionmaking climate in which people were anticipating the 
negative reactions in Brussels and on the Hill and saying, no, 
we cannot go there.
    On the issue of ground forces, whether to deploy ground 
forces in October, whether to deploy them, if they are happy to 
agree to them, when the issue was raised, the question was, 
well, the Hill would not buy it so let us not even look at it. 
When you asked him, well, who did you talk to? Did you go up, 
did you talk to Senator Smith, Senator Biden, Senator Hagle, 
did you try to make a case? No. They would not buy it. And the 
same is true with the allies.
    Senator Biden. The administration was split. There were 
people in the administration who thought ground troops were a 
very bad idea.
    Mr. Daalder. Absolutely. And that makes it even more 
difficult to make that case. But the same was true with the 
allies. Well into April and May, there were senior 
administration officials saying, using their own hesitation and 
blaming it on the allies. And my argument is that those who 
argue differently, as there were people in the administration, 
keep on fighting, keep on slugging away, it is hard going, and 
sometimes you win, and in fact in the end, I think those people 
did win. They won on the question of the ultimatum and they 
won--they were about to win on the question of ground forces.
    But that means you usually are later rather than early.
    Senator Biden. That is the only point I was making.
    Mr. Daalder. You keep pushing. And you just hope that at 
one point somebody breaks and sometimes you get a real break. 
You get earlier rather than later. It's tough, but it's tough 
slugging.
    Senator Smith. Mr. Daalder, during the confirmation hearing 
of Richard Holbrooke, I took occasion to use your article to 
question him, and he took issue with your article. I wonder if 
you can elaborate any further. Have you thought anew or 
differently about what you wrote for the Standard or do you 
think it was a fair shot? Would you modify anything?
    Mr. Daalder. I would do this. I would modify it in the 
following ways. There is no doubt in my mind that what was 
moving everybody, including Dick Holbrooke, was to find a way 
to end the possibility of massive suffering of people who were 
in the mountains and did not want to come back. I have my 
doubts whether the agreement triggered those people to come 
back, as I do not believe that Milosevic had any interest in 
having 30,000 people dying in the mountains that winter. So 
having the framework that allowed the people to come back from 
the mountains was important.
    However, and in fact I spent more time looking into this, I 
would say that the focus on the verification mechanism, which 
is what for 9 days preoccupied the negotiations, and then 
ending up with what we got was a disaster. In two ways. If you 
insist on a verification mechanism, do not confuse that with an 
enforcement mechanism. The fact that we knew that he was not 
compliant is useless if you are not then willing or able to do 
something about it. And the biggest problem I had at the time 
and I continue to have now is when we put 2,000 unarmed 
civilians in, we were giving him 2,000 unarmed hostages that 
prevented us from using air power to enforce the agreement.
    And in confusing verification with enforcement, we in fact 
put in place a system that was extremely good at verifying his 
noncompliance, but also ensured that we would not be able to 
enforce the agreement if and when we decided that that was 
necessary. If you want to have proof that this thing did not 
work, it was the fact that Madeleine Albright decided and then 
the administration went along saying the October agreement is 
the wrong way to go. We have to have a new framework, which is 
what Rambouillet was about. And I do think it was a major 
mistake to put in unarmed observers at the time. I do not think 
we bought much of value, and we lost something.
    Senator Biden. Rambouillet. One of the things that at the 
time--I would be interested in both your comments on this. I 
apologize, Chairman Gilman and Mr. Gejdenson and Chairman Helms 
and I are supposed to meet at 4:30 over in the other room about 
the State Department bill, but let me just ask you this 
question. I thought the single biggest mistake of Rambouillet--
and I am a great admirer of the French, I do not mean this as a 
cut--was letting the French take charge and the decision not to 
have NATO in uniform at the table. I was convinced that without 
NATO physically there as a major presence at getting the KLA or 
the Kosovars in any way to go along with any agreement in a 
timely fashion was virtually impossible and may not have worked 
even, even with them there. But my sense was there was a need 
for these guys to be able to look in the eye of General Clark 
and Klaus Naumann and others and say, you guys, is this a deal 
here? You are going to enforce it? Is this the deal, as opposed 
to looking at other diplomats around the table.
    And one of the things I--I am going to be presumptuous not 
to send you a speech I delivered, which is very presumptuous, 
but laying out my view of the lessons we should learn from 
Bosnia in applying them to Kosovo. I am going to ask you about 
one of them that I think is a lesson. I think early elections 
in Bosnia was a serious mistake. I think all it does when you 
have early elections in a circumstance like exists now in 
Kosovo and existed now in Bosnia is guarantee that the 
nationalist factions, the most extreme elements of whatever 
that faction is, are going to be the ones that prevail.
    In Kosovo, the idea that you can have a free election 
before the television towers are back up, where people ask you 
to go out and debate and argue the issue, make cases known, is 
going to be essentially a coronation of a group of people who 
are very well equipped and very brave to fight a war and may 
not at all be equipped to run a country. And so I wonder.
    I met with Dr. Haltzel behind me, at length with Kouchner 
and with the KFOR folks, and they are talking about early 
implementation of municipal elections, and my argument is 
``hold off.'' The response was, look, we do not want to be 
viewed as a colonial power, a colonial force, an occupying 
force. And I said, wrong, you should be. This is a time when 
you should impose a civilian government. What is the author's 
name? Eric Roy, we went to see him, and I think he is one of 
the most knowledgeable guys I spoke with there, and he is 
saying, look, the people out in the street are saying impose 
order here. Do not wait. Do not go through this charade of 
getting RFPs about whether or not you can put up a building or 
do this; get it down, lay it out. He said you did not have any 
trouble writing Japan's constitution for them. You did not have 
any trouble laying this out. I know I sound facetious, but I am 
serious.
    So I'd like you to comment on two points. One, early 
elections, good or bad, and, two, is there a worry in your view 
how the Kosovars will view interim civilian government imposed? 
I mean, not imposed in the sense of ordered, but set in place, 
absent elections, as being tantamount to making a colonial 
state, that the U.N. is being--will be denying their, I do not 
know what phrase I would use, but you understand the issue? 
Could you give me some sense?
    Mr. Daalder. Before that, can I add also to the point on 
NATO not beeing at the table at Rambouillet I think is right, 
but NATO was not at the table at Dayton either. The fact that 
NATO was not at the table at Rambouillet should not have 
excused the fact that we only sent a colonel. We did not send a 
general to Rambouillet. There was no reason why we could not 
have had a four star sitting next to Madeleine Albright to make 
that reassurance.
    Senator Biden. Well, the only point I would make about 
Dayton: we had already bombed them in Dayton. We had not gotten 
there yet in Rambouillet. But I understand your point.
    Mr. Daalder. I think just because the French vetoed one 
thing, did not mean--we should noy have sent more senior people 
to the negotiations.
    Senator Biden. We could have. There is no question about 
that.
    Mr. Daalder. I agree with you. On the two issues, I think 
you are dead right on the early elections. Inside the 
government, I fought against early elections in Bosnia. I 
thought it was a major mistake not only because of the notion 
that you would in fact empower nationalism by doing so, but 
also because it was tied to this notion of an exit strategy. We 
equated early elections with an exit strategy. If you only had 
elections you could leave.
    Senator Biden. That is exactly what the U.N. is doing right 
now. That is exactly what Kouchner is doing.
    Mr. Daalder. And I think therefore, we should not have 
elections for a long time because as I think Madeleine Albright 
has rightly and the President has rightly said, we do not need 
an exit strategy, we need an integration strategy. That means 
we are going to be there for a while, quite a while yet.
    To your second point, the key to being a good colonial 
government, which is what you need in this place which has not 
had a government in any real sense for at least 10 years, but 
in many ways much longer, is to make sure that you do not do 
anything that reaffirms Yugoslav or Serb sovereignty.
    Senator Biden. I agree with both of those points.
    Mr. Daalder. As long as you maintain that you are doing 
this in order to help them become self-sustaining, self-
governing. Which is what we are doing. So in that sense, I 
think we are doing exactly the right thing, and my biggest 
worry is that we are not in fact taking enough control and 
instead handing over control too quickly to other people. But 
the goal here is to run this place for a while.
    Senator Biden. When you are President, maybe you can make 
one of us your Secretary of State.
    Mr. Kagan. I do not want to keep the Senator. We are always 
halfway imperialists in these situations, but that is sort of 
the worst of both worlds. But back to your grander thoughts 
about the U.S., that also runs deep in our character. After we 
finish telling everybody what to do our position is, hey, we 
are not telling you what to do.
    Senator Biden. It is going to be a very, very difficult 
time. I mean, this is--there are so many people who have a 
vested interest in seeing this not work. I mean, there are so 
many intellectuals who have invested in this being a bad idea. 
I do not ever recall, Mr. Chairman, where a major foreign 
policy initiative was declared a failure within 24 hours of it 
being initiated. And I can--I do not remember that happening. I 
am sure it has, but I cannot remember that happening. And I 
think part, much, of it is the administration's failure to make 
its case and I am not excusing their failure to do that, but we 
really--it is amazing to me and what we all kind of forget is 
that there is a big argument here among people we respect, 
between us and others saying, look, we have no right. This is a 
sovereign nation. We have no right to be involved at all. I 
mean, serious leaders, more in your party than mine, but 
nonetheless both. But this is a--anyway. Like you said, Mr. 
Daalder, I think this is a matter of just keeping on, just keep 
punching through, and, I mean, but I would like very much to 
have the day when we have the ability to put that formula of, 
you know, move quickly. I mean, I hope I live to see that day. 
Thank you very much. I apologize for having to leave, Mr. 
Chairman.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Thank you, Mr. Chairman, and thank you for holding this hearing on 
American diplomacy on Kosovo during the thirteen months before we 
launched air strikes against Yugoslavia on March 24, 1999.
    As we all should know--but often seem to forget--diplomacy is this 
country's first line of defense.
    If diplomacy is unable to resolve policy differences with 
adversaries, resort to military action may be necessary. This is what 
happened in Kosovo.
    And make no mistake about it: not even considering the 
irreplaceable loss of human life that war brings, prosecuting a war is 
more expensive than conducting diplomacy by a factor somewhere in the 
millions.
    That is why, Mr. Chairman, I find the unwillingness of this 
Congress adequately to fund the so-called 150 account, which provides 
money for our State Department to operate around the world, to be 
incredibly short-sighted.
    ``Penny-wise and pound-foolish'' doesn't even begin to describe our 
folly.
    With regard to the diplomacy leading up to the air war against 
Yugoslavia, there is, I believe, much to question.
    By February 1998, should we, for example, still have regarded 
Slobodan Milosevic as potentially part of the solution for the Balkans, 
rather than as the problem? I think not, and this isn't a case of 
``hindsight being 20-20. I am on record dozens of times as calling 
Milosevic a war criminal, a designation which the Hague Tribunal got 
around to making only last spring.
    Should we have had better intelligence on the Kosovo Liberation 
Army?
    I think so, although I do not underestimate the difficulty of that 
task.
    Once the Contact Group proved to be hopelessly ineffectual in the 
early spring of 1998, should we have ceased using it as our vehicle for 
diplomacy?
    I think so, although we definitely had to find some way to build 
international support for our policy. Perhaps an earlier reliance on 
NATO, rather than the Contact Group, would have been more effective.
    Because we were ultimately forced to use force, one might be 
tempted to call our Kosovo diplomacy a failure.
    In the real world, however, such evaluations are rarely clear-cut. 
For example, a diplomatic solution that left Milosevic in control in 
Kosovo would have been a colossal failure, even worse than what 
actually occurred.
    Moreover, the thirteen-month tortured effort to find a peaceful 
solution to the Kosovo problem undoubtedly convinced public opinion in 
Western Europe of our good faith, thereby making support in the war 
possible.
    I look forward to the testimony of our three witnesses today, 
particularly that of Senator Dole. He and I stood virtually alone at 
the beginning of the war in Bosnia in 1992 as we advocated forcefully 
halting Milosevic's aggression.
    It took 3 years--and a quarter-million dead and more than 2 million 
homeless persons in Bosnia--to change the opinion of a majority of our 
colleagues.
    That example of slow reaction was one lesson we learned not to 
repeat. Horrible as the attempted genocide in Kosovo was, at least the 
likely number killed was only one-twenty-fifth that of Bosnia.
    Thank you again, Mr. Chairman.

    Senator Smith. Thank you, Senator.
    Gentlemen, we thank you for your participation today. It 
has been very helpful and with that, this committee is 
adjourned.
    [Whereupon, at 4:45 p.m., the hearing was adjourned.]


           THE CONDUCT OF THE NATO AIR CAMPAIGN IN YUGOSLAVIA

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:15 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Gordon H. Smith 
presiding.
    Present: Senator Smith.
    Senator Smith. Good afternoon, ladies and gentlemen. I 
apologize for the delay in convening this hearing. We now will 
open. We have had a vote on, and Senator Biden is occupied as 
we speak with the CTBT treaty, and so we will go ahead, and we 
thank you all for coming.
    Today, our subject is the way in which the NATO alliance 
conducted the war in Yugoslavia. Last week, the committee heard 
from Senator Bob Dole and other distinguished witnesses about 
the diplomatic failures that led to the war. We are very 
honored and pleased to have Dr. Zbigniew Brzezinski with us. 
Dr. Brzezinski, as you all know, needs no introduction. He has 
so much experience and no doubt will share great wisdom with us 
today, and insight.
    Our second panel after Dr. Brzezinski will be composed of 
Dr. Eliot Cohen from the School of Advanced International 
Studies at the Johns Hopkins University, and Mr. William Howard 
Taft, former U.S. Ambassador to NATO. I appreciate also their 
willingness to share their views with us.
    As a preface to these panels, let me just simply say that 
during the 78 days of the NATO air campaign against Yugoslavia 
I was particularly concerned about the impact the war would 
have on the NATO alliance. When speaking to many Americans I 
sensed that their feeling was that but for NATO we would not be 
in the war, and that because of NATO we would not be able to 
win the war.
    I was troubled, along with other Americans, over the degree 
to which political considerations affected NATO's military 
strategy, even to the point where politicians from NATO member 
States questioned and sometimes vetoed targets that had been 
selected by the military.
    I firmly believe in the need for civilian control of the 
military in a democratic society, but I also believe we can 
effectively adhere to this critical principle by clearly 
outlining political objectives and then, within the boundaries 
of those objectives, allowing military commanders to design a 
strategy in order to assure the achievement of those 
objectives.
    General Clark and other NATO commanders were not given that 
opportunity, but instead were subject to excessive political 
interference.
    In addition, the Clinton administration's mistaken 
assumption that Milosevich would capitulate after just a few 
days of bombing had implications on the military process 
itself, and reports indicate that NATO planners were forced to 
scramble to identify and select appropriate targets that met 
with political approval after their initial list was exhausted. 
Until internal NATO documents are made available for close 
review, I cannot speak to the accuracy of those reports, but if 
true, it seems to be another example of politics placing 
constraints on effective military strategy.
    Furthermore, the decision to escalate gradually the bombing 
campaign as opposed to the immediate use of overwhelming force 
may have maintained allied unity, but it was at a tragic cost 
to the people of Kosovo who were killed or forced to flee their 
homes during the prolonged period of the NATO buildup and 
bombing.
    I am also distressed at the excessive considerations the 
administration showed to Russia's position during the war. Now, 
I do not suggest for a minute we should ignore the feelings of 
the Russian people or their Government, but lest we forget, the 
Russians publicly denounced NATO for its ``illegal aggression 
against Serbia.'' They supported Slobodan Milosevic even as his 
army and police forces were murdering innocent ethnic Albanians 
in Kosovo. They were alleged to have provided military weaponry 
to Serbia during the conflict itself. Those actions do not 
indicate to me that Russia was a true partner in helping NATO 
search for a peaceful solution.
    Finally, the debate in this country over the use of 
American ground troops in Kosovo was of great concern to me. I 
must confess, I was puzzled by President Clinton's public 
announcement the first day of the war that he had no intention 
of sending American ground forces to Kosovo. To take that 
option off the table certainly provided aid and comfort to Mr. 
Milosevic, and likely contributed to the lengthening of the war 
itself.
    I traveled to the Balkans in mid-May, and while in Tirana I 
spent some time with the American pilots of the Apache 
helicopter unit. These pilots were well-trained and prepared to 
do their part to achieve NATO's goals in Kosovo. They wanted to 
be able to do their job, and I supported them in that effort. 
In fact, I contend that NATO did have a ground force in Kosovo. 
They were simply the KLA.
    In a briefing to Senators immediately after the war ended, 
the Joint Chiefs of Staff showed a slide that points to the 
significance of the offensive launch by the KLA against 
Yugoslav and Serbian forces in late May. You can see it right 
over there. You can see how ineffective the bombing was until 
the KLA began their organized offensive. On day 68, the Serb 
positions were rooted out, and as a consequence for 10 days 
there were significant--to the degree there were any 
significant military targets hit, they were at that point.
    It makes my point, which was frankly while we did not want 
ground troops, in the end it took ground troops. They simply 
were someone else's ground troops, namely the KLA, that brought 
about the speedy resolution to that conflict.
    In sum, the end result of a NATO war in Kosovo should be 
entitled a success, but in my view, not yet a victory.
    I look forward to hearing from our witnesses and, Dr. 
Brzezinski, it is wonderful to greet you here. I regard you as 
a friend, and I deeply admire your career and appreciate so 
much your sharing your views with us whenever called upon. 
Thank you, sir. The mike is yours.

 STATEMENT OF HON. ZBIGNIEW BRZEZINSKI, COUNSELOR, CENTER FOR 
      STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Brzezinski. Thank you very much, Mr. Chairman. Let me 
first of all commend you for the leadership you have taken in 
examining this important issue, and for the sense of direction 
you have provided to that effort.
    In my testimony, I plan to focus on one specific aspect of 
our Kosovo experience, namely our relationship with Russia. My 
bottom line is that cooperation with Russia is desirable. It 
can be quite useful, but that the Kosovo experience shows that 
the current Russian Government is not trustworthy.
    Let me speak to this issue in more detail, noting 
particularly some compelling circumstantial evidence indicating 
Russian-Serbian collusion. Generally speaking, Russian policy 
during the crisis can be seen in three phases, and I will 
compress what I have in my testimony regarding the first two 
phases. The testimony goes into more detail.
    The first phase was largely the vitriolic and visceral 
support for the Serbs, hostility toward NATO, and an attitude 
which is best described by a Russian newspaper Nezavisimaya 
gazeta, which stated, and I quote, ``the collapse of the U.S. 
global empire is being initiated by the action by NATO, and it 
is in Russia's interest,'' quote, ``to let the United States 
and NATO, with its demented West and East European members, 
bogged down as deep as possible in a Balkan war,'' end of 
quote.
    Once Russia realized that NATO would neither quit nor 
split, it decided to join the diplomatic effort, and it 
concentrated on being a partner in the G-8 discussions on how 
to deal with the issue, seeking to formulate what might be 
called a political solution. It is at this stage that Russian 
engagement became more visible, and former Prime Minister 
Victor Chernomyrdin joined the Finnish President Marti 
Ahtisaari in taking the lead on behalf of the G-8 in 
discussions with Milosevic. I want to draw your attention to 
the fact that in operating jointly with Ahtisaari, Chernomyrdin 
would at times meet with Milosevic alone, and there is some 
significance to that.
    As Moscow realized that NATO would neither split nor quit, 
its tone became more hysterical. On May 28 the Washington Post 
published a chilly, hysterical statement by Chernomyrdin 
warning that the American-Russian relationship will come apart 
if the war continued and the bombing was not stopped, and 
demanding reparations for Yugoslavia.
    On the next day, May 28, Chernomyrdin met with Milosevic 
alone. Two days after that, Chernomyrdin let it be known 
publicly that his discussions with Milosevic were productive. 
On June 2, Russian TV reported that the discussions conducted 
by Ahtisaari and Chernomyrdin with Milosevic involved not one 
single proposal formulated by the G-8, but two different plans, 
and that Russia, ``is talking about a virtual partition of 
Kosovo'' with a ``Russian contingent,'' under its own command 
in a separate Russian zone in Northeast Kosovo. The very next 
day, on June 3, Milosevic all of a sudden accepted NATO's 
demands for the withdrawal of Serb forces while Chernomyrdin at 
the same time stated on Russian TV that, and I quote, ``at 
Yugoslavia's special request, Russia will also be represented'' 
in the occupying force. Events then unfolded quite rapidly.
    On June 4, the Russian foreign and defense ministers held a 
closed meeting with the Duma to reassure it that Yugoslavia had 
not been betrayed.
    On June 5, Russian officers did not show up as scheduled at 
the first meeting between NATO and Yugoslav officers, and that 
meeting was supposed to coordinate the Serb withdrawal.
    Between June 5 and 7, Serbian officers continued stalling 
in the negotiations. The Russians never appeared, and on June 
10, NATO agreed to a delay in the Serbian withdrawal, which, 
starting with June 3, should have been completed in 1 week.
    The very same day, June 10, a Russian military contingent 
left Bosnia. We now enter the third and critical phase in the 
Russian role in the Kosovo crisis. That Russian contingent left 
Bosnia and with full, complete Serbian cooperation and 
assistance, and rapidly moved through Serbia toward Kosovo. At 
the same time, the Russian Government reassured Vice President 
Gore that the contingent would not enter Kosovo.
    This presupposes an occupation of Pristina, but the White 
House disallows that. On June 12, at 1:30 a.m., the Russian 
forces entered Pristina, and again with Serbian military 
assistance took up defensive positions at the airport, barring 
the later-arriving NATO forces. Some intelligence reports 
suggest that the Russians secured at that airport some military 
equipment previously delivered to the Serbs.
    I want to draw your attention to a detailed account in the 
Moskovskiy Komsomolets, a Moscow newspaper, of June 14, which 
tells us the rest of the story of what happened, and also of 
what did not happen. A crowing over the fact that there was a 
Russian coup, with Russian troops being greeted by Yugoslav 
crowds in Pristina.
    The paper says that as of June 12 a contingent of 2,500 
Russian paratroopers is now ready to move immediately into 
Pristina and ``it has already been decided that Russia will 
have its own sector in Kosovo.'' Decided by whom?
    The report also notes that Hungary denied Russia access to 
its air space, but, and I quote, ``This is not a problem. 
Bulgaria, for example, gave the go-ahead our planes could make 
a detour from the Russian coast over the Black Sea and Bulgaria 
straight to Kosovo.''
    In effect, this means that Kosovo would be partitioned by a 
unilateral fiat whether NATO liked it or not. Indeed, on June 
12, the Bulgarian Government was confronted by a Russian demand 
for overflight rights, allegedly to deliver supplies to the 
Russian forces in Pristina. The Bulgarians were even informed 
that the first plane was to take off at 0600 hours, several 
hours prior to the notification. However, things did not work 
out as planned. Not only Hungary, a NATO member, but also 
Romania and Bulgaria refused Russia access to their air space. 
The Kremlin prudently decided that it could not run the risk of 
having its own air transports forced down. As a result, the 
Russian contingent in Pristina was left stranded.
    In the meantime, the Serbian forces were already in full 
retreat on exposed roads, and therefore could not stop without 
becoming vulnerable to really massive and destructive air 
attacks.
    For a week, the Russian Government insisted on a separate 
sector. Only on June 18, faced with the NATO denial, did it 
accede to the idea of having its troops dispersed within the 
U.S., French, and German zones.
    Mr. Chairman, in the light of this, it appears to me that 
Milosevic's acquiescence on June 3 was part of a desperate 
attempt engineered jointly by Belgrade and Moscow. Once Moscow 
realized it could not sway the West, it used its role as the 
West's comediator to fashion secretly with Milosevic a 
preemptive maneuver masked as accommodation.
    The collusion was contrived to outwit NATO by salvaging de 
facto for Serbia, under Russia's protection, the northeastern 
part of partitioned Kosovo. The attempt faltered because three 
small European countries had the gumption to say no, and 
because NATO remained firm in not agreeing to a separate zone.
    In conclusion, therefore, let me make a more general 
comment. Russia today is in the midst of a political, economic, 
and social crisis. The Russian people want security, stability, 
and eventually prosperity, to each of which they are fully 
entitled. They do not share their political elite's 
preoccupation with international prestige and they do not 
support its military adventurism, be it now in Chechnya, or 
earlier in Afghanistan.
    Unfortunately, the present Russian leadership, every member 
of which would feel quite at home in a Soviet Government--if 
the Soviet Union still existed, quite literally, every single 
member of the present Russian leadership would feel at home in 
the Soviet Government--is driven by nostalgia for great power 
status and by resentment against America's special 
international standing.
    That motivation not only explains the Russian conduct in 
Kosovo, but it provides a key lesson that should be drawn from 
that particular experience, a lesson, incidentally, that you 
already drew in your opening comment. Namely, that Russia is 
not yet a reliable partner.
    Thank you very much.
    [The prepared statement of Dr. Brzezinski follows:]

             Prepared Statement of Dr. Zbigniew Brzezinski

                         the lessons of kosovo
    One of the important lessons of Kosovo pertains to our relationship 
with Russia. The bottom line is that cooperation with Russia is 
desirable, can be quite useful, but that the current Russian government 
is not trustworthy.

    Let me speak to this issue in more detail, specifically reviewing 
the Russian conduct during the Kosovo conflict, and noting particularly 
some compelling circumstantial evidence indicating Russian-Serbian 
collusion.

    Russia's policy toward the Kosovo crisis can best be understood in 
reference to three phases. The first was largely visceral and 
vitriolic. It involved an emotional and almost instinctive solidarity 
with Milosevic, violent denunciations of the bombing, and promises of 
support for the Serbs. Even prior to the bombing, on February 3, the 
Duma called for aid to Yugoslavia if NATO strikes. When the air attack 
began, Russia sought a UN condemnation, and then Prime Minister Yevgeny 
M. Primakov attempted to split off the Germans with a peace proposal 
that was much more favorable to Milosevic than NATO's.

    During this initial phase there were persistent rumors that a 
``volunteer'' Russian contingent had gone to fight on the Serb side. 
Western intelligence sources also reported that some Russian military 
equipment was delivered to the Serbs, and that Russian military advice 
was provided. The overall Russian approach was well surrimarized on 
March 25 by a leading Moscow newspaper Nezavisimaya gazeta. The paper 
hopefully declared that the Kosovo action was initiating ``the collapse 
of the U.S. global empire,'' and that it was in Russia's interest to 
let ``the United States and NATO with its demented West and East 
European members bog down as deep as possible in a Balkan war.''

    The second phase came into play once it dawned on the Kremlin that 
the NATO alliance would neither split nor quit. Russia then somewhat 
shifted its stand and sought to be part of the Western decision-making 
process. The chosen avenue was the G-8 foreign ministers' 
consultations, where former Prime Minister Viktor S. Chernomyrdin, as 
his country's special envoy on the Balkans, assumed a highly visible 
role in seeking to convince NATO that it should soften its stand if it 
wished a ``political'' solution. By late May this process assumed the 
form of a two-headed effort:

    Chernomyrdin and Finnish President Martti Ahtisaari took the lead 
on behalf of the G-8 in discussions with Milosevic. However, 
Chernomyrdin at times also met with Milosevic alone while Russia's 
public pronouncements became increasingly strident.

    On May 27 Chernomyrdin published an altogether hysterical op-ed 
piece in The Washington Post. He asserted that ``the United States lost 
its moral right to be regarded as the leader of the free democratic 
world when its bombs shattered the ideals of liberty and democracy in 
Yugoslavia,'' called for the payment of reparations to Yugoslavia, and 
warned that he would urge President Boris N. Yeltsin to freeze all 
American-Russian relations unless the bombing stopped. The next day he 
met alone with Milosevic.

    Two days after that extraordinary outburst the third and critical 
phase of Russia's policy was set in motion. Chernomyrdin let it be 
known that he was pleased with his discussions with Milosevic. On June 
2 Russian TV reported that Ahtisaari and Chernomyrdin ``have brought 
not one but two different plans to Belgrade,'' (italics added) and 
added that ``Moscow is . . . talking about a virtual partition of 
Kosovo,'' with ``a Russian contingent'' under separate Russian command 
in control of northeast Kosovo.

    The very next day, June 3, Milosevic accepted NATO's demand for the 
withdrawal of all Serb forces, while Chernomyrdin in an interview with 
Russian TV stated that ``at Yugoslavia's special request, Russia will 
also be represented'' in the occupying peacekeeping force.

    Events then unfolded quite rapidly. On June 4 the Russian Foreign 
and Defense Ministers held a closed meeting with the Duma to reassure 
it that Yugoslavia had not been betrayed. On June 5 Russian officers 
did not show up at the first scheduled encounter between NATO and 
Serbian officers, held to coordinate the Serb withdrawal that was to 
take place promptly within a week. Between June 5 and 7, Serbian 
officers continued stalling in the negotiations, and on June 10 NATO 
agreed to a delay in the Serb withdrawal.

    The same day, June 10, a Russian military contingent left its 
position in Bosnia, and--benefiting from full Serbian cooperation--
moved swiftly through Serbia toward Kosovo. As this was happening, the 
Russian Government reassured U.S. Vice President Al Gore that the 
Russian contingent would not enter Kosovo. The White House then 
disallowed the NATO commander's plan to execute a pre-emptive seizure 
of Pristina, Kosovo's capital. On June 12 at 1:30 a.m. the Russian 
forces entered Pristina and, with Serbian military assistance, took up 
defensive positions at the airport, barring the later arriving NATO 
forces. (According to some intelligence reports, the Russians secured 
some military equipment there that they had previously provided to the 
Serbs.)

    A detailed account in the Moskovskiy Komsomolets of June 14 tells 
the rest of the story--both what happened and what did not happen. 
Crowing over the Russian military coup and over Serbian crowds in 
Pristina burning U.S. and British flags, the paper said that as of June 
12 a contingent of 2,500 Russian paratroopers was ready to be flown 
into Pristina, and that ``it has already been decided that Russia will 
have its own sector'' in Kosovo. The report noted that although Hungary 
had denied Russia its air space, ``this is not a problem--Bulgaria, for 
example, gave the go-ahead. Our planes could make a detour--from the 
Russian coast over the Black Sea and Bulgaria straight to Kosovo.'' In 
other words, Kosovo would be partitioned by a unilateral fiat, whether 
NATO liked it or not.

    Indeed, on June 12, the Bulgarian Government was confronted with a 
request from Moscow for overflight rights for six Russian planes, 
allegedly to deliver supplies to the Russian force in Pristina. The 
Bulgarians were even informed that the first plane was to take off at 
dawn, hours before the delivery of the request.

    Alas for the Kremlin, things did not turn out so. Not only Hungary, 
a NATO member, but Bulgaria and Romania refused access to their air 
space, and the Kremlin prudently decided that it could not run the risk 
of having its air transports forced down. As a result, the Russian 
contingent in Pristina was left stranded. In the meantime the Serbian 
forces, by then in full retreat on exposed roads, could not reverse 
course without facing enormous vulnerability to resumed air attacks. 
For a week the Kremlin continued to insist on a separate sector, but on 
June 18 Russia reluctantly agreed to have its troops dispersed within 
the U.S., French and German zones.

    It thus appears that Milosevic's sudden acquiescence was part of a 
desperate double-cross attempt engineered jointly by Belgrade and 
Moscow. Once Moscow realized that it could not sway the West, it used 
its role as the West's co-mediator to secretly fashion, with Milosevic, 
a pre-emptive maneuver masked as an accommodation. The collusion was 
contrived to outwit NATO by salvaging for Serbia--under Russia's 
protection--the northeastern part of partitioned Kosovo, and to gain 
for frustrated Russia a significant boost in international prestige. 
The attempt faltered because three small European countries had the 
gumption to defy Moscow, and NATO remained firm in not agreeing to a 
separate Russian sector. Under these circumstances, the double-cross 
did not work.

    In conclusion, let me make a more general comment. Russia today is 
in the midst of political, economic, and social crisis. The Russian 
people want security, stability, and eventually prosperity. They do not 
share their political elite's preoccupation with international prestige 
and they do not support its military adventurism, be it now in Chechnya 
or earlier in Afghanistan. Unfortunately, the present Russian 
leadership--every member of which would feel quite at home in a Soviet 
government if the Soviet Union still existed--is driven by nostalgia 
for global power status and by resentment against America's special 
international standing. That motivation not only explains the Russian 
conduct in Kosovo but it provides a key lesson that should be drawn 
from that particular experience: namely, that Russia is not yet a 
reliable partner.

    Senator Smith. Thank you, Dr. Brzezinski. I think it is 
fair to say we share the same view, as my opening statement 
made clear. I disagree with the administration's claims that 
Russia's role was a minor irritation, that it was a price worth 
paying to bring them into the international community. It 
seemed to me they were doing everything they could to frustrate 
the international community.

    Going forward, what do you see with their presence in 
Pristina and involved in this NATO force? What implications do 
you draw for the future?

    Dr. Brzezinski. The implication I draw is the very obvious 
one that we have to be very cautious in our dealings in order 
to make certain that our interests are fully safeguarded, and 
that our actions are based on a careful analysis of what needs 
to be done. In this particular case, I think General Clark was 
quite correct in arguing that we should preempt in Pristina.

    We did not, and as a consequence of that we could have had 
quite a serious crisis. If either the Hungarians or the 
Romanians or the Bulgarians had bowed under pressure we could 
have been faced with a large Russian paratroop force in 
Pristina, seriously attempting to carve out a partitioned 
northeastern Kosovo with very negative consequences for the 
outcome of what we had been trying to do for the preceding 3 
months, and perhaps even with some risk of a confrontation.

    To the extent possible, we should engage Russia in 
international cooperation, but without too many illusions 
regarding shared objectives, shared aims, and joint values. I 
think cooperation based on skepticism is probably less likely 
to lead us astray than cooperation based on premature 
illusions.

    Senator Smith. Dr. Brzezinski, you wrote in the middle of 
the conflict in Kosovo against Serbia that during the first 3 
weeks, NATO's air campaign against Serbia was timid and morally 
irresponsible. Based on my opening comment, I think you know I 
agree with that. Why do you think the Clinton administration 
pursued this sort of piecemeal buildup to this conflict?

    Dr. Brzezinski. I suppose it was a combination of domestic 
and international factors. First of all, the administration has 
a view of conflict that is to some extent colored by the 
experience of a number of its individual participants, namely 
some sense of hesitation about the use of power.

    This is not true of all of them. There are some very 
notable exceptions to that, but I would say, by and large, if 
you look at the personal inclinations of a number of people in 
the administration, they come from a perspective which has been 
historically skeptical about the application of force in order 
to deal with international problems.

    Second, in all fairness to it, one has to note that a 
number of NATO allies were very wary about the use of strong, 
tough application of military power against Milosevic. There 
were hesitations about casualties, and there were hesitations 
about the level of damage. There was a tendency to feel that a 
gradually escalating conflict might be more effective in 
inducing Milosevic to compromise, and there was a combination 
of these factors.

    Senator Smith. Do you think those factors carried over to--
inappropriately would carry over to any other conflict in the 
future? I mean, are you comfortable with the way the NATO 
command worked in this endeavor?

    Dr. Brzezinski. We all learn from experience, and my guess 
is the administration itself learned from experience, and I 
think there are some indications of that in the later conduct 
of the war. The bombing became somewhat more intense, and 
somewhat more punishing in the latter weeks of the war. I would 
hope that this shows that there was a learning process 
involved.

    Insofar as NATO is concerned, there is I think a problem 
that in an alliance of this sort, allegedly integrated, there 
is too much of an overlap between the decision that is 
political to conduct, in effect, a war, and the military 
decisions necessary to conduct it decisively. The overlap 
produces ambiguities and uncertainties.

    From what we have learned about the conduct of the war at 
critical stages, military decisions were second-guessed, and 
were second-guessed on political grounds. We even have that 
case arising in relationship to what I was talking about, 
namely the desire to preempt in Pristina, which apparently was 
expressed by General Clark, and was questioned by his immediate 
subordinate, the British field commander. His reluctance to do 
what General Clark wanted to do was backed by the British 
Government and then approved by the U.S. Government, thereby 
disallowing the NATO commander's initial decision.

    Senator Smith. Now, we have always thought of NATO as a 
defensive alliance. It is now proven it can go on the offense. 
Do you think that this manner of operation, excessively 
political, would be the case if NATO were responding to an 
attack upon it, in other words in a defensive posture? Would we 
be able to leave politics at the door and then function more 
effectively as a military alliance?

    Dr. Brzezinski. I would hope it would be more effective, 
and I think there is an element of common sense and human 
nature involved here. The war we were waging against Serbia, 
basically we could not lose. The only question was, could we 
win it, and could we win it soon enough? So we had this margin 
of comfort to make political decisions to hold back and so 
forth, because we are never at risk of losing the war.

    If we are attacked, that presumes that someone has attacked 
us. We think he might win, which then implies that we will 
probably be beleaguered. I think if attacked, then the sheer 
instinct of survival would compel us to act more decisively, 
and certainly we would be under pressure from those who are the 
most vulnerable to that attack to be more decisive, and I 
assume that would be the Germans if there was a war in Europe.

    And then if Germany was not defended effectively, it would 
be the French, and so I would not be at all surprised if it was 
the Germans and the French who would be saying to us, let us be 
more decisive, and maybe there is the risk that we would not be 
sufficiently decisive being over here and not over there.

    Senator Smith. When you were in the Carter administration, 
NATO certainly had more decisive plans in place in its defense, 
isn't that fair to say?

    Dr. Brzezinski. When we were confronting the risk inherent 
in those days, we were dealing with a much more powerful 
adversary than we now have, a Soviet Union which controlled 
half of Europe, a Soviet Union which politically felt it was 
riding the crest of history, which on the strategic level was 
beginning to think that it not only had nuclear superiority, 
but maybe even the capacity to decapitate us and prevent us 
from responding, and which was confident that it had the 
capacity to win a conventional war on the ground in Europe.

    So in that sense the situation was more ominous, and it 
also meant that we had to respond in a way which left no doubt 
as to what we would do, including the commitment to credible 
escalation, and we tried to do that by changing our strategic 
doctrine and by making it very clear that we would be prepared 
to fight a strategic war very early on, a strategic war 
involving concentration, counterforce attacks, and if 
necessary--if necessary, the early use of nuclear weapons.

    Senator Smith. Dr. Brzezinski, in conclusion, I wonder if 
there is some lessons you would have NATO learn, or you could 
think ahead as to NATO's role in the defense of the United 
States and Europe in going into the future, given its history 
as a defensive alliance, but its recent history of going on 
offense.

    What do you see NATO being for the United States and for 
Europe in the years to come? Does it have an increased or 
enhanced role, or a diminished role for our defensive purposes?

    Dr. Brzezinski. Well, I would hope two things would happen. 
One, that NATO would continue to expand, because there is no 
doubt in my mind that expansion of NATO enlarges the zone of 
stability and peace and security in Europe.

    It eliminates areas of ambiguity, so the continued credible 
expansion of NATO I think is very important. We should not be 
mechanically bound to the year 2002 as the date for the next 
enlargement, something that was spelled out at the April summit 
here, and which in my view unnecessarily binds the hands of the 
next U.S. President.

    I think we should be flexible regarding that date, and move 
on further expansion sooner if it is objectively feasible and 
if some countries qualify sooner, and in my judgment two or 
three might, specifically Slovenia, Lithuania, maybe Slovakia.

    Second, I would hope that the European members of NATO 
would draw lessons from the purely military aspect of what 
happened, and particularly from the fact that even though they 
spent together about 60 percent of what we spend on defense, 
they obtained thereby only about 10 percent of the military 
clout, and the reason for that is the lack of cooperation and 
integration among them.

    I do believe that in the longer run it is in their interest 
and in our interest that NATO be truly a joint American-
European partnership and not an alliance that binds the United 
States in a reciprocal relationship with 18 other States with 
an integrated military command, somewhat integrated military 
forces, but that is largely reliant on the American military 
capability.

    Senator Smith. Do you think that NATO's star is rising or 
falling among Europeans, among aspirant nations, among old 
allies? How is NATO now viewed?

    Dr. Brzezinski. If we had failed in Kosovo or had been 
outmaneuvered, as I believe we came close to having been 
outmaneuvered in the waning days of the war through Russian-
Serbian collusion, I think NATO would have been profoundly 
discredited.

    I think the fact that ultimately we prevailed, even though 
it took longer than it should have, I think that has been 
profoundly reassuring, and it has already had the effect of 
making the Europeans look more seriously about the need to 
cooperate closely. And it certainly has in my view sustained 
the hope of those nations which are not in NATO that they will 
be in NATO.

    And here again, let me refer to my testimony. I think the 
Romanians and the Bulgarians deserve a lot of credit for 
standing up together with the Hungarians, who are already in 
NATO, at a moment in which they were tested, and we have to 
bear that in mind as we think about the future of Europe.

    Senator Smith. Thank you so much, Dr. Brzezinski.

    Dr. Brzezinski. Thank you, Mr. Chairman.

    Senator Smith. You have been very helpful. We wish you a 
good afternoon.

    Now I will call the next panel up, Mr. Taft and Mr. Cohen. 
Thank you for your presence here today and your willingness to 
testify. Will Taft, we will start with you.

 STATEMENT OF HON. WILLIAM H. TAFT IV, PARTNER, FRIED, FRANK, 
           HARRIS, SHRIVER & JACOBSON, WASHINGTON, DC

    Mr. Taft. Thank you, Mr. Chairman. It is a pleasure to 
appear before the committee, and I commend you for conducting 
these hearings on this important subject.
    The objectives of the allied military campaign in Kosovo 
earlier this year, and the strategy that was employed to 
achieve them may be simply stated. The objectives were to 
assure that ethnic Albanians could live safely in Kosovo in the 
full enjoyment of basic political and human rights, to bring 
about the withdrawal of Serbian military and special police 
forces from the province, and to bring in NATO as part of an 
international security force.
    The strategy employed to achieve these objectives was to 
use air power. This was directed in this order: against Serbian 
forces in Kosovo, installations in Serbia that supported them, 
critical transportation routes and junctions, including roads, 
railways, and bridges, civilian infrastructure in Serbia, and 
ultimately certain facilities in Serbia that were less directly 
connected with the war effort, such as broadcast facilities, 
military and police headquarters, and other leadership and 
Government buildings.
    The strategy called for air attacks to increase gradually 
in intensity to an expanding target list until the Belgrade 
regime agreed to allied terms. We were trying to get Milosevic 
to change his policy, to change his mind. Allied ground forces 
were declared to be unnecessary at the outset of the campaign, 
and were not used.
    It appears, however, that in the closing weeks of the 
campaign, and you referred to this in your opening remarks, Mr. 
Chairman, the use of our ground troops was considered and, at 
the same time, KLA ground forces in Kosovo received some 
support from allied air power and perhaps other kinds of 
support as well.
    The decision to rely on air power exclusively, to intensify 
the campaign only gradually, and expand the target list slowly 
was the key feature of allied strategy. From a military point 
of view, its chief advantage over other options was in limiting 
casualties to allied forces. This, in turn, facilitated the 
task of maintaining public support for the campaign within the 
alliance.
    Obviously, these considerations, reducing casualties and 
maintaining public support, are of great importance, and a 
strategy that achieves them should not be casually criticized. 
At the same time, however, it should be recognized that the 
declared air-only policy involved substantial risks and 
significant costs.
    That the risks did not materialize, and that the heaviest 
costs were borne by others, especially the ethnic Albanian 
people of Kosovo, does not mean that we should ignore them in 
reviewing the conduct of the campaign. Whatever the military 
considerations that went into the decision to conduct a slowly 
escalating air-only campaign, it is evident that political 
factors were dominant.
    As I understand it, General Clark and his military 
colleagues favored attacking more targets sooner as the most 
effective way of achieving the objectives that had been set for 
them, and they wanted to prepare for the use of allied ground 
forces. Political considerations restrained them. Chief among 
these were the need to maintain unity in the alliance, and a 
desire not to overstress the allies' fragile relationship with 
Russia, which was supporting the Belgrade regime.
    Again, we should not underestimate the importance of 
satisfying these political requirements. It is hard to see, 
however, why skillful diplomacy could not have managed them; 
distorting the military strategy, putting its success at risk 
and permitting the Serbian campaign of genocide and ethnic 
cleansing to be carried out in Kosovo over a period of many 
weeks, were high prices to pay.
    Moreover, the allies seem to have been badly surprised by 
the large-scale flow of refugees that their politically 
constrained military strategy enabled the Serbian forces to 
generate. While a number of allied governments wanted to limit 
the military effort, or even adjust our objectives in the 
course of the campaign, the relatively inexperienced coalition 
in Germany leading--or was it following?--a public yet 
uncertain how best to fulfill its responsibilities in the field 
of security was the main difficulty.
    I expect that another time will find Germany less 
embarrassed about using force in a cause of vital importance, 
and less inclined to feel that the form and degree in which 
force is applied, at least in the levels that were being 
considered in the Kosovo conflict, have moral significance.
    My guess is that a more forceful and consistent approach in 
the United States, which had some divisions in its own 
counsels, could have produced a more responsible policy in 
Germany last time. That is to say, in Kosovo.
    With regard to Russia, I believe the allies unwisely 
invited Moscow to play a role in the Kosovo crisis and 
constrained their military strategy at several points out of a 
concern for Russian sensitivities. Our relationship with Russia 
is complex and, it seems, increasingly susceptible to short-
term shocks. Regrettably, this vulnerability is likely to grow 
in coming years, as Russia struggles to establish its new 
identity and set its course in the world.
    Over the long term, however, I do not believe our 
relationship with Moscow is ever improved by encouraging its 
involvement in matters where it has no genuine national 
interest at stake, and this is especially true where its views 
are likely to be influenced by ethnic and nationalistic 
sentiments. Nor do we help ourselves when we suggest that our 
policies in defense of vital interests can be moderated to take 
into account wrongheaded Russian views.
    Russia had a choice in Kosovo. It could have joined NATO in 
opposing Milosevic's ethnic cleansing, making clear that it 
stood in the right place on human rights. It chose instead, 
early on, to support the Belgrade regime, largely out of 
sympathy for fellow Slavs, and doubtless, in some instances, 
allegiances to an ideological soul mate.
    The consequences of this choice should have been that 
Russia was given no role in the crisis. Certainly, concern for 
its views should not have influenced our military strategy. 
Taken together, these political considerations seem to me to 
have had an unfortunate influence on the strategy for the 
military campaign in Kosovo. They slowed it down, permitted the 
ethnic cleansing campaign to continue for weeks, and increased 
the risk of ultimate failure.
    Any strategy based on persuading someone, in this case 
Milosevic, to change his mind is inherently more risky than one 
which undertakes to change the situation on the ground, whether 
that person changes his mind or not. It is worth trying, of 
course, but it should never be all you have got where vital 
interests are at stake.
    The allies evidently wanted to bring the military action to 
a swift conclusion, but the strategy they adopted practically 
assured that this would not happen. In the end, however, the 
campaign did achieve its objectives and, in recalling that, we 
should perhaps give credit to a final political factor--one 
that helped rather than hindered.
    The allies' credibility was at stake in the Kosovo 
conflict. There was no backing away from the objectives that 
had been set. Even if a less-than-optimal military strategy was 
being used to achieve them, it became clear that they were not 
going to change, and that the alliance would adapt its military 
strategy if necessary.
    So if some political considerations delayed success, this 
one made it eventually inevitable. It was, I think, when he 
realized this, and it is unfortunately a realization that can 
come only with time, that Milosevic threw in the towel. 
Regrettably, he was left standing, which was at least in part a 
result of the way NATO conducted the campaign. While it is 
understood Milosevic's removal was not a specific allied 
objective, it certainly would have been welcome.
    The conduct and the conclusion of the conflict, however, 
gave him time to rally political support, and it failed to 
discredit him in the eyes of enough of his countrymen. A 
different strategy I think could have made his survival much 
less likely.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Taft follows:]

                Prepared Statement of William H. Taft IV

    Mr. Chairman and Members of the Committee:
    The objectives of the allied military campaign in Kosovo earlier 
this year and the strategy that was employed to achieve them may be 
simply stated. The objectives were to assure that ethnic Albanians 
could live safely in Kosovo in the full enjoyment of basic political 
and human rights; to bring about the withdrawal of Serbian military and 
special police forces from the province; and to introduce an 
international security force with NATO in command of it.
    The strategy employed was to use air power. This was directed, in 
this order, against Serbian forces in Kosovo; installations in Serbia 
that supported them; critical transportation routes and junctions 
including roads, rails and bridges; civilian infrastructure in Serbia; 
and ultimately certain facilities in Serbia less directly connected 
with the war effort, such as broadcast facilities, military and police 
headquarters, and government buildings. The strategy called for air 
attacks to increase gradually in intensity to an expanding target list 
until the Belgrade regime agreed to allied terms. We were trying to get 
Milosevic to change his policy, to change his mind. Allied ground 
forces were declared to be unnecessary at the outset of the campaign, 
and were not used. It appears, however, that in the closing weeks of 
the conflict their use was being considered, and at the same time KLA 
ground forces in Kosovo received some support from allied air power and 
perhaps in other ways.
    The decision to rely on air power exclusively, to intensify the 
campaign only gradually and expand the target list slowly was the key 
feature of allied strategy. From a military point of view, its chief 
advantage over other options was in limiting casualties to allied 
forces. This, in turn, facilitated the task of maintaining public 
support for the campaign within the alliance. Obviously, these 
considerations are of great importance, and a strategy that achieves 
them should not be casually criticized. At the same time, however, it 
should be recognized that the declared air-only policy involved 
substantial risks and significant costs. That the risks did not 
materialize and that the heaviest costs were borne by others--
especially the ethnic Albanian people of Kosovo--does not mean we 
should ignore them in reviewing the conduct of the campaign.
    Whatever the military considerations that went into the decision to 
conduct a slowly escalating air-only campaign, it is evident that 
political factors were dominant. As I understand it, General Clark and 
his military colleagues favored attacking more targets sooner as the 
most effective way of achieving the objectives that had been set for 
them, and they wanted to prepare for the use of allied ground forces. 
Political considerations restrained them. Chief among these were the 
need to maintain unity in the alliance and a desire not to overstress 
the allies' fragile relationship with Russia, which was supporting the 
Belgrade regime.
    Again, we should not underestimate the importance of satisfying 
these political requirements. It is hard to see, however, why skillful 
diplomacy could not have managed them. Distorting the military 
strategy, putting its success at risk, and permitting the Serbian 
campaign of genocide and ``ethnic cleansing'' to be carried out in 
Kosovo over a period of many weeks were high prices to pay. Moreover, 
the allies seem to have been badly surprised by the large-scale flow of 
refugees that their politically constrained military strategy enabled 
the Serbian forces to generate.
    While a number of allied governments wanted to limit the military 
effort or even adjust our objectives in the course of the campaign, the 
relatively inexperienced coalition in Germany leading--or was it 
following?--a public yet uncertain how best to fulfill its 
responsibilities in the field of security was the main difficulty. I 
expect that another time will find Germany less embarrassed about using 
force in a cause of vital importance and less inclined to feel that the 
form and degree in which force is applied--at least at the levels 
involved in the Kosovo conflict--have moral significance. My guess is 
that a more forceful and consistent approach in the United States could 
have produced a more responsible policy in Germany in Kosovo.
    With regard to Russia, I believe the allies unwisely invited Moscow 
to play a role in the Kosovo crisis and constrained their military 
strategy out of concern for Russian sensitivities. Our relationship 
with Russia is complex, and it seems increasingly susceptible to short-
term shocks. Regrettably, this vulnerability is likely to grow in 
coming years as Russia struggles to establish its new national identity 
and set its course in the world. Over the long term, however, I do not 
believe our relationship with Moscow is ever improved by encouraging 
its involvement in matters where it has no genuine national interest at 
stake, and this is especially true where its views are likely to be 
influenced by ethnic and nationalistic sentiments. Nor do we help 
ourselves when we suggest that our policies in defense of vital 
interests can be moderated to take into account wrong-headed Russian 
views. Russia had a choice in Kosovo. It could have joined NATO in 
opposing Milosevic's ``ethnic cleansing,'' making clear where it stands 
on human rights. It chose, instead, early on to support the Belgrade 
regime--largely out of sympathy for fellow slavs and, doubtless in some 
instances, allegiance to an ideological soul-mate. The consequences of 
this choice should have been that Russia was given no role in the 
crisis. Certainly, concern for its views should not have influenced our 
military strategy.
    Taken together, these political considerations seem to me to have 
had an unfortunate influence on the strategy for the military campaign 
in Kosovo. They slowed it down, permitted the ``ethnic cleansing'' 
campaign to continue for weeks, and increased the risk of ultimate 
failure. Any strategy based on persuading someone--in this case 
Milosevic--to change his mind is inherently more risky than one which 
undertakes to change the situation on the ground whether he changes his 
mind or not. It's worth trying, of course, but it should never be all 
you've got where vital interests are at stake. The allies evidently 
wanted to bring the military action to a swift conclusion, but the 
strategy they adopted practically assured that this would not happen.
    In the end, however, the campaign did achieve its objectives, and 
in recalling that we should perhaps give credit to a final political 
factor that helped rather than hindered. The allies' credibility was at 
state in the Kosovo conflict. There was no backing away from the 
objectives that had been set. Even if a less than optimal military 
strategy was being used to achieve them, it became clear that they 
weren't going to change and that the alliance would adapt its military 
strategy if necessary. So, if some political considerations delayed 
success, this one made it eventually inevitable. It was, I think, when 
he realized this--and it is unfortunately a realization that can only 
come with time--that Milosevic threw in the towel. Regrettably, he was 
left standing, which was at least in part a result of the way NATO 
conducted its campaign. While, it is understood, Milosevic's removal 
was not a specific allied objective, it would have been welcome. The 
conduct and the conclusion of the conflict gave him time to rally 
political support and failed to discredit him in the eyes of enough of 
his countrymen. A different strategy could have made his survival less 
likely.

    Senator Smith. Thank you very much, Mr. Taft. Very 
excellent observations, which I think really do come in your 
case from time in the saddle in NATO, and so we thank you for 
that.

    Dr. Cohen.

    STATEMENT OF DR. ELIOT COHEN, PROFESSOR AND DIRECTOR OF 
   STRATEGIC STUDIES, THE SCHOOL FOR ADVANCED INTERNATIONAL 
     STUDIES, THE JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Dr. Cohen. Thank you, Mr. Chairman. It is a particular 
honor to be here in the company of two very distinguished 
public servants.

    Let me give you a somewhat different perspective, if I 
might, a perspective of an academic, but who has spent his 
career with military people. I should say at the outset that, 
although I very much share your concern and, in large measure, 
your disappointment, about the way this war was fought, I am 
not sure that I would entirely define it the way that you have 
in terms of political interference in the conduct of military 
activity.

    There are two issues here, one, how the United States 
exercises world leadership and, second, the state of American 
civil-military relations. I would like to talk about three 
areas where warfare and politics intersected, the first, war 
aims, the second, coalition management, the third, civil-
military relations.

    Let me begin by saying one of my most rewarding 
professional experiences was teaching for 4 years at the Naval 
War College in the company of many of this country's future 
senior military leaders.

    I was very struck by the way in which they had absorbed the 
idea that war is a continuation of politics by other means, by 
which they understood that war really had to serve the ends of 
policies. The issue was not simply civilian control as a result 
of our democratic institutions, but civilian control as 
something also required by the nature of war itself.

    With that as a preparatory remark, and I will come back to 
it in a moment, let me begin by talking about war aims. Did we 
achieve our stated objectives? I think one has to say that we 
did not achieve our objectives as they were stated at the 
beginning of the campaign. Remember, in the President's and 
Secretary Cohen's initial set of remarks, there were three 
objectives that were set forth. The first was to deter Serb 
ethnic cleansing. That was clearly a failure.

    The second was to stop the ethnic cleansing. It was 
eventually stopped at the end of 78 days of war, but it is also 
quite clear in retrospect we thought we would be able to do 
that in much less time and, indeed, it is even possible we may 
have accelerated the pace of ethnic cleansing by the way the 
war was conducted.

    Third, and finally, our stated objective was and to some 
extent still remains the creation of a political arrangement in 
Kosovo pretty much along the lines of the Rambouillet Accords, 
which envisions a multiethnic Kosovo that is still part of the 
Yugoslav Federation, and I think most observers at the Yugoslav 
scene would say that is not the most likely outcome of the 
situation as it now stands, that we are far more likely to see 
a Kosovo that becomes, in effect, a single-ethnic-group-
dominated independent State.

    There were unintended and unanticipated events, perhaps 
accelerated ethnic cleansing, perhaps this outcome of an 
independent Kosovo, certainly a dramatic worsening of our 
relations with China following the bombing of the Chinese 
Embassy, and even the way in which we won the war I would argue 
was unexpected.

    It seems to me, insofar as one can judge at a distance, 
that we expected our success to come through pressure on the 
Serb military, and whatever the damage that was done, and there 
can be and will be a great deal of haggling about the numbers, 
the fact is, it took 11 days for a largely intact Serb army to 
leave Kosovo.

    Rather, we won the war by the pressure we exerted on Serb 
society through bombing of targets which had in large measure 
importance for Serbs society and the Serb economy, and more 
importance than it did for the Serb military, so both the 
outcomes and to some extent the means were unanticipated.

    The main point I would make here is that this is in fact 
entirely in accord with everything we know about the history of 
war. There are a lot of things that are unanticipated, and 
perhaps the lesson to learn is not to expect too much, because 
at the end of the day we did finally bring to an end a reign of 
terror in Kosovo and a pattern of ethnic cleansing which I 
suspect would have been even worse than the eventual outcome, 
but it does seem to me that there is a lesson here about the 
limits of our ability to foresee what can happen when we go to 
war.

    What about coalition management? Well, again, there are 
many important questions, many of which will be unanswerable 
until we have more data. For example, the role of the Supreme 
Allied Commander Europe, General Clark. To what extent did he 
act and consider himself to be acting as an American General, 
or as the Supreme Allied Commander Europe, a NATO figure?

    To whom was he really responsible? Was he responsible to 
the Secretary-General of NATO, to the governments of NATO, to 
the American Government? It would be particularly important to 
find out how he defined his role and how he exercised it in 
practice.

    I should point out the issues that we are raising here are 
very longstanding, and one can trace them back to the First 
World War and beyond, to what extent a general officer remains 
attached to his nation, and to what extent he begins to 
represent an entire coalition, but I would like to highlight a 
different aspect of the way the war was won.

    Depending on how one would like to measure it, it is fair 
to say the United States exerted, say, somewhere between 75 and 
80 percent of the real military effort in this war. That is to 
say, if one looks at the sorties that were dropping weapons, if 
one looks at the intelligence support, at the command and 
control and logistics, this was overwhelmingly an American 
operation. It is pretty clear that we did not exercise 75 to 80 
percent of the control. The war was not fought the way that we 
would prefer.

    Senator Smith. Can you put that in a percentage?

    Dr. Cohen. I am not sure that I could, but I would probably 
say 50 minus, but that is a very rough guess.

    Senator Smith. And the purpose of that was to keep 
everybody unified?

    Dr. Cohen. In response, Senator, allow me to introduce what 
has struck me as the central piece of wisdom about coalition 
warfare by the greatest war statesman of this century and 
perhaps of all time, Winston Churchill. In a speech on January 
27, 1942, shortly after the United States had entered the war, 
when it was clear that there would be a grand coalition against 
the Axis powers, Churchill told the House of Commons the 
following:

    ``To hear some people talk, one would think that the way to 
win the war is to make sure that every power contributing armed 
forces and every branch of these armed forces is represented on 
all the councils and organizations which have to be set up, and 
that everybody is fully consulted before anything is done. That 
is, in fact, the most sure way to lose a war.''

    Now, as has already been pointed out, there was no way we 
were going to lose this war, but it does seem to me that that 
reflects a central piece of wisdom about the conduct of 
coalition war, and it is a piece of wisdom that we lost sight 
of.

    The central issue here was American leadership. To what 
extent were we leaning hard on our European allies to follow 
General Clark's lead, to conduct the kinds of policy, to fight 
the kind of war that we wanted to fight? As we know from the 
experience of successful coalition wars like World War II, that 
is not always a pretty process. That sometimes involves a 
certain amount of persuasion, and indeed, twisting of arms. It 
is not at all clear that that actually occurred, but again, the 
evidence is murky.

    The third point, civil-military relations. The word 
interference has been used a number of times, and I must say 
that I am somewhat doubtful of it, or at least I think there is 
more to it than that, that there is a more complex set of 
relationships which cry out for careful examination, and 
particularly examination by Congress.

    For example, we know that very early on in the campaign the 
President ruled out the use of ground troops. Almost everyone 
agrees that this was a foolish thing to do, that even if there 
was no intention to send ground troops into combat, there was 
no reason to give the Serbs the comfort of knowing that. There 
was nothing to be gained by that declaration.

    Senator Smith. Was there something to be gained at home, at 
least for European consumption, that was necessary?

    Dr. Cohen. I am not sure that there necessarily was.

    Senator Smith. I was hoping that there was something, that 
it would be that, but I am not even sure of that myself.

    Dr. Cohen. Senator, I have no idea myself why the President 
said that. I think there is something to be said for what Dr. 
Brzezinski said earlier, that this administration has a number 
of people in it with a particular set of outlooks on the use of 
force, and they may simply not have thought through what the 
consequences of this kind of declaration were.

    But let me make a point about this. This was pretty clearly 
the President's initiative and it is also, I think, pretty 
clear that General Clark was unhappy with it, and we know the 
Joint Chiefs of Staff were deeply unhappy with it. There was 
really only one large piece of evidence that we have about the 
thinking of the Joint Chiefs of Staff concerning this issue, 
and that is Bradley Graham's piece in the Washington Post on 
April 5, 1999, about 10 days or so into the war, which was the 
main window that we have into the thinking of the JCS, in which 
the account of JCS dissent, pretty clearly based on leaks from 
the Joint Staff and perhaps even from the Chiefs themselves, is 
all about whether this thing is in the American national 
interest.

    We do not know, although I think it would be important and 
useful to know, whether the military advice that the President 
was getting from his most immediate military advisors was 
either to retract that statement or not to make it at all or, 
indeed, to seriously consider the use of ground forces. It is 
important to remember that, after all, the President in some 
ways was dealing with two sets of military advisors here, one 
around General Clark, and one located in the Pentagon.

    Take another example, our extreme scruples about risking 
casualties. Early on in the air campaign planes were flying at 
15,000 feet. That is about 5,000 feet higher than they were 
flying in the Gulf war early on. That is a height at which it 
is extremely difficult to conduct any kind of precision 
bombing, save with some very special kinds of munitions.

    Was that civilian interference in military affairs, or did 
it, perhaps, reflect in part a certain degree of consensus? I 
would call your attention once again to a Washington Post 
article. That is yesterday's article about Camp Bondshell in 
Kosovo, where the first mission is force protection, and I am 
not sure that this really reflects this extreme scrupulousness 
about risking casualties, even at the expense of dragging out a 
war. Nor is this merely a result of the civilians injecting 
themselves into military affairs. I think it is more complex 
than that.

    Or third, consider target lists. I do not think there are 
any hard and fast rules about how to manage the politics of an 
air campaign. It is one of this country's most brilliant air 
war planners, Colonel John Warden, who said that in the world 
as it is today, every bomb is a political bomb, and surely one 
bomb going astray, hitting the Chinese Embassy because of an 
intelligence error, can have very, very large political 
consequences, and we saw that demonstrated. It would be as 
interesting to know what targets were ruled out by military 
planners as well as by civilian planners.

    So it seems to me that the central point here, there may 
have been interference, although the question is how we define 
that in an age where every bomb is a political bomb. There is 
also an issue of strategic culture, of what kind of advice is 
given, and how that advice is given, how frank the discussions 
are between military leaders and their civilian superiors.

    Let me make my final observation and perhaps something of a 
plea. Another tremendously rewarding professional experience of 
mine was directing something called the Gulf War Air Power 
Survey, which was an independent study commissioned by the Air 
Force of air operations in the Gulf war, and so it is with 
particular interest, having had that experience behind me, that 
I watch the ``lessons learned,'' industry go into high gear 
following this war, to include a variety of initiatives both 
from the Pentagon and also in Europe.

    Let me say, at the risk of sounding cynical, that I do not 
believe that it is possible for the executive branch to do a 
study that is comprehensive, candid, and unclassified. It can 
do two of the three, but to ask it to do all three is to expect 
too much. That really requires something that is outside, 
independent, in some cases mandated by Congress, in some cases 
commissioned by the executive branch, but done by people 
outside the executive branch.

    I think there is a tremendously important role for Congress 
here. There are a lot of unanswered questions, even about this 
war, conducted, as it was, in the light of publicity, and I 
would very much hope that you and your colleagues on the Armed 
Services Committee will consider and press forward the 
possibility of exploring in greater detail what actually 
happened.

    Thank you.

    Senator Smith. Thank you. I wondered if either of you had a 
comment on the chart over here, where we try to figure out what 
happened. If you see that hockey stick of a red line there, 
that is when we started to get effective, apparently, and so my 
question is, were ground forces necessary, even if they were 
somebody else's?

    Dr. Cohen. If I could address that on the basis of what I 
know about numbers, from having done so much similar work in 
Iraq. The first point to make, it is very difficult to trust 
any numbers.

    The truth of the matter is that in General Clark's briefing 
about equipment destroyed, it was clearly stated that we 
recovered 26 destroyed tanks. That is the number we actually 
put our hands on when the troops went in. Those numbers are 
based on various estimates, looking at film, looking at 
footage, intelligence reports and so on. Although I have a lot 
of respect for the people who do that work, it is still art as 
much as science.

    Second, there is a lot to be said for looking at the bottom 
bar, which is the weather bar. When the weather is good, you 
can do more.

    The third point is, there is the KLA. There may also have 
been Western special forces operating with the KLA, calling in 
air strikes. It seems to me that is another ground component 
that is important to be thinking about.

    Fourth, there is the importance in terms of the final 
decision to withdraw, of the virtual ground campaign. That is 
to say, if you recall that when the Serbs finally gave in, it 
was just at a point when there was beginning to be a lot of 
press discussion of the fact that there is serious 
consideration of ground operations going on. In fact, I think 
the President was having a meeting with the Joint Chiefs on 
that very day, and I suspect that the Serbs knew something 
about this.

    But the fifth and final point I would make is that the Serb 
Army in the field, although it lost some equipment, was still 
an organized force responding to orders and doing what it 
intended to do to the Kosovar Albanians.

    Senator Smith. Mr. Taft, did you have any comment?

    Mr. Taft. Well, it does seem to me that more activity on 
the part of the KLA was a factor in this, and certainly, 
reading about it at the time, you could see that it played a 
role in bringing the Serbs out into more visible places. There 
were also other factors at work. The weather is important, but 
I do not think the weather alone would account for that 
enormous spike in this graph.

    Senator Smith. I think you both probably heard my question 
to Dr. Brzezinski, and I think you have both sort of come at 
this from different directions, but it seems to me, maybe there 
are just a very unique set of circumstances in this conflict 
that should not color our entire perception of NATO's ability 
to operate. Is that a fair conclusion?

    Mr. Taft. I think that you should bear in mind a couple of 
points about the interaction between the political level of 
NATO and the military. The line is never clean--and I think Mr. 
Cohen has made this point very well--between what is political 
and what is military. You get political advice from the 
military, and you get military decisions from the politicians, 
and it is sometimes hard to tell the difference between the 
uniforms they have. This was NATO's first extended outing in 
running a campaign.

    Senator Smith. Did that discourage you, considering how 
much we leaned on NATO in years gone by?

    Mr. Taft. Well, I think we were unfortunate in that our 
policy of deterrence was no more effective than it was in the 
case of Bosnia, where we did not deter Milosevic by yelling at 
him. The reasons for that, I think you went into them last 
time. Our signals were so unconstant over the year that he was 
not deterred from doing what he in the end did, but there is no 
question that that coordination between politics and military 
could be better.

    The Europeans did not have the same experiences that we 
have had in the Gulf war. The recovery from the Vietnam 
syndrome, I would call it. Our pattern now is to give the 
political instruction to set the objectives, and then we really 
do, in the United States, have a tradition of relying on the 
military to tell us what they need to achieve those objectives, 
give them twice as much as they say they need, and tell them to 
get it done. That is the Weinberger approach, which I learned 
from him. But do not tell them how to do it once you have told 
them what you want done.

    The Europeans do not have that tradition. I think we got it 
through painful experience over the years, and I think the 
Europeans probably have a better understanding of why that is a 
good approach now, and I would think that we would not have as 
much difficulty another time. But this was the first time out. 
I hope there will not be another time, but if there is, I would 
look for a better performance.

    Senator Smith. Dr. Cohen, do you have any comment?

    Dr. Cohen. I guess two comments. One is, I very much agree 
with Dr. Brzezinski that if this had been a failure it would 
have been a serious blow to NATO. I am not sure whether this 
paves the way for a leap forward in terms of NATO's 
effectiveness, but had it been a failure, it would have been a 
real disaster.

    And what is impressive about it as an accomplishment is the 
fact that some of the governments stuck with it even though 
domestically it was very difficult for them, and the two 
governments I have in mind in particular were Germany and 
Greece, the Germans with a green foreign minister, of all 
things, leading the charge, and Greece with all of its 
historical ties to Serbia, that they were kept in the fold is 
really quite impressive, all things considered.

    The second point I would make is, I think it is very 
important simply to have reasonable expectations for what NATO 
can do, and I hope we are not going to march into the future 
thinking that NATO is now this cohesive military instrument 
which we can bring to bear to solve all kinds of difficult 
strategic issues.

    It is first and foremost a set of political undertakings. I 
think secondarily it is a whole set of arrangements to 
harmonize military forces so that when we do go to war we can 
integrate those forces. We sometimes forget, NATO actually made 
a huge contribution to the Gulf war that was invisible, because 
people were using NATO procedures, and the fact that we were so 
used to operating in a coalition framework in NATO made our 
task infinitely easier in the Gulf.

    So NATO has all kinds of pay-offs like that, but to expect 
it to be a smoothly running fighting machine, now or at any 
time in the foreseeable future, particularly as it expands, I 
think would be unrealistic.

    Senator Smith. Do either of you have enough familiarity 
with what lessons Europeans are drawing from this conflict that 
are different from the lessons you hear us trying to draw? Are 
there any real stark differences in interpretation of what went 
on?

    Dr. Cohen. Well, the only thing that one hears of is the 
Europeans talking more about, we need a more independent 
military capability. They are somewhat abashed by the extent to 
which they are relying on the Americans for support for all 
kinds of operations that are, after all, being conducted really 
not at all that far from the heart of Europe.

    I must say I am somewhat skeptical that that will turn from 
talk into Euros.

    Senator Smith. Is your skepticism born out of this 
condition of their governments' budgets? I mean, to achieve 
what we brought to the table in Kosovo would take a whole lot 
more than the 2 or 3 percent that most of them contribute to 
military spending.

    Dr. Cohen. It is partly a question of the economy and 
budgets, and that sort of thing, but it is, I would say, more 
largely a matter of culture. They expect us to take the lead, 
and they find it very difficult to agree among themselves what 
to do.

    There is something absurd about the idea of the United 
States having to take the lead in sorting out Yugoslavia, which 
is very, very far away from where we live, and I must say there 
is a certain contrast. It is a difficult situation, but in some 
ways a simpler situation in East Timor right now, where the 
Australians, a country of 20 million, maybe a population a 
third the size of that of a major European power, are taking 
the lead.

    Now, East Timor is a lot easier than Yugoslavia. I would 
not deny that for a moment, but it also reflects a difference 
in culture. It is a difference in political culture and in 
strategic culture, and that in some ways is the root of the 
problem. That is in some ways much more difficult to deal with 
than budgets.

    Senator Smith. It is nice to see the Australians doing 
that, though.

    Mr. Taft. I would just, Mr. Chairman, add, I think on the 
Germans, which is a key element of this, their performance in 
Kosovo was a great deal better than the performance that I saw 
when I was in NATO in 1990 on Turkey and Iraq. You might have 
thought it unlikely with the new government that they would be 
as good, but actually I do not think that the Christian 
Democrats would have been any different in this case.

    Germans are, for very good reasons, extremely cautious 
about getting involved in these things, and they have all sorts 
of reasons that bear on them and affect them very mightily, and 
that is not all bad. But in the Gulf, where the issue was 
absolutely crystal clear that they had an obligation under the 
treaty to defend Turkey against Iraq, for several weeks they 
raised extreme difficulties about sending their airplanes to 
Turkey just to do that. That would not have been a problem 10 
years on. They would have done that overnight.

    They are really coming to be part of the team. They are not 
where we are, they are not where the British are, but I was 
encouraged by the performance here, and I really think if we 
had let John Kornblum--given him his head and told him to go to 
work he probably could have done even better than he was doing, 
but there was division back here and actually, frankly, not 
just in the administration. There was division in the Congress, 
some terrible votes, disgraceful, as to where we stood, and so 
the Germans were getting complicated signals from this side of 
the water as well.

    Senator Smith. They were indeed.

    Just a final thought or question. I asked Dr. Brzezinski, 
are you optimistic or pessimistic about NATO's future, and how 
do you think it ought to evolve at this point, or should it 
dissolve.

    Mr. Taft. I am optimistic about it. I think the Europeans 
have had their memories about it refreshed, and have seen what 
it can do for them and what they cannot do without it. I think 
the American side has seen that it does rally when told to do 
so.

    There was a lot of concern that the Europeans might not be 
with us. They were not exactly on the same page as we were all 
the time, but a lot of them were ahead of us, the British in 
particular, and some not, but we have gone through that. I 
think the spirit for NATO, for using it for the things that it 
is well-used for is there in Europe and it is there in the 
United States.

    Now NATO is not a thing for everywhere. It is not for the 
Middle East. It is not for Africa. But to keep the peace in 
Europe and keep stability there, it has done a great job this 
year. It has had a good year, and I think it will be making a 
good contribution.

    Dr. Cohen. I guess I would pretty much share those views. I 
would say I am mildly optimistic, as long as we do not expect 
too much of it. It seems to me that it fills the roles I 
outlined earlier of a set of political agreements and 
undertakings and creating a certain kind of forum and it allows 
us to harmonize our militaries.

    It would be a mistake to think of it as a really effective 
war-fighting machine, but that does not seem to be what it is 
likely to be called upon to do.

    Senator Smith. Gentlemen, we thank you both. You have been 
very helpful, and we appreciate it, and ladies and gentlemen, 
we are adjourned.

    [Whereupon, at 3:50 p.m., the committee adjourned.]

                                  <all>

</pre></body></html>
